<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2011</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________

    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                ALAN B. MOLLOHAN, West Virginia, Chairman
 PATRICK J. KENNEDY, Rhode Island         FRANK R. WOLF, Virginia
 CHAKA FATTAH, Pennsylvania               JOHN ABNEY CULBERSON, Texas
 ADAM SCHIFF, California                  ROBERT B. ADERHOLT, Alabama
 MICHAEL HONDA, California                JO BONNER, Alabama
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland   
 JOSE E. SERRANO, New York                
 PATRICK J. MURPHY, Pennsylvania    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

              John Blazey, Dixon Butler, Adrienne Simonson,
              Diana Simpson, Darek Newby, and Brad Daniels,
                           Subcommittee Staff
                                ________

                                 PART 8

               STATEMENTS OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                ________

         Printed for the use of the Committee on Appropriations

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                ALAN B. MOLLOHAN, West Virginia, Chairman
 PATRICK J. KENNEDY, Rhode Island        FRANK R. WOLF, Virginia
 CHAKA FATTAH, Pennsylvania              JOHN ABNEY CULBERSON, Texas
 ADAM SCHIFF, California                 ROBERT B. ADERHOLT, Alabama
 MICHAEL HONDA, California               JO BONNER, Alabama
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland
 JOSE E. SERRANO, New York
 PATRICK J. MURPHY, Pennsylvania    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              John Blazey, Dixon Butler, Adrienne Simonson,
              Diana Simpson, Darek Newby, and Brad Daniels,
                           Subcommittee Staff
                                ________
                                 PART 8

               STATEMENTS OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                ________
         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 57-370                     WASHINGTON : 2010






                        COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 NORMAN D. DICKS, Washington               JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia           C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                        HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana               FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York                   JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York                 RODNEY P. FRELINGHUYSEN, New
 ROSA L. DeLAURO, Connecticut              Jersey
 JAMES P. MORAN, Virginia                  TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts              ZACH WAMP, Tennessee
 ED PASTOR, Arizona                        TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina            ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                       JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island          KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York              MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California         JOHN ABNEY CULBERSON, Texas
 SAM FARR, California                      MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois           ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan           DENNIS R. REHBERG, Montana
 CHAKA FATTAH, Pennsylvania                JOHN R. CARTER, Texas
 STEVEN R. ROTHMAN, New Jersey             RODNEY ALEXANDER, Louisiana
 SANFORD D. BISHOP, Jr., Georgia           KEN CALVERT, California 
 MARION BERRY, Arkansas                    JO BONNER, Alabama
 BARBARA LEE, California                   STEVEN C. LaTOURETTE, Ohio 
 MICHAEL HONDA, California                 TOM COLE, Oklahoma
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado
 PATRICK J. MURPHY, Pennsylvania    
                                    
                Beverly Pheto, Clerk and Staff Director

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2011

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                         Wednesday, April 14, 2010.
    Mr. Mollohan. The hearing will come to order.
    Today we have outside witnesses. It is a great opportunity 
for the Congress to learn about what folks who are stakeholders 
or just have an interest in the jurisdictions of our bill feel 
about the issues that are dealt with through appropriations. 
And I value this hearing very much.
    Unfortunately, today I am not going to be able to spend the 
whole day. I always do that, but there are just other things 
that I have to do. But we value your testimony, appreciate it 
very much, and consider this a very important part of our 
hearing process.
    Sometimes you think folks think that in the hearing 
process, everybody has their mind made up to begin with but 
that is really not true. And that is absolutely true with 
regard to outside witnesses, so we value your testimony.
    Our first witness this morning, we will hear testimony from 
Bill Acker. Mr. Acker is the Director of Broadcasting and 
Technology, West Virginia Public Radio.
    We very much appreciate your appearance here today, Mr. 
Acker. We will stick to a five minute rule on the Committee. We 
invite you to submit your written testimony and then you can 
summarize or proceed as you will for that period of time.
    Mr. Acker. Okay.
    Mr. Mollohan. Mr. Acker.
                              ----------                              

                                         Wednesday, April 14, 2010.

               ASSOCIATION OF PUBLIC TELEVISION STATIONS


                                WITNESS

BILL ACKER, DIRECTOR OF BROADCASTING AND TECHNOLOGY, WEST VIRGINIA 
    PUBLIC BROADCASTING, ASSOCIATION OF PUBLIC TELEVISION STATIONS

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Acker. Congressman Mollohan, Congressman Wolf, I 
appreciate very much the opportunity to testify today about the 
importance of the Public Telecommunications and Facility 
Program or PTFP.
    This year, public broadcasters respectfully request that 
the Subcommittee provide $44 million for PTFP. For more than 
four decades, PTFP has served as the critical infrastructure 
program that helped build and maintain the public broadcasting 
system, television, and radio.
    In recent years, there has been criticism that the program 
is no longer needed because the digital transition is complete. 
I remind you that is only a transmission digital transition.
    The view reflects a fundamental misunderstanding of PTFP. 
In recent years, yes, some funds from PTFP have gone to help 
stations meet the mandated digital conversion. However, PTFP 
has remained critical to addressing other station needs such as 
emergency equipment replacement, such as providing first-time 
service to communities, and assistance for regular equipment 
upgrades and maintenance.
    If PTFP were eliminated, stations would have nowhere to 
turn for the equipment needed to be replaced or upgraded. In 
fact, today's digital equipment will age much, much faster than 
analog equipment. Some stations that went digital ten years ago 
are already looking to PTFP for replacement and upgrade of 
equipment. Just think of having a ten-year-old computer. That 
is basically where many of the stations stand right now.
    The Administration's budget submission also contends that 
public broadcasting infrastructure costs could be absorbed by 
the Corporation for Public Broadcasting line item or CPB 
Digital Fund. What that argument fails to realize is that those 
accounts cannot handle needs-based infrastructure funding that 
varies from year to year, station to station, market to market.
    In addition to providing stations with a competitive 
public/private matching grant program to upgrade and replace 
station equipment, PTFP also serves several other significant 
roles. One of PTFP's key roles is that it is the only dedicated 
source of federal funding for our stations in the event of an 
emergency.
    For example, I have read grants for emergencies for a 
microwave failure in Montana and got the Montana system back in 
distribution to all their translators within a seven-day 
period. PTFP is the only place you can do that.
    Additionally, PTFP provides the only federal source for 
startup funding for stations who are looking to serve unserved 
or under-served communities.
    In my time in West Virginia Public Broadcasting, PTFP has 
provided over $3 million in grants to support the 
infrastructure of public television and public radio in West 
Virginia, such things as cameras, editors both for radio and 
for television, distribution equipment, recording equipment, I 
just finished a PTFP for recording equipment for Mountain Stage 
in order to do on-the-road digital broadcasts and hopefully 
digital television, studio lighting, and, of course, a major 
commitment to the digital transition.
    Current grant requests that I have in front of PTFP are 
primarily for radio service to unserved markets in the state. 
Bluefield is an example. St. Mary's is an example. We are 
trying to provide some additional broadcasts for radio in that 
St. Mary's area.
    PTFP has been drastically underfunded for the past several 
years. Last year, NTIA received nearly $50 million in 
applications, but the agency only had $20 million available for 
awards.
    Like all infrastructure projects, the costs and risks of 
failed service and failed investment in that infrastructure 
rise exponentially each year that the vital projects are left 
unfunded and unmaintained. This is especially critical right 
now during these economic periods.
    PTFP funding is about more than just towers and 
transmitters and antennas. Ultimately it is the means that 
ensures all Americans have access to the highest quality local 
education and cultural programming and services that are 
delivered to communities nationwide by America's public 
television broadcasters and radio broadcasters.
    As some of the last locally owned and operated media 
outlets in the country, PTFP is a critical resource, a vital 
resource for stations as they seek to share with their 
communities the breadth and depth of public broadcasting 
services.
    I want to thank you for the opportunity to appear before 
you today. We appreciate the support this Committee has given, 
has long provided public television and radio stations, and we 
look forward to continuing to work with you to ensure that all 
Americans have access to the highest quality of educational 
programming. It is vital that PTFP continue for the 
infrastructure of public broadcasting.
    Mr. Mollohan. What is the matter with the Executive Branch 
that it does not understand the difference between public 
broadcasting account and labor H and PTFP in our jurisdiction?
    Mr. Acker. I am sorry?
    Mr. Mollohan. What is wrong with the Administration after 
Administration, the Executive Branch, that they keep zeroing 
out PTFP?
    Mr. Acker. I think they basically misunderstand what PTFP's 
primary function is and how, for example----
    Mr. Mollohan. Well, no, no. I am sorry to interrupt you.
    Mr. Acker. Okay.
    Mr. Mollohan. Why don't you talk to them, make a convincing 
case? It really is helpful for this Subcommittee. When the 
Administration requests that and when they put a big zero in 
that account, we have to make that up in our allocation which 
is really hard to do. It is going to be very hard this year.
    Mr. Acker. Believe me, we will be doing more and more of 
that.
    Mr. Mollohan. Who would you be talking to in the 
Administration; do you know?
    Mr. Acker. Well, we----
    Mr. Mollohan. Well, you can figure it out.
    Mr. Acker. Yeah.
    Mr. Mollohan. That is okay. The point is it would be really 
helpful if they came forward with something. I think these 
accounts were up to $45 million at one point.
    Mr. Acker. Yeah. And that is what we are looking for next 
year. And I have read PTFP grants for years and I can tell you 
there are always more requests, but typically about 65 percent 
of them are unfunded----
    Mr. Mollohan. Yeah.
    Mr. Acker [continuing]. As far as a number of requests.
    Mr. Mollohan. Yeah. Did I hear you say there were $50 
million of requests?
    Mr. Acker. In requests last year and only $20 million 
funded.
    Mr. Mollohan. Okay. Well, thank you very much, Mr. Acker.
    Mr. Acker. Thank you.
    Mr. Mollohan. We appreciate your testimony here today.
    Next the Committee would like to welcome Scott Smith. Mr. 
Smith is Ohio County Prosecuting Attorney. He is testifying on 
behalf of the Fight Crime: Invest in Kids.
    Scott, welcome to the hearing today.
                              ----------                              

                                         Wednesday, April 14, 2010.

                      FIGHT CRIME: INVEST IN KIDS


                                WITNESS

SCOTT SMITH, PROSECUTING ATTORNEY, OHIO COUNTY, WV, FIGHT CRIME: INVEST 
    IN KIDS

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott Smith. Thank you. Good morning. And thank you for 
the opportunity to testify before you today.
    My name is Scott Smith. I am the Prosecuting Attorney in 
Ohio County, West Virginia. However, I am also a member of 
Fight Crime: Invest in Kids which is a national organization of 
more than 5,000 law enforcement leaders who have come together 
to take a hard-nosed look at the research about what really 
works to keep kids from becoming criminals.
    The organization, Fight Crime: Invest in Kids, takes no 
federal, state, or local money and does not run any of the 
programs we advocate for. I know from my experience as a 
prosecutor and from research that targeted investments in kids 
can help prevent crime and reduce recidivism.
    Title 2 and Title 5 of the Juvenile Justice and Delinquency 
Prevention Act, the Juvenile Accountability Block Grant, and 
Juvenile Mentoring programs and funding under the Second Chance 
Act provide needed support for evidence-based prevention and 
intervention strategies. Our goal is to keep kids away from 
crime.
    Title 5 Local Delinquency Prevention grants are the only 
federal funding source dedicated solely to the prevention of 
youth crime and violence. Title 5 grants can help fund after-
school programs that help at-risk youth avoid criminal activity 
in the first place.
    Fourteen million children lack proper adult supervision 
between 3:00 and 6:00 p.m. which is the prime time for juvenile 
crime. Programs such as Boys and Girls Clubs connect children 
with two caring adults and constructive activities during these 
hours. We know these programs work because studies have found 
that without Boys and Girls Clubs, 50 percent more vandalism 
and 27 percent more drug activity occurs during those hours in 
communities not served by those programs. Like after-school 
programs, high-quality juvenile mentoring programs also help 
at-risk youth.
    There are effective interventions to reduce recidivism 
among juveniles. JJDPA Title 2 and JABG can fund crime reducing 
therapeutic interventions for kids who have already gotten into 
trouble. And the new proposed Byrne Criminal Justice Innovation 
Program can help fund place-based, evidence-based approaches to 
help troubled youth stay on track.
    A carrot and stick approach combined with intense police 
supervision and expedited sanctions for repeated violence with 
access to jobs, drug treatment, and other services has shown in 
cities that it can cut homicides by violent offenders in high 
crime neighborhoods.
    There are also effective reentry approaches to reduce 
recidivism. The Second Chance Act supports reentry programs 
that help reduce recidivism rates among those that are 
reentering the communities by providing support and resources 
to guide juvenile ex-offenders.
    One of those programs is the Multidimensional Treatment 
Foster Care Program which has cut juvenile recidivism in half 
and saves the public an average of $89,000 per youth.
    Many of these needs have gone unmet. Unfortunately, these 
programs have remained underfunded in the past. JJDPA Title 2 
and Title 5 and JABG have yet to recover from many of the 
funding cuts from 2002.
    So I am here today to urge you to restore funding to the 
2002 levels for such programs as Title 5 Local Delinquency 
Prevention grants, Juvenile Accountability Block grants, and 
restore them to levels appropriated by Congress in 2002.
    I also urge you to fund the new Byrne Criminal Justice 
Innovation Program at $40 million and to fully fund programs 
authorized by the Second Chance Act, including funding for the 
Adult, Juvenile Offender State and Local Reentry Demonstration 
projects at the authorized amount of $55 million.
    In addition to increased funding for these programs, I urge 
you to set aside funding in NIJ for more research to find other 
programs that may help youth. This increase will help identify 
programs that really work to keep at-risk kids out of trouble. 
It will also help us to better understand which interventions 
with troubled adolescents can best enable them to develop 
skills that will keep them away from criminal activity.
    The funding will also help differentiate between programs 
that are effective for adults and those that are effective for 
kids and identify promising but currently untested approaches 
to youth crime prevention and intervention.
    In conclusion, once again, I thank you for letting me 
testify today. And on behalf of my fellow law enforcement 
leaders, I urge you to increase our nation's investment in 
these proven crime prevention strategies and improve outcomes 
for kids and save lives and taxpayer dollars.
    Mr. Mollohan. Scott, thank you for your appearance here 
today. It is not the first time.
    And thank you for your commitment not only to enforcing the 
laws in Ohio County and in West Virginia generally but also in 
looking at the other side and being interested in the 
prevention side and the intervention side, particularly with 
regard to our youth. You do a great job. And welcome to the 
hearing and say hello to a great family too.
    Mr. Scott Smith. All right. Thank you.
    Mr. Mollohan. Thanks for your testimony here. Thank you. 
Thanks, Scott.
    Next the Committee would like to welcome Dr. Mridul Gautam. 
Dr. Gautam is testifying on behalf of the Coalition of EPSCoR/
IDeA States.
    Dr. Gautam, welcome to the hearing today.
    Mr. Gautam. Thank you.
    Mr. Mollohan. Thank you.
                              ----------                              

                                         Wednesday, April 14, 2010.

                    COALITION OF EPSCoR/IDeA STATES


                                WITNESS

MRIDUL GAUTAM, INTERIM ASSOCIATE VICE-PRESIDENT FOR RESEARCH AND 
    ECONOMIC DEVELOPMENT, WEST VIRGINIA UNIVERSITY, COALITION OF 
    EPSCoR/IDeA STATES

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Gautam. Mr. Chairman, members of the Subcommittee, my 
name is Mridul Gautam and I am the Interim Associate Vice-
President for Research and Economic Development and a Robert C. 
Byrd Professor of Mechanical Aerospace Engineering at West 
Virginia University.
    Thank you for the opportunity to testify regarding NSF and 
NASA EPSCoR.
    For fiscal year 2011, we respectfully request $170 million 
for the NSF EPSCoR and $25 million for the NASA EPSCoR 
programs.
    EPSCoR is the mechanism at NSF and NASA that intends to 
address the geographic imbalance in research funding and for 
creating a truly national research community in all states.
    Although EPSCoR states have 20 percent of the population 
and about 25 percent of its doctoral research universities, 
they only receive about 10 percent of the allocation for 
research. Today there are 27 states and two jurisdictions 
participating in EPSCoR.
    EPSCoR research activities build a national research 
community and a scientific workforce which are essential to our 
nation's competitiveness and to the economies of the individual 
states.
    EPSCoR jurisdictions prepare a major portion of the 
nation's future high-tech workforce by educating thousands of 
engineers and scientists each year. We have many Truman and 
Goldwater scholars. We are among the major energy producing 
states and are in the forefront of ocean and coastal research, 
fossil energy research, climate change, and many other areas 
that are considered vital to our nation's future.
    We are grateful for the support the Subcommittee has given 
EPSCoR over the past years. However, we believe that we must 
again seek your help to strengthen the budget.
    The $170 million that we are requesting will help cover the 
costs associated with inclusion of ten additional states to the 
EPSCoR Program without jeopardizing the wonderful work underway 
in the original EPSCoR states, expanded research infrastructure 
and development and additional EPSCoR co-funding with other NSF 
programs.
    In West Virginia, the Research Infrastructure Initiation 
also known as the RII grants have brought strong young faculty 
and modern equipment to our campuses and increase 
competitiveness. There has been a doubling of competitive 
federal awards since 2005.
    Since 2004, $30 million has been invested in West 
Virginia's science and technology infrastructure. The research 
projects funded through the Research Challenge Fund have 
resulted in five startup companies with five-year projected 
revenues of $124 million. Two of the startup companies estimate 
that they will hire 295 additional employees in the next five 
years. In addition, two university research centers with 
industry partners were formed at WVU.
    Additionally, two faculty members at Marshall University 
who were hired by the 2001 RII Grant created the Cell 
Development Differentiation Center at Marshall. One of these 
faculty members recently discovered that acetaminophen may help 
age-associated muscle loss and other conditions. Without 
question, NSF EPSCoR's Track One RII grants were the catalyst 
for these recent commitments to improving West Virginia's 
research capacity and ultimately ensuring a brighter future for 
all West Virginians.
    The NASA Program helps our states, all states become more 
competitive in research areas associated with the NASA centers 
and enterprises. This is accomplished through two primary 
funding mechanisms, the research infrastructure development 
awards and the research implementation awards.
    In order to retain the current award levels in each 
participating state, NASA EPSCoR needs at least $25 million. To 
grow the number of research awards, additional funding would be 
required.
    NASA projects are having an impact on technological 
development in the country. A few examples include the Nevada 
Astrophysics Project and the Neutron Detectors for Detecting 
Illicit Nuclear Materials Project in Louisiana.
    Additionally, West Virginia NASA EPSCoR has resulted in 
three approved patents and six of them are pending. Our nation 
needs all our research capabilities and all our talent. EPSCoR 
enables eligible states to advance in vital science and 
research areas.
    I thank you for your support.
    Mr. Mollohan. Dr. Gautam, thank you for your appearance 
here today and your excellent testimony.
    I also want to thank you for being among those and at the 
very front rank among those in West Virginia who are bringing 
research capability and, therefore, innovation to the state. 
And you are doing nothing less than redefining the economy, 
diversifying the economy in ways that lay a great foundation 
for our future.
    And I want to thank you for your excellent academic work 
and also as it impacts the lives of all West Virginians. Thank 
you for your testimony here today.
    Mr. Gautam. Thank you, sir. Thank you.
    Mr. Mollohan. Thank you.
    Next the Committee would like to welcome Mr. Billy Frank, 
Jr. Mr. Frank will testify on behalf of the Northwest Indian 
Fisheries Commission.
    Mr. Frank, welcome to the hearing today. Thank you for 
appearing.
                              ----------                              

                                         Wednesday, April 14, 2010.

                 NORTHWEST INDIAN FISHERIES COMMISSION


                                WITNESS

BILLY FRANK, JR., CHAIRMAN, NORTHWEST INDIAN FISHERIES COMMISSION

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Frank. Good morning, Mr. Mollohan and Mr. Wolf. I am 
back again.
    Mr. Mollohan. We are pleased to have you back again.
    Mr. Frank. Thank you.
    Mr. Mollohan. You always do a great job.
    Mr. Frank. I am Bill Frank. I am Chairman of the Northwest 
Indian Fish Commission in the State of Washington. And I am 
here to support NOAA, Commerce, and all of our fishery programs 
out there in the Northwest who are seeking funding to address 
several fisheries management initiatives that are critically 
important to the Northwest tribes.
    These fishery resources that are protected by treaties with 
the United States are the basics of the culture and economics 
and their very existence as tribes. These fisheries are in 
trouble as continued population growth and the habitat 
destruction that accompanies this growth are making it 
increasingly important that recovery efforts are adequately 
funded.
    We requested the Pacific Coastal Salmon Recovery Fund be 
funded at the fiscal year 2002 level of $110 million. This fund 
is critically important to the states and the tribes to allow 
them to pursue the recovery of Pacific salmon throughout the 
Northwest and Alaska by financially supporting and leveraging 
local and regional efforts.
    Since its inception of 2000, the Pacific salmon has made a 
significant contribution to salmon recovery to address the 
federal responsibility under the ESA to recover listed species 
and under the treaties with tribes to recover stocks that are 
critically important to meeting the tribes' treaties reserve 
fishing rights.
    We have developed watershed-based recovery plans in 
collaboration with the communities that have been adopted by 
NOAA and those funds are now needed for implementation of these 
plans.
    Number two, we are requesting funding to implement the 
ocean ecosystem initiative in partnership with the State of 
Washington and NOAA. This initiative has two elements. First, 
we are seeking $1.1 million through NOAA's National Ocean 
Service to support the participation by the tribes and the 
state and recently formed Intergovernmental Policy Council 
which is intended to strengthen management partnerships with 
the Olympic National Marine Sanctuary.
    Through these partnerships, the participants hope to 
maximize resource protection and management while respecting 
existing jurisdictional authorities.
    Second, we are seeking $2.7 million that would be used by 
the tribal state and NOAA partnership to begin a multi-year 
program to assess rockfish populations and to map sea floor 
habitats off the northern Washington Coast. This information is 
a critical first step towards the development of an ecosystem-
based management plan for the region.
    Third, to further this ocean planning initiative, we 
support the Regional Ocean Partnership Grants Program continued 
in the Administration's budget under the National Ocean Service 
Coastal Management Account. The budget request for $20 million 
could be used to move our planning proposals into action.
    We also support the request by the U.S. Pacific Salmon 
Commission for $11.1 million needed for the implementation of 
the 2008 Pacific Salmon Treaty Chinook Annex to the treaty. You 
will hear more about that from David Bedford today.
    We support the full funding of $60 million for the Mitchell 
Act hatcheries and the restoration of the $10 million for the 
reform projects for these hatcheries.
    And the sixth and the last thing is we also want to extend 
our support for the request being made by Henry Cagey, the 
Chairman of Lummi Tribe, for their funding request for the 
economic fisheries disaster relief.
    And so I want to thank you for the opportunity of making a 
presentation before you today.
    Mr. Mollohan. Mr. Frank, thank you very much for your 
presentation here today.
    I know everyone who has the least bit of interest in all 
these topics not only appreciates but reveres your life-long 
activity in this area. And that gives your testimony 
considerable weight before this Subcommittee and we very much 
appreciate your appearance here today.
    Mr. Frank. Thank you.
    Mr. Mollohan. The Committee makes every effort to 
accommodate Members' busy schedules and we routinely take 
Members as they arrive. We are pleased to welcome Congressman 
Dean Heller.
    Congressman Heller, welcome to the Committee.
                              ----------                              

                                         Wednesday, April 14, 2010.

                    TESTIMONY OF MEMBERS OF CONGRESS


                                WITNESS

HON. DEAN HELLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEVADA

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Heller. Thank you.
    Mr. Mollohan. Your written statement, of course, will be 
made a part of the record. And summarize--we are working on a 
five-minute testimony----
    Mr. Heller. Okay. Okay.
    Mr. Mollohan [continuing]. Time frame here.
    Mr. Heller. And it will not take more than five minutes.
    Mr. Mollohan. And you probably do not want to take that 
long.
    Mr. Heller. Well, I appreciate the time and the efforts to 
hold this particular hearing, Ranking Member Wolf, for the 
opportunity to spend a few minutes with you.
    What I am trying to do here and encourage is for Congress 
to fully fund the U.S. Department of Justice's DNA Analysis and 
Capacity Enhancement Program to the authorized level of $151 
million.
    We had a tragic experience in my congressional district 
back in 2008 that allowed the awareness, continued awareness of 
my constituents for the need of greater investment in reducing 
these DNA backlogs.
    Some of you may or may not remember the national news 
report of a 19-year-old woman, college student at University of 
Nevada, Reno named Brianna Denison who was abducted, strangled 
to death, and left in a vacant field in southeast Reno. And, 
fortunately, law enforcement was able to use that DNA to 
determine who the abductor was and who the murderer was in this 
case and the fact that it was a serial offender. They were able 
to do that through DNA evidence.
    But, unfortunately, like most states, the backlog in DNA 
evidence in Nevada was more than 3,000 samples, so the local 
law enforcement community petitioned and was able to raise 
enough money, roughly $300,000, so they could take that backlog 
and remove that. And thanks for that effort, that suspected 
killer now of Brianna Denison is now in jail.
    So I think that the message in that is that clearly with 
law enforcement in the State of Nevada, there are extreme 
efforts to try to reduce this backlog and the results and the 
response from the community itself shows you that there is a 
real support from the American people to help and is committed 
to fighting these crimes through this DNA technology.
    So that is my argument here today. I think it is critical 
that we make sure that we help these law enforcement officials 
through the latest and greatest technology and through this DNA 
technology so that I could urge Congress that we could be more 
effective in this 21st century by allowing these DNA matches 
and otherwise aid more than what has been 51,000 cases since 
its inception.
    So, anyway, I think that we send a great message, a good 
message to our law enforcement community in supporting their 
crime fighting activities by fully funding the appropriate 
amount which is $151 million.
    And I want to thank you for the time and effort, what you 
are doing here today, and allowing me to spend a few minutes 
with you.
    Mr. Mollohan. Thank you very much for your testimony. I am 
sure the Committee is very supportive of these programs to the 
extent our budget allows.
    Mr. Wolf.
    Mr. Wolf. No questions.
    Mr. Mollohan. Okay.
    Mr. Heller. Okay.
    Mr. Mollohan. Thank you for your testimony here today.
    Mr. Heller. Thank you very much.
    Mr. Mollohan. Thank you.
    Next the Committee would like to welcome another colleague, 
Carolyn McCarthy.
    Carolyn, welcome to the hearing.
                              ----------                              

                                         Wednesday, April 14, 2010.

                    TESTIMONY OF MEMBERS OF CONGRESS


                                WITNESS

HON. CAROLYN McCARTHY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mrs. McCarthy. Thank you, Chairman Mollohan. Thank you, Mr. 
Wolf. Appreciate being here today again.
    I am here to basically ask again for $375 million to 
improve the instant background check system. This goes back to 
2002 when we actually passed a bill here in the House and then 
the Senate. The President Bush at that time signed it.
    Basically what it does is we have an awful lot of people 
out there that fall through the slips of not having the 
background checks before they buy their guns and we saw that 
unfortunately in Virginia Tech and we saw that in a shooting in 
my own district. And it happens unfortunately too frequently.
    What I am asking is also just as my colleague had talked 
about, our states do not have the money to update their 
computers. We have courts across this country that basically do 
not put the information in that it needs to know. As we know, a 
computer is only as good as the information that is in it.
    You have been very helpful in the past and I appreciate 
that, but we still have a long way to go and I am hoping that 
you might be able to help us out. I know you have my full 
testimony, so I am not going to go through all of that.
    The other thing that I am asking for is requesting $65 
million in additional funding for ATF. ATF, we have been hiring 
more personnel, but, unfortunately, a lot of that personnel is 
not doing the job that they are needed to do, to basically look 
at the bad apples, the bad seeds of the gun stores that are 
selling guns illegally, not keeping track of their stock.
    Right now they are supposed to be checking the stores once 
a year. With the manpower they have, it would take between five 
and ten years to be able to go through and inspect every 
licensed dealer in the country. This gap allows corrupt dealers 
to go many years without being suspected or even caught.
    Again, the ATF would be given the funding to hire at least 
125 investigators and 250 agents to form investigation teams 
tasked with tracking down and prosecuting gun traffickers 
around the country.
    I am pleased to see that the President has put money in, 
especially with the problem that we are seeing along the 
Mexican borders. Those particular guns that are coming into 
this country unfortunately are making it to many of our states.
    And so I think the ATF certainly deserves an increase to 
help them do their job, especially in this time of need, not 
only on what is going on in Mexico, but also looking at, you 
know, the terrorists that are coming into this country.
    I am one of those that do believe that we have a problem 
with people sneaking into this country and we must do 
everything possible to make sure they do not get their hands on 
any kind of ammunition or any kind of guns. And I certainly 
hope that I might be able to get your support as you go through 
this process. And I will be more than happy to answer any 
questions.
    Mr. Mollohan. Carolyn, thank you very much for your 
testimony here today.
    And we are putting a tremendous emphasis on trying a 
Southwest Border Initiative, trying to identify the sources and 
to prevent the kind of trafficking that is occurring that is 
supplying Mexico with most of the guns it has. So we are very 
cognizant of it, partially because of testimony like yours here 
today. Appreciate that testimony and we look forward to being 
as responsive as we can.
    Mrs. McCarthy. Thank you, Mr. Chairman. Appreciate it.
    Mr. Mollohan. Mr. Wolf.
    Mr. Wolf. I have no questions.
    Mr. Mollohan. Okay. Thank you.
    Thank you, Carolyn.
    Mrs. McCarthy. Thank you.
    Mr. Mollohan. Next the Committee would like to welcome Mr. 
Elbridge Coochise. Mr. Coochise is testifying on behalf of the 
Independent Review Team.
    Mr. Coochise, welcome to the hearing today. How are you 
doing?
    Mr. Coochise. Pretty good.
    Mr. Mollohan. Good.
    Mr. Coochise. Thank you, Mr. Chairman.
    Mr. Mollohan. Good.
                              ----------                              

                                         Wednesday, April 14, 2010.

                        INDEPENDENT REVIEW TEAM


                                WITNESS

ELBRIDGE COOCHISE, CHIEF JUSTICE, RETIRED, INDEPENDENT REVIEW TEAM

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Coochise. I am Elbridge Coochise. I am the Team Leader 
of the Independent Tribal Court's Review Team. We have been----
    Mr. Mollohan. Coochise.
    Mr. Coochise. Huh?
    Mr. Mollohan. Coochise, is that the way you pronounce it?
    Mr. Coochise. Actually, the proper is Coochise, but I just 
go by Coochise. That is easiest for most people to say.
    Mr. Mollohan. Say it one more time.
    Mr. Coochise. Coochise. Say it from here.
    Mr. Mollohan. Coochise.
    Mr. Coochise. Yeah.
    Mr. Mollohan. Thank you. I fumbled here. Thank you.
    Mr. Coochise. Thank you.
    Mr. Mollohan. And pardon me for mispronouncing your name.
    Mr. Coochise. That is fine. I probably could not say yours 
right half the time either, so thank you very much.
    Mr. Mollohan. Say it. Let me hear you say it.
    Mr. Coochise. Okay.
    Mr. Mollohan. No, no. Say my name.
    Mr. Coochise. Huh?
    Mr. Mollohan. Say my name.
    Mr. Coochise. Isn't it Mollohan?
    Mr. Mollohan. That is pretty good.
    Mr. Coochise. Okay.
    Mr. Mollohan. Thank you.
    Mr. Coochise. I am here representing the Independent Tribal 
Court's Review Team. We have been out on the road reviewing 
Tribal Courts, CFR, Code of Federal Regulations Court for four 
years now. We have 69 as of last week.
    And part of the project is also to go back and help some of 
those courts that need assistance and to not only just help the 
court process along but to develop policy for the systems.
    And I am here to request funding for the Tribal Courts. It 
is still on average that tribes get funding for their court 
systems at 26 percent of what is needed. So they are not fully 
funded and most of them either have part-time courts or if they 
have a few of them who have extra income, they can pay for 
their systems.
    And we do, as our team recommends, support the President's 
2011 proposed budget of seven percent, but because of the 
shortage, we request again that the Committee propose or 
appropriate the $58.4 million that was approved in the Tribal 
Justice Act, but, if not, at least increase the funding another 
ten percent from the past year.
    And we do thank the Committee for the increase in funding 
and to maintain the set aside in the Department of Justice 
Justice Service Program. The request is to again support the 
hiring and training of court personnel.
    And there is a new bill going through the Congress right 
now. And especially judges, if they are going to do the 
recommended sentencing, are going to be required to be 
attorneys. And a number of our judges are not law trained in 
Indian Country, mostly because of lack of funding to provide 
salaries which also goes to the Appellate Court.
    A lot of our Appeals Court judges in the different Tribal 
Courts are paid $25.00 an hour even though they are attorneys, 
so they are actually doing pro bono work. And there is a limit 
to how much they can do and there are backlogs of appeals in a 
number of courts.
    But the other thing is a lot of our courts are still in 
condemned buildings. We were just in the one in New Mexico last 
week and most of us got sick because of the asbestos and 
whatever was in there. And so they need funding to fix up their 
buildings or get new buildings.
    And the other is the state of the art. Most of our work on 
corrective action has been support, trying to get their CMS 
data collection systems operating. Part of the problem is lack 
of funds because those systems run between $60 and $80 thousand 
a year. And then to license them to each person that uses is 
usually $5,000 to pay for a license. And so if you have three 
or four clerks, that is still a big chunk of the budget.
    And the other is regarding security. Security in Tribal 
Courts is almost nil. In fact, a number of times, we went to a 
court and we were greeted by inmates when we went in the court. 
And they are walking through the halls with the judges and the 
court personnel because there is not enough staff. And so the 
security needs to be made and then development of codes and 
financial code systems.
    And we certainly appreciate what the Committee has done 
last year and the funds that it appropriates are well used. 
But, again, because of the grant process, we have seen a number 
of Drug Courts that started and developed well and then after 
three years without further funding, they had to close the 
doors.
    Mr. Mollohan. Why aren't they receiving further funding?
    Mr. Coochise. Because their grant processes are one year or 
three years.
    Mr. Mollohan. And so there is not a source of money to 
sustain them?
    Mr. Coochise. No.
    Mr. Mollohan. And this is federal grant, competitive grant?
    Mr. Coochise. Yeah, awarded at the Department of Justice. 
And most of the tribes that do the Drug Courts do not have 
enough to do that let alone the other regular court systems. 
And so once they start up, one tribe had seven different 
grants, not just from DoJ, but others, and they all seem to end 
on the same period. So they are in a world of hurt right now.
    Mr. Mollohan. Yeah. There needs to be some coordination, 
some real attention given to what kind of funding, sustainable, 
dependable funding stream Tribal Courts can rely upon and the 
whole tribal justice can rely upon. And that is an issue that 
is very much of interest to us, to me.
    Mr. Coochise. At this point, there is really not any 
coordination because each tribe is or most tribes in Indian 
Country--there are 300 courts in Indian Country and most of 
them are small tribes. So they do not have the revenue of the 
economy. Only the few that have gaming maybe have enough to 
support their court systems.
    Mr. Mollohan. Uh-huh.
    Mr. Coochise. But most of them are dependent on federal 
funding.
    Mr. Mollohan. What other Appropriation Committees do you 
get funding through, Interior?
    Mr. Coochise. Interior.
    Mr. Mollohan. For tribal justice issues?
    Mr. Coochise. Yeah. Interior----
    Mr. Mollohan. Is that where you get most of your funding 
for----
    Mr. Coochise. Yeah. There was $11.9 million and then this 
year, $10 million. There was a $10 million increase. So it is 
up close to $22 million, which is the first time the courts 
have gotten additional funding. And those are contracts, so 
they are ongoing. They go up and down, but they are at least 
ongoing.
    Mr. Mollohan. Well, we are looking at this issue very 
seriously, recognizing the kind of budgets we have, but we do 
want to work with you on this.
    Mr. Coochise. Okay. And we appreciate what you have done 
thus far, but, like I said, we hope that the Act that was 
adopted by the Congress can be funded so that our court systems 
can operate more fairly as far as services and process.
    Mr. Mollohan. There are just so many problems starting with 
the scarce resources, but then there are also all the 
jurisdictional issues that make it terribly difficult to deal 
with tribal justice issues effectively.
    Mr. Coochise. Three hundred court systems and then even 
then, you have got 558 or so federally recognized tribes. So 
only half the tribes have their own court systems. The others 
are in 280 states where states have jurisdiction. So those are 
some of the jurisdictional issues and problems that we face.
    Mr. Mollohan. Well, we have an opportunity to sit down and 
talk about this more.
    Mr. Coochise. Okay. We appreciate any input and assistance 
you can give.
    Mr. Mollohan. Okay.
    Mr. Coochise. Thank you very much.
    Mr. Mollohan. Thank you for your testimony.
    Next the Committee would like to welcome Mr. David Bean who 
will testify on behalf of the----
    Mr. Bean. Puyallup.
    Mr. Mollohan [continuing]. Puyallup Tribe of Washington. 
Thank you.
    Mr. Bean. That was a great job.
    Mr. Mollohan. Yeah. Thank you. Welcome to the Committee. We 
appreciate your coming and we look forward to your testimony. 
And your written testimony, of course, will be made a part of 
the record.
    Mr. Bean. Yes, sir.
    Mr. Mollohan. Thank you.
                              ----------                              

                                         Wednesday, April 14, 2010.

                      PUYALLUP TRIBE OF WASHINGTON


                                WITNESS

DAVID BEAN, PUYALLUP TRIBE OF WASHINGTON

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Bean. Chairman Mollohan, members of the Subcommittee, 
my name is David Bean. I am here today on behalf of my 
Chairman, Herman Dillon, Sr., who is at home under doctor's 
orders.
    Mr. Mollohan. Oh, we are sorry he could not make it today. 
Please extend our best wishes.
    Mr. Bean. Yes, sir. Thank you.
    On behalf of the Puyallup Tribe Indians, I would like to 
thank you for the opportunity to meet with you to discuss the 
fiscal year 2011 budget for the U.S. Department of Justice and 
for the Subcommittee's continued support of critical tribal 
issues and programs.
    And thank you for your past support. I raise my hands and 
give thanks to all the support you have given to these 
important issues. We look forward to working with you to ensure 
that adequate funding for important Department of Justice 
programs are included in the fiscal year 2011 budget.
    The Puyallup Reservation is an urbanized tribe. We are 
located south of Seattle. Our reservation encompasses 18,000 
acres. Within those boundaries are the cities of Tacoma, Fife, 
Milton, Edgewood, Federal Way. We provide services to over 
4,000 members and over 25,000 federally recognized Native 
American and Alaska Natives.
    We currently operate a law enforcement department that 
consists of one chief of police, 26 commissioned officers, two 
reserves, and nine detention officers.
    In today's limited funding in Indian Country for law 
enforcement, only two of our positions are funded by the BIA. 
The remaining personnel in the facility's operation and 
maintenance are funded with tribally earned income in the 
amount of $5.7 million annually.
    We presently have strong working relationships with local 
jurisdictions and for the past several years, we have had 
interagency local agreements with Pierce County Department 
Police and the Tacoma Police Departments.
    This allows our officers to be cross-deputized and allows 
them to arrest, make arrests under the neighboring 
jurisdiction, and turn them over to the local jurisdiction. So 
it provides a good working relationship with the local law 
enforcement agencies.
    Interstate 5 runs through our reservation and it is 
considered a major drug corridor. With this growing population, 
gang related activities, and the impact of manufacture of 
methamphetamines in the region, service of our law enforcement 
division are exceeding maximum response capacities.
    While there are many Department of Justice programs that 
are in need of increased funding such as Tribal Courts, 
community-oriented policing services, tribal youth programs, 
and the Violence Against Women Act, we would like to talk to 
you today about our justice facility.
    In an effort to protect the safety and welfare of our 
tribal community and surrounding communities, we have initiated 
design and construction of a 46,000 square foot Justice Center 
located within our reservation boundaries. The total 
construction cost is estimated to be around $23.8 million.
    The Center will provide necessary facilities for the 
delivery of justice services, including a correction facility 
with 46 beds, a law enforcement command center, and a judicial 
Tribal Court center. Phase one involves the construction of a 
46-bed, 17,000-square-foot corrections facility at a cost of $9 
million.
    Our tribe was successful in securing fiscal year 2009 
Department of Justice ARRA grant funding in the amount of $7.9 
million.
    While the construction of this facility happening 
currently, the tribe is ever mindful of the need to provide for 
the corresponding funding for the operation of the detention 
service at this facility. We are meeting with the Bureau of 
Indian Affairs now so that when we open in fiscal year 2012, we 
have the necessary resources to operate the facility.
    We urge the Appropriation Committee to fully support the 
BIA funding levels that will ensure that these facilities, once 
built, can be used as Congress intended. We also urge you to 
direct the Department of Justice and the BIA to advise Congress 
as to the expected funding needs for fiscal year 2012 for the 
Puyallup facility as well as other facilities funded by ARRA 
grants.
    While we greatly appreciate the Committee's support for 
detention facility construction, there is a desperate need for 
other broader public justice and safety facilities funding. 
Many tribal facilities including police departments and Tribal 
Court buildings are dilapidated and present hazards for our 
employees and the public who seek services at these facilities.
    We urge the Committee to support expanded use of bricks and 
mortar dollars to include not just detention services but for 
broader programs including police departments and Tribal 
Courts.
    At Puyallup alone, we are requesting a special 
appropriations for the construction of phase two and three of 
our Justice Center which will be our police department and 
Tribal Courts. The total cost of phases two and three are 
estimated at $14.8 million. The new Justice Center will provide 
Puyallup Tribe with facilities necessary to carry out our 
responsibilities in overseeing and administering the tribal 
justice system and will better enable effective regional 
cooperation and coordination with our sister jurisdictions.
    This approach matches directly with the efforts of the 
Department of Justice and Bureau of Indian Affairs to maintain 
open communications, cooperate in strategic program development 
with the goal of addressing tribal justice needs on a holistic 
basis, rather than the existing compartmentalized method of 
implementation of programs, that complement each department's 
effort and funding. These types of efforts should be encouraged 
and supported throughout Indian Country.
    And, again, I raise my hands and say thank you. Thank you 
for the opportunity to share our needs with you here today.
    Mr. Mollohan. Well, you are very welcome. And we look 
forward to reviewing your testimony more carefully.
    Are you also going to testify on behalf of the National 
Congress of American Indians?
    Mr. Bean. No, sir.
    Mr. Mollohan. Oh, okay. I am sorry.
    Okay. Thank you. Thank you, Mr. Bean.
    Mr. Bean. Thank you.
    Mr. Mollohan. Thank you very much. We look forward to 
following up and working with you.
    Mr. Keel, thank you.
    The Committee would next like to welcome Mr. Jefferson Keel 
to the hearing. He is present and will testify on behalf of the 
National Congress of American Indians. He is also the 
Lieutenant Governor of the Chickasaw Nation.
    Mr. Keel, welcome to the hearing today.
                              ----------                              

                                         Wednesday, April 14, 2010.

                 NATIONAL CONGRESS OF AMERICAN INDIANS


                                WITNESS

JEFFERSON KEEL, LIEUTENANT GOVERNOR, CHICKASAW NATION; PRESIDENT; 
    NATIONAL CONGRESS OF AMERICAN INDIANS

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Keel. Thank you, Mr. Chairman, members. Thank you for 
allowing me this opportunity today to testify before you.
    Across the nation, tribal leaders have underscored the 
importance of public safety in budget consultations over the 
years and emphasize the need for more resources.
    Today the inadequacy of public safety resources poses a 
direct threat to native citizens and the future of Indian 
Country.
    The National Congress of American Indians is encouraged 
that the Administration continues to support the increases for 
tribal programs at the Department of Justice.
    The Department of Justice requested a total of $448.8 
million for public safety initiatives in tribal communities, 
$256 million of which will fund tribal grants. This is a 
substantial increase over the DoJ's fiscal year 2010 funding 
levels for tribal-specific programs.
    The Department plans to award fiscal year 2010 and 
subsequent years' appropriations to tribes under a consolidated 
grant process. This new approach is based on comments from 
tribal leaders and the intention of this new approach is to 
provide additional flexibility to target resources where tribes 
really need them.
    The Department proposes new bill language that would 
designate a seven percent tribal set-aside totaling $139.5 
million from all discretionary Office of Justice programs for 
tribal criminal justice assistance.
    DoJ proposes to eliminate bill language contained in prior 
years' appropriations acts that had specific funding amounts 
for tribal justice programs such as prison construction, Tribal 
Courts, alcohol and substance abuse, reduction assistance, and 
youth programs.
    We ask the Subcommittee to consider if core tribal justice 
programs require a base amount of resources so that the fiscal 
year 2011 spending bill or report should direct the Department 
to allocate final fiscal year 2011 funding at no less than the 
2010 enacted levels.
    Other programs and our testimony are outlined in our 
written testimony.
    The funding increases included in the DoJ's budget request 
are necessary to strengthen tribal law enforcement 
infrastructure. NCAI supports the DoJ budget request for fiscal 
year 2011.
    The Administration and Congress provided a remarkable 
amount of $225 million under the American Recovery and 
Reinvestment Act for DoJ for the tribal facility's 
construction. An example of that investment is that the ARRA 
has allowed the Rosebud Sioux to pioneer a new model for Indian 
prisons. The jail is being designed to cultivate a sense of 
culture and identity among inmates as a way of changing a penal 
system that often contributes to further alienating prisoners 
from the community and the hardening of criminals.
    The penal system across Indian Country, underfunding, and 
outdated facilities leave inmates with a lack of basic 
amenities, sanitation, and safety. These poor conditions, 
likened to developing countries, inevitably mean crime is 
rampant within prison walls, serving to educate even the most 
petty of criminals in the ways of hard crime. The Rosebud 
corrections facility administrator said, and I quote, ``Prison 
turns our tribal members into hardened criminals. They come out 
much worse than when they went in.''
    Beyond the deteriorating infrastructure, the Rosebud Prison 
has reached its capacity and, thus, the Tribal Court faces the 
dilemma of either overcrowding the prison or accepting its 
limited ability to punish crime.
    The Rosebud facility will provide 65 immediate jobs during 
the construction phase and is projected to create an impressive 
100 long-term jobs, this in an economy with an 85 percent 
unemployment rate. The new facility will hold 200 inmates and 
implement a dramatically new type of incarceration. It will 
rehabilitate its inmates through exploring their sense of 
identity during the course of their imprisonment.
    This prison will aim to restore the sense of community and 
it is just one example of the potential successes that adequate 
resources for public safety in Indian Country can foster.
    The need for these resources, upwards of $8.4 billion, 
dwarfs the amount provided even in ARRA funding. The amount 
provided for this line item has fluctuated over the last few 
years with an average of about $10 million each year. NCAI 
requests that the support provided for detention facilities is 
at least maintained at the fiscal year 2010 level of $10 
million for 2011.
    The 2010 Census is upon us and NCAI has been very active in 
promoting American Indian and Alaska Native participation in 
this event to avoid the historic undercounts of native people. 
However, in 2010, there will be no long form survey to ask the 
detailed questions about social and economic characteristics 
which the American Community Survey has replaced.
    The census publishes its annual ACS data only for areas 
with a total population of all races of 65,000 or more. The 
only reservation that falls into this category is the Navajo 
Reservation. Data for areas with a total population of 20,000 
or more is published in three year estimates.
    With the census long form gone and no data of equivalent 
quality, tribal leaders will lose the kind of information they 
have historically relied upon to measure the well-being of many 
of our communities.
    The Administration has proposed a $44 million increase in 
fiscal year 2011 for the ACS to increase the sample size to 
improve track level data accuracy, enhance field and telephone 
center data collection, conduct a 100 percent nonresponse 
follow-up operation in remote Alaska and Indian reservation 
areas, and for additional review of three- and five-year data. 
And NCAI supports this badly needed increase.
    Thank you again for the opportunity to testify and I look 
forward to working with this Committee.
    Mr. Mollohan. Well, thank you, Mr. Keel, for your testimony 
here today.
    We will review your testimony more carefully. Your concerns 
about the Census is something I want to follow up on in 
addition, obviously, to the funding needs you have that really 
are so inadequately met. And I am pleased to see this 
Administration coming forward with a real effort to address 
that.
    Mr. Keel. Absolutely.
    Mr. Mollohan. And I want you to know that this Committee 
last year within our means made every effort to address it as 
well. So we just need to find the money here to----
    Mr. Keel. Well, we certainly appreciate that.
    Mr. Mollohan [continuing]. Address it.
    Mr. Keel. And we appreciate all of your efforts. And I want 
to thank you once again.
    Mr. Mollohan. Okay. Well, we look forward to visiting with 
you to see how we can do the best we can do.
    Mr. Keel. Thank you again.
    Mr. Mollohan. Thank you for your testimony here today.
    I am going to ask Mr. Fattah to assume responsibilities for 
the Committee, to take the Chair, and I'll excuse myself 
because I have to go.
    I thank all the witnesses who have testified and all those 
who are waiting to testify.
    And, Chaka. Okay. Thank you.
    Mr. Fattah [presiding]. Okay. We will have Congressman 
Farr.
                              ----------                              

                                         Wednesday, April 14, 2010.

                    TESTIMONY OF MEMBERS OF CONGRESS


                                WITNESS

HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Farr. Thank you very much, Mr. Chairman.
    I want to apologize to those sitting behind me today. As a 
former County Commissioner and Supervisor, I am very 
sympathetic to their needs.
    But I am here to talk about the big NOAA, the whole budget 
in the Department of Commerce. And I appreciate your 
willingness to get us time to do this.
    You know, if you look at that map behind you, you just get 
an impression of how much blue versus green or how much ocean 
there is compared to land. And if you look at the map 
specifically, you will see that the populations of this world, 
the vast majority of people live on those coastal communities. 
The biggest cities in the United States are on the coast. And 
perhaps Chicago is on a big lake coast.
    But those are the communities that are really dependent on 
what we call a coastal economy and it can be everything from 
tourism to fishing to transportation and so on.
    What NOAA's responsibility is, they have got two halves. 
One is the air, the weather, and the other is the oceans. And, 
unfortunately, this President's budget calls for a huge 
increase in the observing systems in space at the expense of 
cutting programs in the ocean side, in the wet side.
    And I think they do that with putting a lot of real issues 
in jeopardy. As you know, there is the whole question of 
fisheries and NPR just this morning had the fisheries and 
Chesapeake Bay, what is going on there. If we do not have a way 
to better measure our fish take and our understanding of 
fisheries and the biology of it--it is still not an exact 
science--we do it at huge peril to the planet.
    And I have a NOAA weather station in my district, but it is 
right next to a Navy weather station. And what I would 
recommend is that the Committee--I am not on this Committee--
but you ought to require that the NOAA weather people link up 
and do more collaboration with the military because the 
military does have all those satellites and all those computers 
to document it.
    And I do not know how much sharing there is where we are 
just going on it and we are going to have to have this as 
civilian information versus military. But it is an arms race 
and it is a very expensive one. And by adding more to the air 
side or to the weather side at the expense of the ocean side 
is, I think, wrong for this Committee to follow the President's 
recommendation.
    Of the $5.5 billion that NOAA gets, $2.2 billion goes to 
satellite programs, almost half of the entire budget. And that 
is not as many jobs as what is related to all of those sub-
programs that are on the wet side. So I am very keen on trying 
to make sure that the wet side gets their fair share.
    And I think any cuts in the wet side is really unacceptable 
because it is a time when we are really having to spend more. 
And that is basically my message.
    There is one thing in here about catch shares. You are 
going to hear it is a very controversial, very smart kind of 
business practice, that essentially what you do when you go out 
in the oceans now is you have a limited season and a limited 
take. And if the season sat today and it only goes for a month, 
then all the fish you are going to catch have got to be caught 
in that one month and it is get out there and catch as many as 
you can because whoever gets the most after you reach a tonnage 
limit, they cut it off.
    The catch share is, look, we will sell you a share and you 
go out and catch that fish any time you want. So, frankly, for 
the fishermen selling fish, you have a more stabilized market. 
It is not a huge supply and then no demand, you know. It just 
goes like that now.
    You also make fishermen go out in really bad weather 
because they have got to catch it within their time limit, so 
they are taking a lot of risks that they should not be taking.
    And the other thing catch share does is it puts a value on 
every fish rather than just a big mass tonnage and that way, 
you end up with a much better knowledge, get better price, and 
a better knowledge of not having to ruin the fisheries, wipe 
them all out. And that is what is happening in our oceans, you 
know, the fishermen are saying there are fewer and fewer fish.
    There are fewer and fewer big fish because all the big fish 
are the reproductive fish and we have caught them. Some fish 
take 40 years before they become reproductive. And we catch 
them, you know, before they ever reach that age and then we 
wonder why the fish are disappearing.
    So there are just tons of issues, not that you have to get 
into the micro side of it, but catch share is a very important 
new issue before this Committee. And I would be glad to answer 
any questions you might have.
    My only plea here is do not just give all that money to the 
satellite business at the expense of the wet side.
    Mr. Fattah. Well, let me thank you for your testimony.
    I think I am a signatory on the letter with the 50 
colleagues on this matter. So obviously I am sympathetic.
    And I think that you are right that there should be an 
opportunity for NOAA to collaborate with the Navy and with the 
military on the satellite side and the coastal populations, and 
the survival of and the health of our oceans is critically 
important.
    So I want to thank you for your contribution to the 
Committee's work. We will study your testimony, at least our 
staff will, and we will try to incorporate some of what has 
been suggested here as we go forward. So thank you.
    Mr. Farr. Thank you very much, Mr. Chairman. I appreciate 
that.
    And I will just, parting way, I am a big fan of the Drug 
Courts. It has nothing to do with NOAA, but it is part of the 
Justice Department. Those courts have really done a remarkable 
job in our area and I hope you will keep funding them. Thank 
you very much.
    Mr. Fattah. All right. And thank you.
    Chairman Wolf, did you have----
    Mr. Wolf. No questions.
    Mr. Fattah. Okay. How are you, sir?
    Mr. Wolf. I am doing good.
    Mr. Fattah. All right. Then we have Chairman Bart Gordon of 
the Science and Technology Committee.
    Let me welcome you and your testimony will be appropriately 
referenced in the record, but take as much time as any Chairman 
should take to make their point.
                              ----------                              

                                         Wednesday, April 14, 2010.

                    TESTIMONY OF MEMBERS OF CONGRESS


                                WITNESS

HON. BART GORDON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Gordon. Thank you, Mr. Chairman. And I will try to be 
appropriately brief, but I thank you and Mr. Wolf, my former 
across-the-hall neighbor, for being here today.
    And I also want to thank you really for the good 
relationship as authorizers and appropriators we have had and 
particularly our staffs. I mean, I think as Mr. Wolf and I were 
just talking about, they know more about a lot of this, about 
all of this than we do. And we are fortunate they are working 
together well because we have got some things to figure out.
    Let me just give you a quick overview. I recognize that 
this is a difficult time always, I guess, for appropriators. 
There are more needs than money. We see enormous budget 
deficits and so we are all concerned about how do we get there. 
You know, then when you start freezing domestic spending, it 
makes the problem even worse. You have got to pick winners and 
losers or, I guess, less losers and those that lose even less.
    But I want to sort of paint a quick picture for you. There 
are approximately six and a half billion people in the world. 
And of those that are working, half make less than $2.00 a day. 
That is not the race we want to get into in trying to compete 
on wages which means that we have to work at a higher technical 
level or our kids and grandkids are going to wind up inheriting 
a national standard of living less than their parents, the 
reverse of the American dream, which means I think that we have 
got to invest in R&D, which then leads to innovation, which 
leads to jobs, which leads to more prosperity.
    I noticed this morning that Intel, they had a $10 billion 
profit for the quarter and the stock market went up. And I 
remember talking to the folks at Intel a while back and they 
said, well, when you have a down time, that is when we invest. 
That is when we try to do more in our R&D so that we can get 
ahead of the curve. And it has paid off for them and I think 
that it will pay off for us.
    So with that, we have given you our or your staff our 
various numbers that on the big view go along with the 
President's request. There are some differences within it. But 
the bottom line to all that is that we are on an effort to 
double our spending in R&D.
    Now, you think, well, that is, you know, that is a lot, but 
we are trying to do it in a responsible way over ten years.
    Mr. Wolf remembers when, I guess, Mr. Gingrich led us in 
doubling NIH and that was five or six years, you know. Ten 
years, I think, is a very--again, I would like to do it more, 
but we are trying to be responsible and so that is the course 
that we are on. And I think that this budget will reflect that 
well.
    I will be happy to go into specifics if you would like me 
to.
    Mr. Wolf asked me about NASA and that is something that is 
on all of our minds. But, you know, we have gotten ourselves 
into a situation where the mission at NASA simply was not 
related to the funding, to the money that was given to it. And 
so somewhere we are going to have to step up and decide.
    I think most of us or many of us do not like the idea of 
canceling Constellation. That is the one problem. The other 
problem is most of us think it is unrealistic to put $6 billion 
more a year into Constellation to make it work. So we sort of 
have two ends of this that are not really working.
    It is our intention to have an authorization for you this 
year which hopefully will be some guidance. The President has 
modified his original proposal. He is speaking tomorrow in 
Florida and we hope that we are going to learn more about that.
    You know, as I was telling Mr. Mollohan earlier, I normally 
think I know most things about most things, but I can tell you 
I have not figured this one out. And we are going to continue 
to try to work with it, massage it.
    Mr. Culberson is very interested in this. We want to work 
with him. We want to work with all of you. But that is really, 
you know, that is sort of where we are going right now.
    And so with that, again, the bottom line here is that if we 
are going to get out of this mess, we have to invest in our 
R&D. And we are going to try to present to you a responsible 
way to do it, again not as much as we would like. There will be 
less losers than others, but that is the category we hope that 
we can be in.
    Mr. Fattah. Well, let me thank you, Mr. Chairman.
    I know that in your Committee today, one of your 
Subcommittees is in a markup on the America Competes Act and 
your great leadership in this whole arena has been critically 
important.
    And Congressman Wolf who has served alternately between the 
Chair and Ranking Member of this Committee has made a very good 
suggestion that earlier on in this process that we start to 
look at all of the different agencies that have various 
programs related to the intellectual development of our young 
people, you know, flowing into these STEM related fields.
    And I think that is part and parcel of what you tried to do 
with the America Competes Act is to get a focus on this. We 
have a dearth of American, native-born American students 
pursuing science at the highest levels, pursuing terminal 
degrees and postdoctoral.
    In fact, most of our universities in their graduate schools 
in engineering and these other fields are filled with students 
who come from other parts of the world which is great that they 
are coming here to learn, but then they are taking that 
knowledge back.
    And we have now crossed a major river with the majority of 
the patents being sought in America are not being sought by 
domestic individuals or concerns, but by foreign concerns, and 
that just shows you as goes the engineers, as goes the 
products, and as goes the economic competition down the road.
    So we have a lot of challenges and I think that your 
testimony today is right on point about the need to make these 
investments and to actually increase our investments over time 
and to make sure that we flow that in a way in which we are 
reaching our young people at a time when we can start to move 
them in the direction of the pursuit of knowledge in the hard 
sciences.
    So I know my colleague probably has a comment or questions, 
so I will yield now.
    Mr. Gordon. Could I just respond to that real quickly?
    Mr. Fattah. Yes.
    Mr. Gordon. I mean, we could have a day seminar and I would 
love to do that on this topic because it is so important, but I 
know we cannot do that now.
    Just like with energy, I am someone that says we have got 
to do it all. When it comes to STEM education, I say we have 
got to do it all. We certainly want to keep those foreign 
students, you know.
    Mr. Fattah. I am not knocking them.
    Mr. Gordon. I mean, we want to keep them here in many 
things. But we also, as you point out, we want to grow.
    And let me tell you a theme that we have tried to do in a 
number of ways, areas, and I will show you what we are doing 
here in STEM education. There is limited resources and so one 
way we can invest more is by spending what we have better.
    And what we have found is that in many areas, there is 
multiple agencies that are working on different research, 
nanotechnology, for example. There are 12 different agencies 
and about $2 billion. So we set up an umbrella so we could 
better coordinate that. We did the same thing with water. And 
we are doing that with STEM education. There is something like 
130, I think, 7 different STEM education programs across the 
federal government.
    And so part of the America Competes Act, which we will get 
out of our-- really we are merging four different Subcommittees 
at the end of this month and then we will have it on the floor 
next week or next month. We are trying to coordinate that STEM 
education.
    And what we are finding among other things is that women 
and minorities are under-represented. And our best bump is if 
we can get those homegrowns, you know, up and going. And we are 
making special effort in that.
    So I think you are going to see that when we come out with 
this bill that we are going to make investments in STEM 
education, but we are going to make them smart and try to 
coordinate them.
    And the other thing that we are doing is, sort of the theme 
is we are asking the private sector, whether it is, again, 
nano, STEM, water, solar, a lot of areas where we are 
coordinating this, is having a private sector council tell us 
what do you need, what are the skills that you need. So we can 
also try to massage those programs for the jobs that are out 
there.
    And I am sorry, Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman.
    I want to thank the Chairman Gordon for his service. Our 
offices were across from each other. I actually think of you 
almost every Sunday because my scheduler married one of your 
top people.
    Mr. Gordon. Right, right.
    Mr. Wolf. And they go to my church.
    Mr. Gordon. Yeah.
    Mr. Wolf. And I see them every Sunday and you sort of flash 
back into mind. I also want to thank you publicly, too, for 
what you have done on the science and America Competes. I think 
you have sort of forced this Congress. We tried through the 
appropriations process, hopefully done a good job, but I think 
you forced it to address an issue that it has been reluctant to 
kind of deal with.
    And so I want to thank you publicly for that and hope as 
you leave, wherever you go, that this will be sort of a 
priority because I think your pulling it together has made all 
the difference. And I want to thank you for that.
    I have one question with regard to the science, the NASA 
issue. It was the article that was in today's New York Times 
where Armstrong has come out and said others find the 
essentials of the Administration's plan flawed, not just the 
presentation.
    In a letter to the President reported Tuesday by NBC, Mr. 
Armstrong, Neil Armstrong, the Commander of Apollo 11, along 
with James A. Lovell, Jr., the Commander of Apollo 13, and 
Eugene Cernan, the Commander of Apollo 17, wrote, quote, ``For 
the United States, the leading space faring nation for nearly 
half a century to be without a carriage to low earth orbit and 
with no human exploration capability to go beyond earth orbit 
for an indeterminate time into the future destines our nation 
to become one of a second or even third rate stature.''
    And there are a number of others, Mr. Chairman, if I can 
just submit for the record, of other comments.
    But I appreciate you are going to have a bill. Would it be 
helpful for us to restate again telling the Administration that 
it cannot move ahead so that we do not lose this over the next 
couple months to give you an opportunity to sort of come back 
with a proposal? And I am referencing in the supplemental to 
carry language there. Would that make sense for us to do?
    Mr. Gordon. Certainly I would support it and not oppose it. 
I would tell you that they have testified. We have had them 
testify before our Committee that they do not have that 
authority, that they recognize what your Committee had done 
last year.
    We had written them a letter about that. I guess as folks 
that have run for election, part of our mantra is repetition. 
And so it certainly will not hurt to do that again, but that is 
the law and they have acknowledged that. And so I think it 
would, you know, serve us well to do it again.
    And let me also, going back to the authorization, I thank 
you for your kind words. I am hoping that particularly in the 
R&D that this is sort of a nonpartisan zone. Every bill that we 
have gotten out of our Committee since I have been Chairman has 
been not only bipartisan, it has been overwhelmingly bipartisan 
and that is the reason we have been able to get it passed on 
the floor.
    And so we are going to bring you some, you know, again, 
some bills or some buckets that need to be filled up, but they 
will be buckets that will have been created in a bipartisan 
way.
    Going back to NASA quickly, what I have found is we have 
had a variety of people that tell us what they do not like and 
what they do not want to do. I am trying to find out what they 
do want to do and, you know, what you are willing to pay for. 
And so we are in that process of having hearings. As I say, the 
President is going to make another statement tomorrow and I 
think we are gradually moving toward hopefully a consensus 
there.
    Mr. Wolf. Okay. Good. Again, thank you for your service. I 
appreciate it.
    Thank you, Mr. Chairman.
    Mr. Fattah. Let me thank you for your comment.
    Let me just say that I think we all are quite thrilled that 
the President is going to do this all day session focused on 
what the mission going forward is going to be in terms of NASA 
and that no President really has done this kind of meat and 
potato work on this before and the fact that even as there have 
been so many calls to cut spending that the President's budget 
calls for an increase in NASA, I think, shows that they have a 
prioritization in terms of the work of NASA.
    The question is, as you frame it, you know, is what do we 
do? Where do we go and how do we go? And the choice points in 
the decision package in totality has to be analyzed and I think 
we are going to see part of that with the President's visit.
    So I want to thank you for your testimony both verbal and 
in writing. And we will act accordingly. Thank you.
    Mr. Gordon. Thank you.
    I guess one final point, if I could. I know some of my 
friends do not agree with me, but I think it is good that we 
have come to this point. It was unsustainable what we were 
doing. Somewhere we had to have a time out. Somewhere we have 
got to talk about what we are going to do with NASA, where we 
are going to go, and get everybody on the same page. It is 
going to be a difficult discussion, but we have got to wind up 
doing it.
    And I think one element of that may be we are going to have 
to look at what are the international components also. Where 
can we partner with other countries in a strategic way that 
helps us and does not harm us in some way? That is another way 
we can bring our resources in. But, you know, we needed this 
time out and we have just got to talk about it and we have got 
to figure out where we are going.
    Thank you.
    Mr. Fattah. All right. Thank you very much.
    Okay. Congressman Olson, your moment has arrived. Let us 
welcome you and welcome your written testimony to the record, 
but feel free to make whatever comments you would like to make 
and entertain any questions.
                              ----------                              

                                         Wednesday, April 14, 2010.

                    TESTIMONY OF MEMBERS OF CONGRESS


                                WITNESS

HON. PETE OLSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Olson. Thank you very much, Chairman Fattah. I would 
like to thank you for inviting me today. Thank you to you, 
Ranking Member Wolf, for holding today's hearing.
    And I appreciate the opportunity to convey to you my deep 
concern with the proposed cancellation of the Constellation 
Program by NASA as outlined in the fiscal year 2011 budget 
request.
    Chairman Mollohan indicated in the Committee's hearing with 
Administrator Bolden that NASA was at a pivot point and it is. 
The budget proposal raises more questions than answers. It 
throws away what we know in exchange for the unknown while 
disregarding the will of the Congress.
    Mr. Chairman, I truly believe a drastic action like this 
cannot be taken until we have sufficient answers to the 
questions we have asked. And I feel we are still far from that 
at this time.
    NASA provided framework parameters this past week. However, 
stating where program offices will be housed is one. Laying out 
what they are going to be doing is another.
    Some of those questions include where are we going in space 
and when? And if when those things are determined, what are the 
safety standards we need to develop to get there? Will those 
safety standards and procedures be different for commercial 
carriers than the ones we have currently? What technologies 
does the Agency envision it needs to explore? Why are we 
willing to waste billions already invested in Constellation to 
move in this radical new direction?
    One very critical question that needs to be addressed was 
asked by Science and Technology Committee Chairman Bart Gordon 
who just testified before me. What is our backup if these 
commercial op companies fail?
    The current path of the Agency was endorsed by two 
Congresses in the 2005 and 2008 NASA Authorization Act. And 
last year's Appropriation Bill stipulated very clearly that a 
change of direction would require congressional input through 
the Appropriations process.
    The proposed change has also been met with a near unanimous 
opposition in Congress, whether Democrat or Republican, and 
regardless of whether you have a NASA facility in your district 
and state.
    This is most apparent on the Science and Technology 
Committee. Members have raised concerns over the negative 
impact of our national security, on the local and national 
workforce and the economy, on the ability to inspire young 
professionals to study and work in the STEM fields and 
unseating America's hard-won leadership in human spaceflight.
    I believe canceling this program is too costly and too 
risky. Our nation cannot afford to waste resources. And by 
resources, I do not mean just money spent, but technologies 
developed, a skilled workforce, and a framework to enable 
progress in the future.
    Tomorrow the President will be in Florida. And it is my 
hope that he will convey and assure the American public we will 
be a nation of space explorers, not wanderers. America's 
leadership in space was earned through failures and successes 
and while we do not accept failure, we do learn from it.
    It would be unacceptable to fail because we did not seek to 
find the answers that can enable this Congress, this 
Administration, and most importantly the American public to get 
behind the same program moving forward. The American people 
deserve these answers and this Congress should demand them.
    Mr. Chairman, I thank you again for this opportunity to 
speak to you. I look forward to working with you in the future.
    And I was going to ask to introduce the letter from Mr. 
Armstrong, Mr. Cernan, and Mr. Lovell, but my Ranking Member 
was way ahead of me on that curve and that just sort of shows 
you the unanimity here in the Congress and opposition that is 
planned. And I am happy to answer any questions and yield back 
my time.
    Mr. Fattah. Thank you.
    And as best as I can tell, you are suggesting that the 
Committee reject the Administration's proposal on Constellation 
and provide additional funding for the Constellation Program?
    Mr. Olson. We should reject the Administration's----
    Mr. Fattah. And what amount?
    Mr. Olson. Yes, sir. We should reject the Administration's 
proposal and have a discussion with the Administration. That is 
what has been lacking in this----
    Mr. Fattah. Do you have an amount? We are appropriators, so 
we----
    Mr. Olson. Oh, yes, sir. I mean, you know, the 
Administration talks about the Augustine Commission panel and 
the need for two to three billion dollars over the course of 
the next couple, four years. I believe we can find the money 
within NASA's existing budget. And, in fact, we have asked----
    Mr. Fattah. So you are not asking for an increase in NASA's 
budget? You want it found within the budget?
    Mr. Olson. We can find it within the budget, sir, but we 
also should increase it. I mean, this is a national security 
priority. It is the----
    Mr. Fattah. I know that.
    Mr. Olson. These are the high-tech jobs.
    Mr. Fattah. I need you to answer my question. Now, the 
budget is already proposed by the President to increase the 
NASA budget. You are saying within that dollar----
    Mr. Olson. Yes, sir.
    Mr. Fattah [continuing]. Amount, you think that we should 
consider two to three billion to continue the Constellation 
Program?
    Mr. Olson. We should certainly consider reprogramming some 
of that money, sir. What NASA----
    Mr. Fattah. That is fine. I am not trying to get you----
    Mr. Olson. Okay.
    Mr. Fattah [continuing]. In a catch 22.
    Mr. Olson. No, no.
    Mr. Fattah. I am just trying to understand what you are 
saying.
    Mr. Olson. No, no, no. I mean, I appreciate that.
    Mr. Fattah. Okay.
    Mr. Olson. But NASA, to me, NASA is human space 
exploration.
    Mr. Fattah. No. I got that part.
    Mr. Olson. Oh, yeah. Yes, sir.
    Mr. Fattah. I am just trying to get to the numbers.
    Mr. Olson. No, no. But we are fundamentally shifting here.
    Mr. Fattah. Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman.
    I want to thank Mr. Olson for his leadership, too, on this 
issue. And I think the Committee perhaps in the supplemental 
ought to carry the language that I referenced with regard to 
Mr. Gordon, Chairman Gordon, so they cannot move ahead. But I 
believe there is almost no support and I think the Armstrong--I 
think that is the first time we have heard from Neal Armstrong 
for years.
    Mr. Olson. Yes, sir, it is.
    Mr. Wolf. The fact that he came out. I think the only 
astronaut we have not heard from is a person who I have always 
admired is former Senator John Glenn. But overall there is 
almost no one that is for the Administration's plan.
    Now, I think perhaps the best way within the budget 
allocation is to get some of the very best minds. I am 
reluctant to say who they are, but I have talked to many, and 
they believe and they agree with Mr. Olson that within the 
allocation, you can put together a man space program that 
really is sound and secure whereby the United States will 
continue to be number one.
    And the very thought of us losing the lead to the Russians, 
losing the lead to the Chinese, losing the lead, and so 
hopefully we can do that.
    And I think the fact that Chairman Gordon will get some 
authorizing bill coming out, but hopefully we can make sure 
because I worry, and I think they are accurate, the 
Administration is moving so fast in certain areas and contracts 
are being shut down that they may almost do this by almost kind 
of without the Congress even really having involvement. We are 
waiting to see what the President says tomorrow.
    Mr. Olson. Yeah.
    Mr. Wolf. I think Mr. Olson is right. And hopefully he will 
in the supplemental be able to prohibit them from doing 
anything to put the Congress on record and then get the very 
best minds within the allocation that you can continue what we 
have in the man space program. And when you look at the 
Armstrong letter, but also the letter from all the other 
astronauts that was----
    Mr. Olson. Yes, sir.
    Mr. Wolf [continuing]. Sent was very, very powerful. But I 
thank the gentleman.
    And thank you, Mr. Chairman.
    Mr. Fattah. Well, thank you very much for your testimony.
    Mr. Olson. If I could make one more comment, Mr. Chairman. 
I mean, we have asked the Administration to help us out with 
this, to come up with a proposal that is in the exploration----
    Mr. Fattah. Let me just say to you we do not have to bash 
the Administration. The Administration is going to lay out 
their plan tomorrow. The Committee reserves the right to decide 
NASA's budget.
    Mr. Olson. Yes, sir.
    Mr. Fattah. Right?
    Mr. Olson. Absolutely.
    Mr. Fattah. The President makes a submission. And as you 
have suggested, for instance, we could within the allocation 
program money the Constellation or some alternative program in 
terms of man flight. And we have, as we did last year, been 
very clear about our opinion. It is unuseful to create a 
dynamic where we cannot build a consensus with the 
Administration as we go forward.
    I assume what you want is an appropriate outcome, right?
    Mr. Olson. Absolutely, sir.
    Mr. Fattah. I want to thank you for your testimony.
    Mr. Olson. And I have had numerous conversations with 
General Bolden to that effect. Tell him I am looking forward--
--
    Mr. Fattah. Thank you.
    Mr. Olson [continuing]. To working with him because we both 
share the same goal, U.S. number one dominance in human 
spaceflight, which we have had for the last 50 years. And I 
look forward to working with this Committee to make sure that 
that does not change.
    Mr. Fattah. Thank you for your testimony.
    Mr. Olson. Thank you.
    Mr. Fattah. Let us have Samantha Harvell, National Juvenile 
Justice Delinquency Prevention Coalition.
                              ----------                              

                                         Wednesday, April 14, 2010.

       NATIONAL JUVENILE JUSTICE DELINQUENCY PREVENTION COALITION


                                WITNESS

SAMANTHA HARVELL, SENIOR DIRECTOR, EARLY CHILDHOOD AND JUVENILE JUSTICE 
    POLICY, FIRST FOCUS CAMPAIGN FOR CHILDREN, NATIONAL JUVENILE 
    JUSTICE DELINQUENCY PREVENTION COALITION

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Harvell. Good morning, Mr. Chairman. Thank you for the 
opportunity to testify before you today regarding fiscal year 
2011 appropriations related to juvenile justice programs.
    My name is Samantha Harvell and I am the Senior Director 
for Early Childhood and Juvenile Justice Policy with the First 
Focus Campaign for Children, a bipartisan children's advocacy 
organization here in D.C.
    The Campaign advocates directly for legislative change in 
Congress to ensure that children and families are a priority in 
federal policy and budget decisions.
    Today I am testifying on behalf of the National Juvenile 
Justice Delinquency Prevention Coalition. The Coalition 
represents more than 50 national organizations working together 
to advance federal policy and practice, to achieve juvenile 
justice reform, delinquency prevention, and community safety.
    I come before you today to urge your investment in programs 
that benefit vulnerable youth and families in order to maximize 
the chance that all of our children grow up to lead healthy, 
productive lives.
    President Obama's budget for fiscal year 2011 includes 
significant new investments in our nation's children. However, 
even in a year of increased investment, juvenile justice 
programs were grossly underfunded by the Administration's 
proposal.
    The persistent lack of attention to this vulnerable 
population is alarming and threatens both public safety and our 
future economic security. As we work towards a brighter future 
for all of America's children, our Coalition respectfully urges 
you to support renewed forward-thinking investments in federal 
juvenile justice programs. Specifically, we have four requests.
    First and foremost, we ask that you restore funding for 
core juvenile justice programs to sustainable fiscal year 2002 
levels. This would include Title 2 and Title 5 programs 
authorized under the Juvenile Justice and Delinquency 
Prevention Act, the JJDPA, the Juvenile Accountability Block 
Grant Program, and the Juvenile Mentoring Program.
    These funds support a wide range of state and local 
initiatives designed to help at-risk youth stay on the right 
track and ensure that first-time offenders get back on track 
toward productive adulthood. Despite the clear need for these 
programs, many have suffered drastic cuts since 2002.
    The impact of continual decreases in funding, a total 
decline of nearly 50 percent over the past eight years, means 
that youth and families are not served and safeguarded as 
intended by Congress.
    Second, we ask that you restore funding for the Office of 
Juvenile Justice and Delinquency Prevention as a separate line 
item in the budget and provide them adequate resources to 
fulfill their authorized mission.
    As the sole federal agency providing leadership in the 
juvenile justice arena, OJJDP must have the capacity to provide 
a full range of services. A fully funded OJJDP will have the 
resources necessary to identify best practices, educate 
practitioners across the country, and support the 
implementation of successful models.
    Unfortunately, in recent years, a significant decline in 
funding and the ultimate merging of OJJDP within the broader 
Office of Justice Programs from a funding perspective has 
weakened the focus on juvenile justice issues and eroded the 
Agency's status as a leader in the field.
    Third, we ask that you support President Obama's request to 
eliminate all earmarks in the JJDPA Title 5 Program and Part E, 
New Initiatives.
    Over the past several years, an increasing number of 
earmarks have meant that many of the core juvenile justice 
programs, particularly Title 5 of the JJDPA, have not been 
funded at sufficient levels. In fact, last year, more than 90 
percent of appropriated funds were earmarked, leaving only $5 
million to fund all Title 5 programs across the country.
    Fourth and finally, we ask that you support President 
Obama's request for funding to create three new programs which 
are critical to scaling up evidence-based, cost-saving measures 
and delinquency court improvement, disproportionate minority 
contact evaluation, and gang and youth violence prevention and 
intervention.
    These new initiatives will save money in the long run and 
ensure that struggling youth are being identified and supported 
early, appropriately, and efficiently.
    We thank you again for your consideration of these 
recommendations. Our written remarks include a more in-depth 
discussion of and justification for these funding needs. And we 
look forward to serving as a resource for you in the coming 
weeks and months.
    As you know, this funding is a critical investment in our 
nation's children and youth. It supports our most vulnerable 
young people, giving them a better chance to grow up to lead 
healthy, productive, and meaningful lives.
    Happy to answer any questions that you might have.
    Mr. Fattah. Well, let me thank you for your testimony. And 
I do not have any questions and I do not have any other of my 
colleagues at the moment. So thank you very much.
    Ms. Harvell. Great. Thank you.
    Mr. Fattah. All right. Gerard Lynch, Esquire.
                              ----------                              

                                         Wednesday, April 14, 2010.

              REGIONAL INFORMATION SHARING SYSTEMS (RISS)


                                WITNESS

GERARD P. LYNCH, ESQUIRE, CHIEF EXECUTIVE OFFICER, REGIONAL INFORMATION 
    SHARING SYSTEMS (RISS)

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Lynch. Good morning, Congressman Fattah.
    Mr. Fattah. How are you?
    Mr. Lynch. I am doing fine.
    It is indeed a privilege to once again appear before this 
Subcommittee to talk about the Regional Information Sharing 
System or the RISS Program.
    RISS is a nationwide information sharing program consisting 
of six centers and a technology support center. RISS provides 
services to state, local, federal, and the tribal law 
enforcement and criminal justice agencies in all 50 states, the 
District of Columbia, the United States territories, Canada, 
Australia, and England.
    RISS participation has grown to more than 8,500 criminal 
justice agencies and 97,000 access offices in the system. They 
represent hundreds of thousands of law enforcement agencies 
across the globe.
    RISS enhances the ability of criminal justice agencies to 
identify, target, and remove criminal conspiracies and 
activities while promoting officer safety.
    RISS is different than other programs. RISS offers access 
to multiple intelligence databases, connects disparate systems, 
provides essential investigative services, including analytical 
support, investigative research, equipment, training, field 
services, and technical assistance.
    There are more than 600 resources available via the RISS 
secure intranet known as RISSNET. The owners of these resources 
rely on RISSNET for its proven and secure infrastructure.
    In addition, RISS enhances officer safety through its RISS 
Safe Program and offers extensive gang resources to law 
enforcement and criminal justice community. In many cases, the 
agencies would not otherwise have these services available to 
them.
    RISS' existing infrastructure is used as the connection 
backbone for numerous systems, thereby eliminating development 
costs for new systems. Almost 100 systems are connected or 
pending connection to RISSNET. They include 32 hybrids across 
the country, 36 state agencies across the country, 28 federal 
and other systems.
    In addition, through RISSNET, users can query 26 different 
systems simultaneously. RISS has been an essential partner in 
many nationwide information sharing initiatives. Most recently 
the Intra-Agency Policy Committee which was formed within the 
jurisdiction of the Executive Office of the President 
identified RISSNET as one of the four SBU CUI networks 
necessary to be involved in the intraoperability initiative.
    RISS's participation in this endeavor is critical and will 
ensure local and state law enforcement representation.
    The President's 2011 budget addresses the need to support 
state and local law enforcement, crime fighting tools, and 
national security. Yet, the budget includes RISS, a central 
component to support these initiatives, at $9 million which is 
a reduction of $36 million from 2010.
    If a reduction of this magnitude occurs, it will have 
profound effects upon the criminal justice community and will 
cripple the ability of RISS to provide vital services to our 
law enforcement and public safety agencies.
    A reduction would result in its inability to maintain 
RISSNET, the elimination of RISSIntel, RISS Safe, RISSGang, 
RISS ATIX and the elimination of the six RISS centers. 
Information sharing would revert to pre-9/11 days.
    Cases that would have been resolved effectively and 
efficiently using RISS services may not be resolved in a timely 
manner if at all. And hundreds of highly skilled professional 
employees would lose their jobs.
    It is imperative that RISS' funding for 2011 at a minimum 
be restored to 2010 levels of $45 million. RISS has requested 
$65 million for 2011 and this will support increased demand for 
the RISS Safe, border initiatives, gang programs, the pawn shop 
database, RISS ATIX, and the Fusion Center partnerships among 
many others.
    Performance indicators show how strongly RISS has grown and 
the number of users on the RISSNET system. Over the last three 
years, cases in which RISS services were utilized resulted in 
15,632 arrests and more than $158 million in seizures.
    RISS operates one of the nation's most important 
information sharing networks, supports investigative case 
resolution, and enhances the Office of Safety. It is critical 
that continued and additional funding be targeted toward RISS 
so it can continue to effectively serve our criminal justice 
community.
    On behalf of all of the RISS centers nationwide and RISS 
directors, I appreciate this opportunity to provide this 
testimony. And I hope that the Committee sees fit to continue 
the support that it has given the RISS Program over the many 
years in the past.
    Mr. Fattah. Well, let me thank you for your testimony.
    You know, obviously the Committee last year provided a 
great appropriations for it relative to the President's request 
this year and we will have to review the entire situation as we 
go forward.
    But thank you for your testimony.
    Mr. Lynch. You are more than welcome.
    Mr. Fattah. Marion Blakey, Aerospace Industries 
Association.
                              ----------                              

                                         Wednesday, April 14, 2010.

                    AEROSPACE INDUSTRIES ASSOCIATION


                                WITNESS

MARION BLAKEY, PRESIDENT & CEO, AEROSPACE INDUSTRIES ASSOCIATION

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Blakey. Good morning.
    Mr. Fattah. Good morning.
    Ms. Blakey. I very much appreciate the opportunity, 
Congressman Fattah and Ranking Member Wolf, to testify before 
this Committee today. It is not the first time I have been here 
and I am very grateful again for the opportunity because I am 
testifying regarding the fiscal year 2011 budget request for 
NASA and NOAA.
    AIA, the Aerospace Industries Association, very much 
appreciates the efforts of this Congress and this Subcommittee 
to keep our civil space program healthy.
    The current budget request for NOAA provides $5.5 billion, 
an increase of $700 million. A substantial portion of this 
increase is for the procurement of much needed weather 
satellites and climate study systems. And we are very pleased 
with this increase and recommend that the request be fully 
funded.
    We are also encouraged that NASA's proposal extends the 
International Space Station through the year to at least 2020 
and funds valuable earth and space science missions, and also 
renews technology development and innovation and promotes 
commercial spaceflight.
    As Congress debates the extent to which the U.S. will rely 
on commercial space providers for cargo and human carriage into 
space, it will be essential that NASA receive the full $19 
billion proposed in the President's budget.
    There are a few issues as we all know, though, that require 
your attention. The proposed cancellation of the Constellation 
Program at the same time as the planned retirement of the Space 
Shuttle would cause residual impacts to the space industrial 
base and the highly trained space workforce in both the private 
and the public sectors.
    Congress should ensure that plans and necessary funding is 
directed to help effectively transition both the NASA civil 
workforce and the contract workforces into the proposed 
programs.
    It is critical to remember that in space, it is the 
workforce, the engineers, the skilled technicians that are the 
backbone of our industrial base. It is also critical to define 
a specific strategy that sets clear goals and time lines for 
human exploration beyond low earth orbit. Such strategy would 
have the necessary funds to achieve the desired goals.
    Moving the discussion to aeronautics for a moment, AIA is 
encouraged by the 12 percent increase to the fiscal year 2011 
budget request. AIA urges Congress to adopt this fiscal year 
request including essential investments in NASA's 
environmentally responsible aircraft, verification and 
validation of complex software systems, and the unmanned aerial 
systems operational and safety research.
    We are concerned with the Administration's proposal for 
out-year funding for NASA's ARMD aeronautics particularly 
because this is the area that is responsible for critical 
research for the next generation air transportation system that 
we are all depending upon to set our old radar-based system 
aside and correct for the delays and the environmental problems 
of our current air transportation system.
    The proposed investment fails to keep pace with inflation, 
representing an annual decline in real dollars of two percent. 
This is going to have a detrimental effect on the advancement 
of Next Gen.
    Finally, the state of education of our young people which I 
know, Congressman Fattah, has been a major focus for both of 
you all, it is truly alarming. This is evidenced by poor 
preparation for science, technology, engineering, and math, the 
STEM fields, low graduation rates of students in those fields, 
especially when compared to other nations, and the lack of 
interest in STEM fields overall.
    The latest national test scores show our students are below 
proficient. But perhaps even more telling is our students' 
attitudes towards STEM education. I have to tell you I was 
truly shocked by a study that was done by Raytheon recently 
that shows that most middle school students say they would 
rather do one of the following activities instead of their math 
homework. Guess what they are? Clean their room, eat their 
vegetables, go to the dentist, or take out the garbage. Now, 
come on. That is where math is ranking right now.
    To that end, we are very supportive of efforts to improve 
STEM education. We ask your Committee to continue to support, 
encourage, where possible increase the funding for various STEM 
education initiatives within your jurisdictions.
    For example, one of the things I think is interesting is 
that Representative Suzanne Kosmas of Florida is drafting a 
bill called Space to Schools. It is modeled after a program we 
think has been very successful, the Troops to Teachers Program.
    The bill aims to incentivize displaced aerospace workers, 
and, of course, the space coast and around the country is at 
issue here, to pursue second careers as STEM educators, 
allowing students the opportunity to be taught by teachers with 
really firsthand knowledge of our nation's space program.
    Now, to help bring enthusiasm for the aerospace industry 
and STEM education, AIA is being pretty innovative. We run the 
Team America Rocketry Challenge or TARC for middle and high 
school students. TARC starts off with regional competitions 
with students teamed in many cases with real rocket scientists 
and the qualifiers then come to Washington, D.C. for the 
national competition.
    The challenge requires them to achieve a designated flight 
time and altitude all while returning safely a raw egg payload. 
And this year, we are doing it without parachutes. It is going 
to be challenging.
    So we invite all the members of this Committee to come out 
to the competition. It is on May 15 out in McLean, Virginia.
    Congressman Wolf, I would very much love to see you there 
right in the back yard if you are possibly interested because 
we do think it is going to be great and there are going to be 
teams from your district competing.
    Over the past 50 years, space systems and technologies have 
increasingly become a critical part of our nation's economic, 
scientific, and national security capabilities. Our space 
capabilities are a source of huge national pride and an 
investment in science and R&D is needed to maintain U.S. global 
leadership.
    I was very pleased about the emphasis on that in the recent 
discussion here. Investments made to NASA, NOAA, STEM education 
are investments made to our nation here on earth. It is 
essential that funding remain stable and robust to achieve a 
strong economy, advance technology growth, and protect the 
welfare of our citizens.
    I would like to thank the Committee for your time and 
attention to all this. Thanks very much.
    Mr. Fattah. Well, let me thank you. It is a pleasure to see 
you again and we have met on a number of occasions both in and 
outside of this Committee room. So thank you very much.
    And, Ranking Member Wolf, do you have a question or 
comment?
    Mr. Wolf. Yeah. Thank you, Mr. Chairman.
    I want to welcome Ms. Blakey here. I appreciate her 
testimony.
    And I think we are really going to have to get the business 
community to be saying what you are saying in a more vocal way. 
The business community, particularly the large businesses, have 
been very silent on these issues. Periodically you will get 
someone to give a speech. But other than that, I think your 
comments are very on point. They are very important. Yet, we 
just have not seen the leadership from the-- I am not saying 
aerospace-- but from all the business industry. So I appreciate 
what you are saying.
    The fact that we are falling behind is so troubling to me. 
It is hard to even explain it. And, yet, I see it getting worse 
if we do not dramatically turn it around because we are faced 
with this economic situation of the entitlements are eating up, 
this is eating up. I appreciate your testimony.
    Last year, 50 percent of the STEM funding lay on the table. 
It was never used. This Committee did put an amendment in last 
year asking the National Science Foundation, NSF, to come up 
with best practices for how do you get young people--first, 
second, third, fourth, and fifth grade--to be active and 
interested.
    Ms. Blakey. Uh-huh.
    Mr. Wolf. And we are waiting for their report. But, again, 
thank you for the testimony. I appreciate it.
    Thank you, Mr. Chairman.
    Mr. Fattah. Thank you very much.
    Ms. Blakey. May I just mention one thing because it might 
be helpful to know? We have very recently formed a coalition 
for business and industry for STEM to coordinate all of our 
programs because we do spend tremendous amounts of money, $10 
million a year just in aerospace, on STEM programs.
    But the issue of pulling it together, really knowing what 
is working and how we can leverage these, we are working pretty 
hard and working with the White House on it. So we will give 
you all a periodic update on that because I hope----
    Mr. Fattah. Thank you.
    Ms. Blakey [continuing]. It will be helpful.
    Mr. Fattah. Thank you very much.
    Ms. Blakey. And I will work with the business community. 
Believe me. This has been a shock to the system regarding 
NASA's current decision. So we will work with them. Thank you.
    Mr. Fattah. Thank you.
    NASA's aeronautic support team, Bruce Hoogstraten.
    Mr. Hoogstraten. Yes, sir.
    Mr. Fattah. Okay. Did I pronounce that correctly?
    Mr. Hoogstraten. Hoogstraten.
    Mr. Fattah. Hoogstraten. Okay. All right. We will take your 
written testimony for the record and feel free to make whatever 
comments you would like.
                              ----------                              

                                         Wednesday, April 14, 2010.

                     NASA AERONAUTICS SUPPORT TEAM


                                WITNESS

BRUCE HOOGSTRATEN, EXECUTIVE DIRECTOR, NASA AERONAUTICS SUPPORT TEAM

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Hoogstraten. I appreciate the time to come here today. 
Congressman Fattah, Ranking Member Wolf, my name is Bruce 
Hoogstraten and I am the Executive Director for the NASA 
Aeronautics Support Team which is located in Hampton, Virginia. 
And I also currently Chair the Governor's Virginia Aerospace 
Advisory Council. And I appreciate the opportunity today.
    I thought I was going to be in a drastic minority until Ms. 
Blakey did come up and actually support dollars being 
appropriated and the money going through the Aeronautics 
Program.
    And Chairman Gordon kept saying all he hears is what people 
do not like. Well, I am here to tell you what I do like about 
the current President's proposed budget.
    Last year when I gave testimony to the Subcommittee and we 
were all waiting on the fiscal year 2010 budget request from 
the new Administration, we really did not know what to expect. 
And as fate would have it, there were indeed two significant 
changes from the previous year. A new aeronautics Green 
Aviation Program was introduced and a stabilization of the 
aeronautics budget, which previously had been targeted for cuts 
year in and year out.
    But to Ms. Blakey's point as well, the run-out is something 
I would like to also talk about. This year's budget request is 
an even greater improvement. It requests an additional $72.6 
million over the fiscal year 2010 request for NASA's 
Aeronautics Program, and specifically has a $23 million 
increase for the second year of the Green Aviation initiative, 
as well as over $30 million for a program integrating UAVs into 
the national air space.
    The current proposed budget, of course, is quite 
controversial as we have been hearing today, but we encourage 
Congress to follow the Administration's new path with regards 
to aeronautics research.
    The danger to all the other NASA programs and budgets from 
potential massive Constellation overruns has been clearly laid 
out by the Congressional Budget Office. If Constellation is 
allowed to continue in its current format, it would likely 
devastate other NASA science, aeronautics, and earth science 
programs in the years to come.
    Considering the urgent needs of understanding the planet's 
climate and our effect on it and the massive overdue 
modernization of an air traffic control system, we believe that 
the Administration path with regards to aeronautics is the 
correct one.
    We urge the Committee to support the new grand vision and 
challenge for NASA's aeronautics in the form of the Green 
Aviation initiative. The NASA workforce at Langley, Glenn, 
Ames, and Dryden centers for the past decade have been 
developing incremental improvements to aviation safety, fuel 
consumption and performance, noise control technologies, and 
emissions, among other areas.
    While these activities have been very worthwhile and have 
helped spur some innovation and design and performance, they 
have certainly not been transformative in any area or in the 
aggregate.
    While the initial investment in the Green Aviation Program 
is appropriate at roughly $80 million annually, it will need to 
grow incrementally each year to enable a true technology design 
demonstration that eventually gets, we feel, to about $300 
million a year over the next four to ten years.
    To free the bonds of innovation that have constrained the 
NASA aeronautics researchers, the Congress must also insist 
that NASA build a budget of this program in the coming years to 
allow it not just to do fundamental research but also real 
applied research that will test these concepts in the real 
world environment.
    If NASA will commit to undertaking research for this 
program at technical research levels one through six in the 
next decade, I am sure NASA, with the help of industry, can 
generate a new subsonic green commercial aircraft that may use 
up to 75 percent less fuel and emit a fraction of the harmful 
greenhouse gases of today's aircraft.
    Once again, I want to thank you for your time today and I 
would be happy to entertain any questions.
    Mr. Fattah. Well, thank you very much.
    We are under some time constraints, so we will reserve at 
least for myself any questions at this time. But I do thank you 
for your testimony.
    Ranking Member Wolf.
    Mr. Wolf. Thank you for your testimony.
    Mr. Hoogstraten. Yes, sir. Thank you.
    Mr. Fattah. Thank you.
    Congresswoman Yvette Clarke, let me welcome you to the 
Committee and your written testimony will obviously be reported 
for the record. But feel free to make whatever extensions on 
that you would like to make at this time.
                              ----------                              

                                         Wednesday, April 14, 2010.

                    TESTIMONY OF MEMBERS OF CONGRESS


                                WITNESS

HON. YVETTE CLARKE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Clarke. Certainly. Thank you very much, Chairman 
Fattah, Ranking Member Wolf.
    It is my honor to be here to speak on behalf of the 
education and Assistance Corporation, Incorporated which 
basically is treatment alternatives for safer communities. And 
the program provides alternatives to incarceration for 
substance abuse offenders throughout New York City's 
metropolitan area.
    The program provides a cost-effective, responsible 
alternative to expensive and ineffective incarceration, saving 
taxpayers more than $17 million last year alone.
    More than 600 offenders annually are enrolled in the AC's 
Brooklyn TASC Program. This program reduces crime, reduces jail 
and prison populations, and helps individuals in neighborhoods 
across the city.
    Studies by the nation's leading criminal justice 
researchers have shown that ATIs reduce jail time and 
successfully treat people in the community without compromising 
public safety. ATIs are meeting the diverse needs of people 
they serve while enhancing the quality of life for the city's 
most challenged communities.
    TASC programs work to establish treatment accountability by 
ensuring that offenders receive the appropriate type and level 
of treatment and that the offender is attending treatment 
regularly, treatment is progressing, and the agency to which 
TASC referred the offender is providing effective treatment 
services.
    The Brooklyn TASC Program operated in King's County 
Criminal Court for jail, bond, non-violent, misdemeanor 
offenders, and MICA-classified offenders whose substance abuse 
is related to their criminal activity.
    Brooklyn TASC is widely used by the courts and District 
Attorney's Offices and has an ever-growing caseload of 
offenders with multiple needs: mental illness, HIV, 
unemployment, and homelessness, in addition to severe and 
chronic drug and alcohol addiction.
    And TASC manages drug cases by moving the offenders through 
the criminal justice process and into drug treatment, 
simultaneously providing monitoring services as an adjunct to 
the criminal justice supervision.
    Despite the acknowledgments within the criminal justice 
system of the value of Brooklyn TASC, the program faces 
substantial cuts to funding by the New York State Division of 
Probation and Correctional Alternatives.
    Without adequate funding, Brooklyn could see a significant 
increase in jail and prison populations at an even greater 
expense. And this in and of itself seems to be a bit ironic, 
because the overcrowding and early release due to budget 
constraints our city jails and state prisons are facing is due, 
of course, to budget shortfalls due to the ongoing fiscal 
crisis.
    The drop in New York City's crime rate has increased 
opportunities in the city and is critical to New York city's 
future.
    An investment in alternative to incarceration programs like 
Brooklyn TASC is an investment in people who with the right mix 
of services, programs, and supervision, and opportunities for 
change could return to their communities to lead crime-free 
lives.
    Therefore, it is my honor to ask for $500,000 in this 
fiscal year's budget for EAC's Brooklyn TASC Project. And I 
would ask that you support this critical need for funding.
    Thank you again for the opportunity to testify before this 
Committee today. And I am available to answer any questions you 
may have about this important program.
    Mr. Fattah. Well let me thank you for your testimony and 
say that between both Ranking Member Wolf who has been really 
at the vanguard of a lot of the efforts around drug treatment, 
and the Second Chance Program, and just working with 
alternatives to incarceration, and myself, there is a lot of 
empathy for these types of efforts all across the country.
    We thank you for your testimony. And the Committee will do 
all it can to seek to be helpful as we go forward.
    Ms. Clarke. I appreciate that. Thank you very much.
    Mr. Fattah. All right. And our last witness in this segment 
the Honorable Sue Bell Cobb, National Association of Drug Court 
Professionals.
                              ----------                              

                                         Wednesday, April 14, 2010.

            NATIONAL ASSOCIATION OF DRUG COURT PROFESSIONALS


                                WITNESS

HON. SUE BELL COBB

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Cobb. Good morning, Mr. Chairman, Ranking Member Wolf. 
It is good to see you again.
    I am Sue Bell Cobb, the Chief Justice of the Supreme Court 
of Alabama. And I am honored to have the opportunity today to 
testify on behalf of drug courts throughout the nation, which 
have proven to be our nation's most effective and fiscally 
responsible justice program. And I know already that both of 
you all are advocates.
    So I want to ask you and urge you to consider that your 
budget include a minimum of $65 million for the Drug Court 
Discretionary Grant Program, which is at BJA, Office of Justice 
Programs, Department of Justice.
    This is the most effective and efficient way to ensure that 
drug courts throughout the nation are not forced to shut their 
doors at what we all agree is a terrible economic time.
    The President's budget, while there is funding, it is for 
unauthorized problem-solving court's initiative, which, of 
course, drug courts are your best known example of a problem-
solving court.
    The President's budget had $57 million for problem-solving 
court's initiative. And it also included funding, thank 
goodness, for substance abuse treatment within some of these 
criminal justice programs.
    But I am deeply concerned, as are the judges throughout the 
nation who are such huge believers in drug courts, that there 
is not direct funding for the Drug Court Discretionary Grant 
Program.
    While problem-solving courts certainly have merit, and they 
do, mental health courts and others that you can think of, this 
is siphoning money from drug courts. And it could possibly have 
a disastrous effect.
    The President's budget proposes $56 million for drug 
treatment courts at the Center for Substance Abuse Treatment, 
SAMHSA. But this is critically needed funding--and you all know 
how desperately it is needed. The treatment is such a huge part 
of it. It goes towards the expansion of drug courts capacity. 
But it will only be effective if we have the funding for the 
Drug Court Discretionary Grant Program.
    For the past 15 years, the Drug Court Discretionary Grant 
Program has struck the proper balance between government 
oversight, and local innovation, and bringing in local 
partners.
    By focusing on the core infrastructure, drug courts--
through the implementation, enhancement, national research, 
training, and technical assistance have become the most 
important, cost effective, and research validated program we 
have to combat the scourge of substance abuse and the crime, of 
course, associated with it.
    At a moment in our history when federal government must 
make judicious economic choices, and we understand that, why 
would we suddenly abandon the one thing that it shows is so 
unbelievably effective?
    As a nation we annually spend, and I know you all know 
this, $60 billion on corrections, an investment that really has 
done very little to stem the cancer of crime, so much of it 
caused by drug and alcohol abuse.
    Half of the nation's prison population is clinically 
addicted to drugs and alcohol. And in Alabama unfortunately our 
number one provider of drug and alcohol treatment is in our 
prison system.
    Upon their release, nearly all of them relapse. Eighty 
percent of them will commit a new crime. In my home state of 
Alabama, we have seen firsthand the impact of drug courts.
    I am proud to say--and I just want to hold this up. I may 
want to submit it later for you all. But when I became Chief 
Justice we had 14 drug courts. In three years of our placing a 
priority with the judges on drug courts, you now see that we 
only have five counties that don't have a drug court or aren't 
in a planning stage for a drug court.
    In Alabama we have the most overcrowded prison system in 
the nation and the least funded. You can see why I am here. And 
we have attempted to incarcerate ourselves out of this problem. 
And obviously it hasn't worked.
    But because of drug courts and because of our trying to 
change the concepts and the philosophy of our judges, we not 
only flattened the commitments to prison, but we have seen a 
slight decrease, which is a big thing for us.
    As Chief Justice, I feel like I have an obligation to make 
sure that whatever we do, number one, it is public safety. It 
is about public safety. And as we mete out justice, that it be 
done effectively, efficiently, and with the greatest impact for 
public safety. And this is the reason why that I have made it a 
passion to push ardently for drug courts in Alabama.
    And I am not alone. As you know, the Conference of Chief 
Justices, our association of the chief justices throughout the 
nation, which I am proud to be a member of, represents the 
highest judicial officers in the state. And the conference, CCJ 
is what we call it, has called drug courts, ``The most 
effective strategy for reducing drug abuse and criminal 
recidivism among criminal offenders.''
    I have been asked by the President to serve as Chairman of 
the Evidence-Based Practice Sentencing Committee for the 
Conference of Chief Justices. And I can assure you that all of 
the chief justices and the court administrators are adamant in 
their support of data-driven solutions to drug-induced crime. 
And that answer is, and they believe that answer is, model drug 
courts.
    Today we have over 2,400 communities with drug courts. And 
that has evolved as you all know over the past couple of 
decades. The drug courts have been the answer where traditional 
sentencing has failed.
    Model drug courts put judges in the transformation 
business. And I say it in two ways. It is not just transforming 
the inmates and the offenders, because what we really see is 
that we are--actually our motto in Alabama now is that we are--
going to do the hard work of fixing people, not the easy work 
of filling prisons. And it is more judges spending more time. 
And that is what drug court entails.
    But it is also the transformation of the transformation. 
One of my drug court judges says that after a 20-year term as 
one of the hot circuit court judges in a metropolis county, he 
says that, ``Nothing means more to him than his drug court.'' 
That not only has he been seeing the transformation of lives 
but it has transformed him. Because of his drug court work, he 
believes that he truly is a better husband and better father 
because of being involved in drug court.
    Recently a cost-related meta-analysis, the most rigorous 
scientific tool to researchers, has released staggering 
results. Drug courts produced an average of $2.21 in direct 
benefits to every dollar invested. These savings of course, and 
you all know, have stemmed directly from reduced rearrests, law 
enforcement contacts, court hearings, less demand for jail and 
prison beds, and, of course, the impact of drug victimization.
    There are other numbers. Studies have reported economic 
benefits ranging from $2.00 to $7.00 for every dollar invested. 
The result has a net economic benefit to local communities 
ranging from $3,000.00 to $13,000.00 per drug court 
participant.
    And these savings can also be measured, of course, in the 
lives restored and reunited families and communities. And I 
must say businesses as well, because you can imagine you go to 
a drug court graduation you will always have a business person 
come up to you and say, ``You know, you all have saved one of 
my best employees. Thank you.''
    Drug courts provide an outstanding return on investment. 
And 70 percent of the approximately 120,000 seriously addicted 
individuals who voluntarily enter drug court complete it. And 
75 percent of them remain arrest free, which we cannot show 
that with other methods.
    And these results are not short lived. I mean we find that 
there are years. And the thing about drug courts is we have got 
the data to prove it. Substance abuse has had a role in 
crippling state budgets. States annually spend on average 
$65,000.00 to build a bed, $23,000.00 to maintain that bed.
    For operations, state and local governments and certainly 
Alabama have traditionally leveraged that federal investment. 
We have gotten very little of that money. But our legislature, 
thank goodness, has recognized the importance and has helped us 
with a very small investment that has helped us have the growth 
that that map indicated.
    But that federal investment is about nine to one, which I 
think you can see that this is something with the little bit of 
money. And what we have asked is not little, but it is enough 
when you spread it across the entire nation that it can mean 
great things.
    And if we don't have it, we do stand the chance of drug 
courts closing their doors. $65 million for fiscal year 2011 
appropriation for drug courts at the Department of Justice will 
reduce the fiscal burdens facing the states and ensure the 
continuation of one of the most successful state/federal 
funding partnerships.
    And I think this is very meaningful. The historic 1994 
Crime Bill authorized $1 billion for drug courts. But only an 
investment of about 40 million, an average of 40 million, has 
ever been dedicated to drug courts during those intervening 
years. And that is not enough even though we have done a lot 
with it.
    The Drug Court Discretionary Grant Program has proven an 
invaluable funding stream. You know, it is what targets the 
drug testing, the case management, the evaluation, the 
supervision, and training needs to our court system. Please 
help us help our local officials, both judges and district 
attorneys and law enforcement, do their jobs to save lives.
    We are all keenly aware of the historic economic times in 
which we are now faced. Now more than ever we must focus on 
cost-effective, evidence-based practices that reduce drugs and 
crime and ease the financial burden.
    I know the President is a big believe in drug courts. And I 
am sure that it was thought that the flexibility was what is 
needed. But from the court officials I can assure you, our most 
urgent plea is the continued support, specifically of drug 
courts.
    I respectfully ask that this Committee consider restoring 
funding for drug courts at the Department of Justice Drug Court 
Discretionary Grant Program at a modest level of $65 million.
    And in addition I ask that the Committee maintain what the 
Administration has asked for as far as treatment and maintain 
those proposed funding levels for drug courts at the Center for 
Abuse Treatment. Only then can we ensure that the 20 years of 
progress that I know that both of you are aware of can continue 
and is not undone.
    My thanks to the Committee for letting me have the 
opportunity. Though I have been in a hearing room many, many, 
many times, because I have been a judge for 29 years, this is 
my first opportunity to testify before Congress. So thank you 
for giving me that opportunity to speak on behalf of something 
that I believe with all my heart is a huge part of the answer.
    And I will be more than happy, Mr. Chairman and Ranking 
Member Wolf to answer any questions you and Congressman Schiff 
might have.
    Mr. Fattah. Well let me thank you. We are honored to have 
you as a representative of a state judiciary system all across 
the country.
    It was the chief justice of the Pennsylvania court that had 
me in a leadership role in developing our drug court system in 
Pennsylvania, which has worked very, very well. And the studies 
by the National Institute of Justice have shown, you know, that 
drug-influenced criminal activity is really what is driving a 
lot of the incidents of crime. And if we don't deal with the 
underlying cause, we are really not going to be successful 
here.
    So let me thank you for your testimony. I don't have any 
questions. But I will yield to the Ranking Member.
    Mr. Wolf. Thank you, Mr. Chairman. I will be very brief.
    Welcome. Thank you for your testimony. Two questions very 
quickly. I remember when you spoke at the conference that Pew 
put on. Have you been in touch with them, because they are 
working on their best practices?
    Ms. Cobb. Absolutely. And Pew is basically staffing the 
committee that I now chair. And what we are trying to do is to 
raise it as a priority amongst the chief justices that they 
will go back and really try to help judges understand that we 
have got to reevaluate our sentencing philosophy and make sure 
that our sentencing decisions are based on data.
    Mr. Wolf. Well that is important, because when the Pew 
people come out I think that is--hopefully I think it will be 
this summer or fall. That will really get a lot of interest.
    Secondly, how is the state of Virginia now? Our new 
governor has been very supportive when he was in the General 
Assembly. Overall how does Virginia do in drug courts honestly?
    Ms. Cobb. As far as I know, very well. Chief Justice Leroy 
Hassell, your chief justice, of course it has been a major 
priority. He has worked on other issues as well as far as 
indigent defense and other things.
    But Virginia also has a sentencing commission. And I think 
you have worked together with that to really reevaluate your 
sentencing policy. You have got an outstanding sentencing 
commission in Virginia.
    Mr. Wolf. Yes.
    Ms. Cobb. And they have worked and put emphasis on this as 
well.
    Mr. Wolf. So they are doing well. Okay.
    Ms. Cobb. Absolutely.
    Mr. Wolf. Well, thank you for your testimony.
    Ms. Cobb. Thank you, Congressman.
    Mr. Wolf. Thank you Mr. Chairman.
    Mr. Fattah. Madam Chief Justice, let me thank you for your 
testimony.
    Ms. Cobb. Thank you.
    Mr. Fattah. Okay. I am going to turn the Chair over to my 
colleague, Mr. Schiff. And we are going to bring in the 11:15 
cohort of witnesses.
    Mr. Schiff [presiding]. The hearing will resume. And our 
first witness is Aaron Houston of the Marijuana Policy Project. 
He is the Director of Government Relations.
    And welcome, Mr. Houston. We appreciate your testimony 
today.
                              ----------                              

                                         Wednesday, April 14, 2010.

                        MARIJUANA POLICY PROJECT


                                WITNESS

AARON HOUSTON

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Houston. Thank you, Mr. Chairman. Chairman Schiff and 
distinguished members of the Subcommittee, I am Aaron Houston, 
Director of Government Relations for MPP. That is the largest 
marijuana law reform organization of the United States.
    And we believe that the greatest harm associated with 
marijuana is the arrest and imprisonment of seriously ill 
people in particular who need medical marijuana with their 
doctor's approval.
    While MPP requests no specific budgetary line item or 
amount today, we do urge the Subcommittee to consider possible 
report language related to the use of DOJ resources in the 
fiscal year 2011 bill in the areas that I have outlined today 
as ways that we believe that the DOJ resources may be better 
utilized.
    As the Chairman is aware, since 1996 voters and 
legislatures in 14 states have passed laws providing for the 
use of medical marijuana. And, unfortunately, under the 
Administration of Former President George W. Bush, the DEA 
targeted persons and entities involved in the sale or 
production of medical marijuana even when those targeted 
persons were in compliance with state laws.
    MPP opposed these enforcement activities because we believe 
this was a bad policy. These resources could be put to better 
use elsewhere.
    And perhaps there is no better example of how wasteful and 
misguided these DEA raids proved than testimony elicited by 
Congressman Culberson on a regular basis indicating that 
federal law enforcement authorities are so overwhelmed at the 
Tucson sector of the Mexican/U.S. Border that persons caught 
crossing the border with up to 500 pounds of marijuana are 
unlikely to face prosecution.
    We very much appreciate that President Obama, both as a 
candidate and once he was in office, expressed that the DEA 
should focus on more important priorities than targeting 
medical marijuana patients and providers who comply with the 
state's laws.
    And as you know on October 19, 2009, Deputy Attorney 
General David Ogden issued a memorandum to U.S. attorneys 
related to investigations and prosecutions in states 
authorizing the use of medical marijuana. The memo clarified 
the department's positions that as a general matter resources, 
federal resources, in states should not be focused on 
individuals whose actions are in clear and unambiguous 
compliance with existing state laws.
    And I would like to take this opportunity to thank you, Mr. 
Chairman, and the members of this Subcommittee as well as the 
members of the full Committee and Congressman Hensche for 
working to include language in last year's Committee report for 
this bill urging the department to issue its policy on medical 
marijuana prosecutions in writings. We very much appreciate 
that effort.
    Getting to our recommendations, one we would ask is that 
the Subcommittee urge the department to strengthen its policy 
related to those involved in medical marijuana activities and 
prosecutions of those persons.
    And two, and perhaps more poignantly important for 
budgetary reasons, in cases where states are furloughing 
prisons due to budget crunches, we would ask that you encourage 
the department to encourage states to certify that no inmates 
who are convicted of crimes of violence, including sexual 
assault, will be released before non-violent offenders whose 
soul offense involves marijuana sale, cultivation, or 
possession.
    Hitting on the first recommendation first, strengthening 
Attorney General Holder's policy on DEA rates with the 
presumption of state control. As more states have gained 
experience in implementing medical marijuana laws, the role of 
the state in regulating this area of policy has evolved. Some 
earlier state laws are vague and do not include licensing. Well 
more recent laws generally provide for clear regulation.
    This had led to a great diversity in the manner in which 
each of the 14 state medical marijuana laws is carried out. For 
example, in California, there is no state licensing of 
dispensaries. And although localities may license the 
collectives there that are authorized under state law, not all 
have done so.
    Conversely, New Mexico provides for the direct state 
licensure of marijuana growers. And Rhode Island recently 
finalized rules and regulations for oversight of medical 
marijuana compassion centers. And the District of Columbia City 
Council, in fact, is finalizing an amendment to voters 
initiative right now to license dispensaries.
    In short, the problem is that when that clear and 
unambiguous compliance with state law, the standard laid out in 
the Ogden Memorandum of October 19, is a very high standard to 
reach.
    And moreover, even if a person, in fact, is in compliance 
with the state law--but it may not be clear and unambiguous--if 
that person is prosecuted by federal authorities, they have no 
right whatsoever to raise the fact that their activities were 
legal in a federal court. There is no mention of medical 
marijuana allowed whatsoever.
    And in addition I should note that allowing state 
authorities to handle violations in state court the most just 
and equitable outcome in general, since persons acting in good 
faith compliance with state law have no defense.
    And Congressman Farr's Truth in Trials Act would actually 
remedy that injustice, allowing defendants in federal court to 
tell the truth about state law allowing them to dispense or use 
marijuana.
    Number two, we would ask that you urge the Department of 
Justice to consider conditioning grant awards for state and 
municipal correction systems on those system certifications 
that no inmates convicted of crimes of violence, including 
sexual abuse and assault, will be or have been furloughed 
before any non-violent marijuana offenders whose sole offense 
related to the possession, sale, or manufacture of marijuana.
    The Associated Press, Mr. Chairman, reported a disturbing 
trend on March 31. Noting that, ``Inmates convicted of violent 
crimes are among those being freed early from California jails 
to save money, despite lawmakers' promises that they would 
exclude most dangerous prisoners and sex offenders.'' An 
Associated Press review of inmate data showed that some of the 
freed criminals were convicted of assault with a deadly weapon, 
battery, domestic violence, and attacks on children and the 
elderly.
    The article goes on to note that similar programs, furlough 
programs, were initiated or expanded in a dozen other states.
    MPP believes other committees in the House should consider 
legislation that would specifically provide for withholding 
funds from states that fail to certify that they're releasing 
non-violent marijuana offenders ahead of violent felons.
    But in the meantime, we would appreciate the Subcommittee's 
attention to early release programs and the sequence of release 
for various offenders. Prioritizing the release of people whose 
only crime is marijuana-related just makes sense.
    So Chairman Schiff and distinguished members of the 
Subcommittee, I thank you for the opportunity to appear. And 
would welcome any questions you have.
    Mr. Schiff. Thank you very much. I had just a couple of 
questions. One, did you mention that in Mexico they license 
growers of marijuana?
    Mr. Houston. Yes, sir. Both New Mexico and Rhode Island 
provide for some direct state licensure of marijuana.
    Mr. Schiff. You said New Mexico.
    Mr. Houston. Yes, exactly.
    Mr. Schiff. Oh, I am sorry. I thought I heard you say 
Mexico. Okay.
    I want to ask you about California, which seems to be an 
epicenter of conflict over the issue at the moment and L.A. 
even an epicenter within the epicenter.
    How do the enforcement actions in L.A., if at all, relate 
to federal government policy? Is there a federal issue there, 
or is this purely a local ordinance and enforcement issue? And 
more broadly, the ballot measure in California, how does that 
square with federal law on the subject?
    Mr. Houston. Very interesting questions. To address the 
first part of your question first, essentially the local 
ordinances and municipal regulations of marijuana, medical 
marijuana, in California dictate what that state law is.
    And so the Ogden Memo really lays out that state law is the 
deciding factor. That compliance with state law is the deciding 
factor. And, of course, in the case of California, the state 
law allows for the municipalities to license it or regulate it 
themselves.
    And, of course, our concern is that if a person who is 
acting in compliance with the local ordinances in L.A., which 
are different of course from Mendocino County regulations and 
regulations all over the rest of the state. In other words, 
these are complicated, and they are different around the state.
    That compliance with those may not be entirely clear, even 
if a person, in fact, is in compliance. And that if the person 
were arrested by federal authorities rather than state 
authorities on a federal warrant, they would end up in federal 
court and have no ability whatsoever to explain that they in 
fact were in compliance.
    To address the second part regarding the ballot measure in 
California the impact of that with respect to the Ogden memo, 
interestingly, Mr. Chairman, federal law provides for no 
recognition of medical marijuana whatsoever.
    And so it is interesting to consider legally from a 
preemption perspective the idea that if the Ogden Memo is the 
only memorialization or formalization in some way of the 
federal government recognizing medical marijuana, that 
marijuana that is legal for all purposes would presumably be 
treated the same way.
    And not to say that the department would not focus on 
those. The department probably would focus on the wholesale 
supply of marijuana if the ballot measure passes, I am 
assuming, or would focus on some large-scale suppliers.
    But the Ogden Memo has laid out that now, as of October 19, 
we now have a formalization of the federal government 
recognizing medical marijuana, that even something called 
medical marijuana exists.
    Mr. Schiff. Thank you, Mr. Houston.
    Mr. Wolf.
    Mr. Wolf. No.
    Mr. Schiff. Well thank you very much for testifying.
    Mr. Houston. Thank you.
    Mr. Schiff. Our next witness is Gabrielle Martin from the 
National Council of EEOC Locals, No. 216, AFGE/AFL-CIO. 
Welcome.
                              ----------                              

                                         Wednesday, April 14, 2010.

         NATIONAL COUNCIL OF EEOC LOCALS, NO. 216, AFGE/AFL-CIO


                                WITNESS

GABRIELLE MARTIN

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Martin. Good morning. Good morning members of this 
Committee.
    I want to take the time to thank you for having us here to 
testify. We have come here a number of years in the past. You 
have been quite supportive of the program at the Equal 
Employment Opportunity Commission. And you have done things 
like increase our funding and given us strong bill language to 
help guide the agency in trying to address the extreme 
workloads that it is facing.
    In many ways this Administration has made clear that jobs 
are important. And in some ways EEOC is a gatekeeper to those 
jobs, whether they are being created and whether people are 
able to keep their jobs and get promoted.
    Our number one task, again, is for additional funding. And 
we are asking for $385 million to help ensure that EEOC's fight 
to eradicate discrimination in the workplaces can be an 
effective one.
    When I say effective, what I am talking about is our 
extreme backlogs. This year we will have 100,000 cases 
backlogged. We have lost 25 percent of our staff over the last 
ten years. And we predict that our backlogs for fiscal year 
2010 will be above 100,000. And for fiscal year 2011, we will 
see more than 100,000 charges come in. And our backlog will be 
at about 110,000 cases.
    And I am trying to find a way to make those cases real, 
because we all hear huge numbers. This weekend I had the 
opportunity to attend a ceremony recognizing young women who 
had aspirations in the field of aviation. They were young 
girls. And I thought what they all said was I want to fly 
airplanes. And I wondered whether they would be victims of 
discrimination as they sought to find those dreams.
    So there were six girls awarded. And I wondered will EEOC 
ever see any of those six young ladies in its doors. And I 
certainly hope not, because EEOC toils long and hard every day.
    We have cases where our staff have found on behalf of 
people who are disabled, people from different cultures or 
national origins, races, sexes, ages. We run the gamut. And 
every day there is a headline about what we do.
    But every headline also represents someone who is waiting. 
And it is taking about 294 days for individual cases to be 
investigated and a determination made. And that is not just the 
individuals who are waiting. But that is also our employers who 
are saying if I have done something wrong tell me. If I 
haven't, please let me go and go about the business of running 
my business.
    So those things are really, really important. And when I 
think of 294 days I said, ``Gee, what if I had a cavity, and it 
took 294 days for a dentist to be able to say, `You have got a 
problem with your tooth.' '' What would have become of my tooth 
in that 294 days? And that is what we leave the public to 
suffer when we can't get to their cases any sooner.
    We have seen retaliation charges rise ten percent because 
of the length of time it takes. And because of the length of 
time, I think that is what helps contribute to the large 
numbers of charges coming in our door.
    We are not taken seriously. If we can't be that gatekeeper, 
then it is really the public that suffers. And it is the 
Administration's concern about jobs that is caught up in the 
process.
    So funding that is a huge number. What would it help us do? 
It would help us reverse that trend of losing 25 percent of our 
staff. It would help us reduce the trend of 294 days to resolve 
those cases. And it would also help in other programs at EEOC 
as well.
    EEOC has a hearings program for federal sector employees, 
because they are in a different process. Again, here is a place 
where there are fewer than 100 judges to serve all the federal 
employees in this country and in our overseas satellites if you 
will and installations who request a hearing on their federal 
sector cases. They are waiting about 279 days to get their 
cases heard.
    It will also help our litigation program in that the 
commission can be that premiere enforcer of civil rights in 
employment. It means that we will continue to be able to take 
the initiative. And we will continue to send a message through 
the press and the people that we are able to help that 
discrimination in the workplace won't be tolerated in this 
country.
    In conclusion, I would like to thank you for inviting me to 
testify again. I hope I have been able to help you understand 
EEOC's plight and its challenges.
    We do have a new Chair. And we are hoping that that will 
work out well for us, because in the past there may have been 
questions about the direction the Commission was going.
    So we are also requesting bill language and report 
language, which increases our funding to $385 million, provides 
for more staff, and we are looking for a ceiling of 3,000. We 
currently have about 2,200 on board.
    And that you continue to provide oversight. As the agency 
is restructured, it has not always been necessarily a good 
thing in terms of being able to provide service to the public. 
But also directing EEOC to do one thing. And that is to look at 
their intake system. Currently that backlog of 100,000 cases is 
serviced by the same people who are bringing in what was last 
year 93,000. And it is expected to be 100,000.
    So until the agency takes a hard look at that and says we 
need one group of people to work the intake and one group of 
people to work the cases here and help reduce the backlog, I 
don't think we will see a change there. But the union has given 
them a plan, asked them to look at it, and we hope to hear from 
them soon. But we are hoping that direction from this Committee 
will help them address that so that the public we serve gets 
better service from us.
    Thank you.
    Mr. Schiff. Thank you very much.
    Mr. Wolf.
    Mr. Wolf. No.
    Mr. Schiff. Thank you so much for your testimony today.
    Ms. Martin. Thank you for your time this morning.
    Mr. Schiff. Thank you.
    Our next witness is B. Diane Williams from the Safer 
Foundation.
                                         Wednesday, April 14, 2010.

                            SAFER FOUNDATION


                                WITNESS

B. DIANE WILLIAMS, SAFER FOUNDATION

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Williams. Good morning, Mr. Chairman.
    Mr. Schiff. Good morning.
    Ms. Williams. I thank you for inviting the Safer Foundation 
to testify before you today.
    Safer is a not-for-profit organization headquartered in 
Chicago, Illinois. It's been operating throughout the State of 
Illinois and in parts of Iowa. Our work focuses on reducing the 
number of crime victims and improving public and community 
safety.
    We do this by supporting the efforts of people with 
criminal records become productive law-abiding members of their 
community. We provide a full spectrum of services, including 
education, employment, and detention-focused case management. 
This year we are on track to serve 14,000 people with criminal 
records.
    While my written testimony offers information on the 
achievements of the Safer Foundation and the Illinois 
Department of Corrections, in my oral remarks I want to note 
the importance of your funding the Second Chance Act and 
initiatives like the Council of State Government's National 
Reentry Resource Center. A meeting convened by CSG and John Jay 
College on Monday and Tuesday of this week allowed a group of 
national experts to provide prime investment strategy that 
could be implemented through the Second Chance Act. In 
supporting this work, you are reducing both short-term and 
long-term costs to the American people, while also reducing the 
number of U.S. citizens who become victims. For that we thank 
you.
    Over the past decade we at Safer have seen the demand for 
our services grow from 2,000 in 1995 to 14,000 in 2010. This 
growth is directly related to the increasing number of 
individuals involved in the criminal justice system. 
Communities are devastated by the increase, and need to adopt 
planned and coordinated support systems.
    With the assistance of Congress and the Departments of 
Justice and Labor, Safer has designed and implemented a number 
of successful research-based programs. Through Safer's career 
services personnel, clients are able to find unsubsidized 
employment and stay out of prison. This success demonstrates 
the strong link between employment and recidivism reduction, 
and I urge this subcommittee to continue encouraging 
collaboration between the Department of Justice and Labor. It 
would certainly be nice to have HUD involved in that, as well.
    Reentry impacts not only those being released from prison, 
but also their families and the entire community. This is 
especially troubling given that these communities are 
disproportionately home to low-income minority families, high 
rates of crime, and have few of the needed social services and 
supports. Communities, specifically families, need the tools 
and resources to help their loved ones succeed. Through the 
decisions that lead to success or failure, though they fall 
most heavily on the returning individuals, these individuals 
must be empowered to make the right decisions through clear 
pathways to success.
    The critical funding authorized for the Second Chance Act 
and appropriated by this Committee, provides assistance to 
states, local government, and community-based organizations 
concerned with prisoner reentry.
    On behalf of our clients, Safer Foundation sincerely thanks 
the Committee for its leadership this past year and the $100 
million included in the fiscal year 2010 budget. We strongly 
support the President's request for $100 million for fiscal 
year 2011. Recognizing the current fiscal environment and the 
pressures of an increasingly large budget deficit, we urge you 
to consider the average cost per year of incarceration. The 
cost of reentry is far offset by the savings received as a 
result of the recidivism reduction.
    When Illinois had reached the historic recidivism rate of 
54.6 percent, Safer's clients returned to prison at the rate of 
22 percent, less than half that of the state rate.
    In closing, I would like to again commend the Chairman and 
each of the members for their efforts to address the needs to 
reform incarcerated individuals as they return to their 
communities. And I'll be glad to answer any questions you might 
have.
    Mr. Schiff. I just wonder--thank you for your work. The 
numbers add up, just as you mentioned--when we avoid re-
incarceration, we avoid taking on a huge additional cost that 
is far better for the individual and society, and far cheaper, 
as well, if we can find a way to redirect people into 
productive pursuits.
    So I appreciate the work you are doing. And I think it is 
absolutely vital, and in California, where we are being 
bankrupted by our high incarceration costs, it is more 
important than ever. So thank you for your testimony. Thank you 
for your work.
    Ms. Williams. Thank you very much. I have had an 
opportunity to meet with the Director of programs from 
California who has asked that we participate in his thinking 
around how to integrate the communities and people returning so 
that they can be successful when they return, as well. Thank 
you.
    Mr. Schiff. Well, we are going to have a lot more folks 
returning to the communities without much supervision as a 
result of our budget problems. So we need all the help we can 
get. Thank you very much.
    Our next witness is Ann Harkins of the National Crime 
Prevention Council.
                              ----------                              

                                         Wednesday, April 14, 2010.

                   NATIONAL CRIME PREVENTION COUNCIL


                                WITNESS

ANN M. HARKINS, NATIONAL CRIME PREVENTION COUNCIL

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Harkins. Thank you, Mr. Chairman, for having me here 
today. For 28 years the National Crime Prevention Council has 
been providing practical, research-based information on proven 
and cost-effective processes and practices to citizens, law 
enforcement, and community leaders. McGruff the Crime Dog 
carries our message.
    NCPC strongly supports the Byrne Competitive Grant Program 
and encourages the Subcommittee to appropriate $40 million for 
it in fiscal year 2011. In addition to full funding, NCPC 
respectfully requests that the Subcommittee insure that two 
essential crime prevention functions are funded within the 
program in fiscal year 2011. The Subcommittee has supported 
these functions for 15 years, and our hope is that the 
Department of Justice will continue investing in them.
    The first function is an independent, non-governmental 
national repository and clearinghouse on best practices. Local 
law enforcement deserves the best materials on effective crime 
prevention practices. I don't know a single prosecutor or a 
single law enforcement officer who wouldn't prefer to prevent a 
crime rather than prosecute or investigate it. Congress's 
substantial investment in Byrne/JAG and other state and local 
assistance programs will mean more if local law enforcement has 
access to those best practices.
    The second essential function is a strong national 
advertising campaign to reach citizens with evidence-based 
crime prevention methods. A national public education campaign 
has been shown to have a tremendous impact in changing 
individual and collective behavior to prevent crime. NCPC 
designs messages and provides training on crime prevention 
practices with proven outcomes based on the highest standards 
of research.
    Our commitment to promoting the most effective crime 
prevention pools and messages is based on the National Crime 
Prevention Council's capacity to monitor crime prevention 
research, to identify what works, and to transmit evidence-
based practices to and among the field.
    In 1980 the Department of Justice and others formed the 
National Crime Prevention Council, a public/private partnership 
to establish a national crime prevention campaign. The most 
visible portion of the campaign features McGruff and his 
signature message that inspires all Americans to ``take a bite 
out of crime''.
    Prior to that campaign, Americans thought that crime 
prevention was solely the responsibility of law enforcement. 
Over 30 years of campaigns generated $1.5 billion in donated 
advertising at a very modest cost. I am proud to report that 
today citizens and community groups realize that crime 
prevention is everyone's business.
    Although the campaign has not been funded with the same 
financial commitment from its Federal founders in the past few 
years, an ongoing crime prevention campaign is essential to 
maintaining 30 years of progress. NCPC is committed to that 
effort, and as you join us in that commitment, we also commit 
to leveraging the Federal investment in crime prevention 
through expanded public/private partnership.
    The Subcommittee has historically made significant 
investments in a number of important crime prevention programs. 
On behalf of the NCPC Board of Directors, its staff, and the 
thousands of crime prevention practitioners across the country 
whom we represent, I want to thank you for that support.
    Thank you again for allowing me to appear today as Congress 
works to prevent crime. Please consider NCPC and McGruff your 
active partners in empowering citizens to work with law 
enforcement to build safer communities.
    Finally, McGruff, the Crime Dog, celebrates his thirtieth 
birthday on July 1. We hope you will join us in honoring this 
great public/private partnership that McGruff represents.
    Mr. Schiff. Thank you very much for your testimony and for 
your work. And I share your conviction that, to the degree that 
we can develop best practices and disseminate the information, 
it is much better than relying on anecdotal reports of success 
which we hear in great abundance, not withstanding seeing a lot 
of the statistics go in the other direction.
    So thank you for your good work and please give McGruff our 
birthday wishes.
    Ms. Harkins. Thank you, Mr. Schiff. I will.
    Mr. Schiff. So he's 30. That would make him 210 in dog 
years, right? He has been around a long time.
    Ms. Harkins. That is right. He has 83 percent unaided 
recognition and 80 percent of kids listen to his messages.
    Mr. Schiff. And much higher favorables than any of us in 
Congress, that is for sure. We stand in envy of Mr. McGruff.
    Ms. Harkins. Thank you very much.
    Mr. Schiff. Thank you. Our next witness is Susan Millward 
from the Animal Welfare Institute. That is good timing, is it 
not? Welcome.
                              ----------                              

                                        Wednesday, April 14, 2010. 

                        ANIMAL WELFARE INSTITUTE


                                WITNESS

SUSAN MILLWARD, ANIMAL WELFARE INSTITUTE

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Millward. Thank you very much for allowing me to 
testify today.
    My name is Susan Millward, and I am the Executive Director 
for the Animal Welfare Institute. I will be addressing 
activities under the Department of Justice and the Department 
of Commerce.
    We wish to commend the OJT for awarding a grant to the 
Association of Prosecuting Attorneys for its new program of 
training technical support and other assistance for COPS 
research, members of the law enforcement community, and others 
to enhance the prosecution of animal abuse and animal fighting 
crimes. We are proud to support this effort and to have been 
APA's partner for the first national training conference upon 
which the new program is built.
    We respectfully urge the Subcommittee to provide $720,000 
to the Bureau of Justice's assistance to national animal 
cruelty and fighting initiatives and to continue its interest 
in addressing animal-related crime. The connection between 
animal abuse and other forms of violence has been firmly 
established and animal abuse is occurring everywhere in the 
U.S., and certain acts are felonies in 46 states and the 
District of Columbia. But a felony in one state may still be a 
misdemeanor in another, making vigorous enforcement of the law 
and prosecution of violators key, which is where the 
Association of Prosecuting Attorneys' program comes in.
    APA recognizes that preventing and prosecuting these crimes 
not only benefits animals, but the entire community by reducing 
overall levels of violence. The APA's program provides 
training, publications, technical assistance, and on-line 
resources, and it has assembled an advisory council to identify 
issues, strategies, and resource needs. Support of the APA's 
program sends a very strong message to prosecutors and law 
enforcement that crimes involving animals are to be taken 
seriously and pursued vigorously.
    This recognition raises the issue of tracking such crimes. 
The animal protection community has long urged the FBI to 
include animal cruelty in its crime reporting system enabling 
the tracking of these offenses, a better understanding of the 
practices associated with animal abuse, and the characteristics 
of the perpetrators, and identification of when and where such 
crimes occur, thus facilitating more effective interventions. 
Yet, animal abuse statistics are recorded under the category of 
``other'', making them inaccessible for retrieval and analysis.
    In response to a request from this Subcommittee and the 
former Chairman, Frank Wolf, the FBI acknowledged substantial 
benefits could be achieved through the inclusion of animal 
cruelty data in its reporting system, but it has not sought to 
capture and report it in a usable form despite the link, 
ironically first identified by the FBI, between animal cruelty 
and other crime and other behavior common among serial killers.
    A simple solution would be to add ``animal'' to the victim 
segment of the incident report. No new data elements would be 
created, and no segments would be expanded. We respectfully ask 
the Subcommittee to direct the FBI to give serious 
consideration to this simple proposal.
    While we support funding worthwhile programs, such as those 
of the DJA, we cannot support funding for programs whose 
outputs conflict with the interest of the American people. The 
United States stands on the brink of the dismantling of one of 
the cornerstone measures in American conservation and 
leadership, the moratorium on commercial whaling. Despite 
assurances by the current administration to find a planned 
transparency and that the commercial whaling moratorium is a 
necessary conservation measure, U.S. influence is now being 
used to broker an ad hoc deal at the International Whaling 
Commission which would allow for a resumption of commercial 
whaling and legitimize the commercial whaling of Japan to 
conduct it in the guise of scientific research and permit the 
expansion of the international trade in whale products.
    The U.S. delegation to the whaling commission claims that 
the U.S. position on the deal has yet to be determined, but it 
both initiated the process and was the leading proponent of 
finding a compromise for the whalers. This deal is not 
acceptable to our organization or, we think, the vast majority 
of American citizens. We strongly oppose killing whales for 
commercial gain.
    Time is short. The deal will be presented to the whaling 
commission in June. We urge the Committee to demand that the 
United States position on whaling and its opposition to the 
current deal be provided forthwith, and that any future funding 
of NOAA's IWC program be contingent on the provision of 
complete and satisfactory answers, as well as maintaining the 
historic U.S. leadership role in protecting whales and opposing 
commercial whaling.
    Thank you.
    Mr. Schiff. Thank you very much for your testimony, and I 
think you raise a number of good issues that we need to follow 
up on. And the suggestion in terms of the FBI database and how 
they report and track is worth pursuing.
    And I am also very interested in what you had to say about 
the whaling issues. It reminds me of a very powerful 
advertisement on preservation of whales that talked about how 
every part of the whale was used for some different purpose, 
but the very end tag line was nothing is wasted but the whale 
itself, which I thought was a very powerful message.
    Ms. Millward. Right. And nowadays, actually, they do not 
need to use any part of the whale any longer.
    Mr. Schiff. I am not surprised. Well, thanks for your 
testimony.
    Mr. Honda?
    Thank you again.
    Ms. Millward. Thank you very much.
    Mr. Schiff. Our next witness is Tracy Velazquez of the 
Justice Policy Institute. Ms. Velazquez, welcome.
                              ----------                              

                                         Wednesday, April 14, 2010.

                        JUSTICE POLICY INSTITUTE


                                WITNESS

TRACY VELAZQUEZ, JUSTICE POLICY INSTITUTE

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Velazquez. Thank you very much. And thank you, Mr. 
Chairman, and members of the Committee for the opportunity to 
testify before you today.
    I am here as the Executive Director of the Justice Policy 
Institute, a research and policy organization working to reduce 
incarceration in America, to express our disappointment with 
the proposed Department of Justice Budget. In our view, this 
budget will perpetuate the misplaced priorities and ineffective 
policies of our criminal justice system.
    Rather than helping financially strapped state and local 
governments, increased spending on prisons and policing will 
swell their ranks and costs and incarcerations. Rather than 
attacking the racial disparities existing in the systems, this 
budget will certainly magnify them. Instead of investing in 
juvenile justice improvements and programs to serve at-risk 
groups, this budget will only further the cycle of 
incarceration that has characterized this country's history for 
the past three decades.
    The administration has requested almost $700 million on top 
of a billion dollars from ARRA for law enforcement services 
through the COPS program. At a time when crime rates continue 
to fall, there is no legitimate rationale for spending scarce 
Federal dollars on over-policing.
    The other day I heard an ad on the radio for a local 
college which advised listeners to train for law enforcement 
since that is where the Federal Government was putting its jobs 
money. If a goal of this expansion is to create jobs, there are 
a host of other professions we could invest in that would have 
a greater impact on public safety. There were no ads for 
addiction counselors, even though most people in jail and 
prison meet the criteria of substance abuse addiction. There 
were no ads for teachers, though most people in jail and prison 
do not have a high school diploma. There were no ads for social 
workers, even though many families are struggling in 
communities that offer limited opportunities.
    By investing in more policing rather than in people and 
effective services, we are guaranteeing that we will be paying 
for more prisons for years to come.
    There is well-deserved praise for Senator Webb's Second 
Chance Act which helps people leaving prison re-integrate into 
communities. Making it after prison is difficult, especially in 
a tough economy, for having a conviction on your record is a 
resume ticket to a rejection pile. And while we do support this 
funding for re-entry, it is equally urgent for you to focus 
your spending away from areas that will grow the number of 
people with convictions.
    Our research shows that more policing results in more 
arrests for people with low level, non-violent drug offenses. 
Even well-meaning programs like Drug Court, can widen the net 
of criminal justice control as a lack of community treatment 
pushes police and judges to funnel people through the justice 
system. Likewise, mental health courts are a poor substitute 
for community-based mental health care, which is unavailable 
and unaffordable to many Americans.
    Back in 2006 Congress passed the Adam Walsh Act. JPI 
strongly urges you to strike from this budget funding to induce 
states to comply with this Act. While we all want to keep our 
families, and especially our children safe, Jenny sex offender 
registries, particularly by including these on them, is 
counterproductive to public safety and expensive for states.
    Finally, we urge Congress to consider the public safety 
impact that can be gained elsewhere in the budget. For 
instance, for every dollar invested in drug treatment in the 
community, there is a savings of $18 in crime-related costs. 
And funding for community and mental health services block 
grants has not risen in years. If we could increase high school 
completion rates by one percent, researchers say the U.S. could 
save over a billion dollars a year in reduced crime costs.
    With the inclusion of $210 million in the U.S. Department 
of Education Budget for Promise Neighborhoods, it is clear that 
the Administration does understand the value of community 
investment. This program in particular has the potential to 
produce lasting improvements in communities around the county 
through integrated education, health, employment, and social 
services, all of which are tied to reductions in justice system 
involvement. By rejecting over-spending on policing and 
prisons, Congress and the Administration could fund programs 
like this at a higher level, improving life trajectories and 
public safety at the same time.
    Inasmuch as the budget expresses our vision for the future, 
we urge you to reject a future that trades jobs for 
imprisonment and, instead, uses its resources to create a 
healthier, more prosperous, and safer society through positive 
investment in people and communities.
    Thank you.
    Mr. Schiff. Thank you very much. I want to ask you what the 
status is of efforts to provide drug treatment on demand for 
people who are incarcerated. And maybe you can address how you 
think the Feds are doing on it and the states, it seems 
insanely counterproductive not to have drug treatment available 
for any inmate with a substance abuse problem. When you release 
someone with a substance abuse problem back into the general 
population, you should be surprised, I think, when they don't 
recidivate.
    Ms. Velazquez. Right. It is a challenge, both for mental 
health care and substance abuse. And, you know, obviously, we 
prefer people got their services before they had justice system 
involvement. But it can be effective if it is well done. And 
what we have also seen is that some states are beginning to 
look at making sure people are connected with services when 
they leave a prison or jail.
    I think that some changes to the way the Medicaid works, 
that would keep people from falling off Medicaid when they are 
incarcerated, and Social Security, would also help, because you 
have sort of a doughnut hole there when they leave, oftentimes, 
before they get reconnected to services, which is where we see 
a lot of people end up recidivating.
    Mr. Schiff. I am pretty sure I have heard from some of my 
constituents about the prohibition on people who have a felony 
conviction being able to live in government subsidized housing. 
When you have young people released from custody who were 
living with one of their parents or both their parents or 
grandparents, they now have a conviction. They are ineligible 
to live with their family without jeopardizing the family's 
subsidized housing.
    How much of an issue is that? Is there anything----
    Ms. Velazquez. I think it is a really large issue. And part 
of the problem is that different localities all do it 
differently. And, you know, what we would like to see is the 
Federal Government at least say--right now you can have an 
arrest on your record and in 39 states, you can be barred from 
public housing.
    So what happened to innocent until proven guilty? So even 
if your arrest is later cleared up, they can deny you access to 
public housing, and your family, as well. So, you know, we 
would really like to see the Federal Government at least put up 
a ban on barring people from public housing if they don't have 
a conviction, and certainly create more uniformity so that 
unless there is sort of a pressing public safety issue, to 
really create some standards that would not eliminate people 
from the ability to access public housing when they need it 
most.
    Mr. Schiff. Mr. Honda.
    Mr. Honda. Good morning, and thank you. I was interested in 
your comment on COPS. And a lot of the comments I don't 
disagree with it, but do you think that there is something good 
in almost every program that we have, essentially, with state 
and local government we have cut them way back. They are going 
to need as much help as they can get from the Feds, because it 
didn't happen overnight.
    And so are there programs that you are pointing to that are 
successful that addresses your issues that were funded by COPS?
    Ms. Velazquez. Well again, what happens at the local level 
is quite variable. And, you know, our concerns with COPS, and 
to an extent, with Byrne/JAG is, for instance, multi-
jurisdictional task forces, which the Rand Foundation found in 
their report, are increasingly catching people with misdemeanor 
offenses and incarcerating them. And that's not a good use, in 
our mind, of public resources.
    I mean, I think one of the things that some communities 
have done is in terms of creating gang intervention programs, 
as opposed to gang suppression programs. So we have seen some 
of that. But a lot of it is really, you know--we talked with 
someone in the Mayor's Office in Baltimore. And they are 
planning to increase their patrols in Baltimore, above and 
beyond what they've traditionally been. And we just want to 
insure that if you can picture in any area, if you have a lot 
of resources, eventually you are no longer looking at the most 
pressing public safety issues, but you are keeping busy. And we 
do not want to have policing at a level that you start to see 
over-policing in areas, particularly areas where they 
traditionally have majority minority communities which queue 
people up into the system. And often those are people who need 
treatment more than they need incarceration.
    Mr. Honda. So what we are looking at is best practices that 
would be word-smithed into the authorization area, and then 
have them look at some other way of----
    Ms. Velazquez. I think that would help. I also just think 
it is a lot of money. I mean, they have a billion dollars that 
they got from COPS for ARRA, two-thirds of which is still 
available. And the reality is I know you have to make tough 
choices. And we feel that investments in things like addiction 
treatment and mental health treatment actually give you a 
better bang for your buck in terms of public safety.
    Mr. Honda. Now, you know, I don't disagree. I think that 
when you are talking about addiction and we talked about 
another arena of activity that would probably have more than--
well, we have compartmentalized everything so that nothing 
seems to be interacting with each other.
    Ms. Velazquez. Yeah. I agree. And, you know, we would love 
to see some sort of a public safety impact statement for things 
like-- you know, I think the Promise Neighborhood Programs will 
have a very large public safety impact. And I don't think that 
is figured in to when people consider the benefits of it. And 
likewise when you look at education funding or other kinds of 
funding. I think that the public safety impact is throughout 
the budget, and some of those ways I think will promote a 
stronger community and a stronger America in the future.
    Mr. Honda. Then we probably should be looking at how our 
state's law enforcement folks trained in community policing 
and, you know, refocusing on that. But, you know, statements, 
you know, you have to do this or that, and I was just looking 
for something that, given that----
    Ms. Velazquez. Right. And I agree. I think that there are 
some best practices, especially around the Byrne/JAG grant 
that, you know, we would like to see implemented.
    Mr. Honda. Thank you, Ms. Velazquez.
    Ms. Velazquez. Thank you.
    Mr. Schiff. Thank you very much. We appreciate your 
testimony.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Mr. Schiff. Thank you.
    And our last witness on this panel is Lorraine Cole, Dr. 
Lorraine Cole of YWCA USA. Dr. Cole, thank you for being with 
us.
    Mr. Honda. Is she going to lead us in the song, or what?
    Mr. Schiff. What's that?
    Mr. Honda. Nothing. I thought she was going to lead us in a 
song.
    Mr. Schiff. In a song? I don't think so.
                              ----------                              

                                         Wednesday, April 14, 2010.

                                YWCA USA

                                WITNESS

LORRAINE COLE, PhD, YWCA USA 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Cole. Every 15 seconds in the United States a woman is 
hit, slapped, kicked, or punched by a man that she knows.
    Good morning, Mr. Congressman, Congressman Honda and 
Members of the Subcommittee. And I thank you for the 
opportunity to testify today. I'm Lorraine Cole. I'm CEO of the 
YWCA USA. And as Congress begins its work on the appropriations 
priorities for the 2011 budget, I want to call to your 
attention one priority in particular. The critical need for 
transitional housing programs for victims of domestic violence.
    President Obama's budget request to Congress recognized 
that the supply of transitional housing facilities does not 
meet the great demand. The YWCA appreciates the $25 million 
requested for transitional housing for funding for violence 
against women programs at the Department of Justice; however, 
the critical need in this area is greater than the President's 
request. We urge the Subcommittee to fully fund the 
transitional housing program at the authorized level of $40 
million.
    Of nearly 300 YWCAs nationwide, about one-third have 
domestic violence services with housing facilities. When a 
victim of domestic violence leaves her abuser, her immediate 
need for herself and her children is the safety of an emergency 
shelter. The stay in an emergency shelter is typically limited 
to no more than 30 days, but most women need more time to re-
establish their lives and move toward self-sufficiency.
    Transitional housing programs can provide living 
accommodation for an extended period ranging from six months to 
two years. And YWCA transitional housing programs also provide 
legal services, life skills, child care, job assistance, and 
other vital support.
    The YWCA in Wheeling, West Virginia, for example, shelters 
2,000 domestic violence victims each year, but it can only 
accommodate five women in its transitional housing facility. 
And that YWCA provides the only transitional housing in the 
entire northern panhandle of the state. This means that many 
women are forced back into abusive situations, a scenario 
recurring far too often nationwide. Last year the National 
Network to End Domestic Violence reported that about 5,537 
requests for shelter or transitional housing went unmet within 
just one 24-hour period.
    The Department of Justice reports that grant requests for 
transitional housing for domestic violence far exceed the 
available funds each year. In fiscal year 2009, 261 
applications were received requesting over $62 million. In 
fiscal year 2010, it is expected that only 55 to 60 grants will 
be awarded. And so our request for full funding at the $40 
million level is modest compared to the need.
    A young woman who escaped to the YWCA in Wheeling West 
Virginia with three children eight times during a three-year 
period was able to enter their transitional housing program. 
She began working full time, became a full-time student, 
graduated and saved enough money to qualify for her own Habitat 
for Humanity's home where she lives today with her three 
children.
    In the four minutes I have spoken to you today, 16 women 
have been victimized in this country. The need for additional 
resources is clear.
    Thank you for your commitment to this issue.
    Mr. Schiff. Dr. Cole, thank you for all your work and that 
of YWCA chapters all over the country. We have some 
extraordinary ones in my district, and they do fantastic work.
    Mr. Honda?
    Mr. Honda. Well, let me add my thanks, also. And the YW 
does really extensive work on also identifying children who are 
abused working through the schools. And I think that that is 
one of the areas that we probably need to engage public schools 
a little more aggressively so that we can help dissipate that 
whole chain of events that happens to youngsters and families. 
So again, thank you for your work.
    Ms. Cole. Thank you. We have just celebrated our hundred 
and fiftieth anniversary. We are the oldest and largest women's 
organization in the country.
    Mr. Schiff. Fantastic. I guess Mike remembers well when you 
were founded. Thank you, Dr. Cole.
    We'll take a brief recess while we----
    Mr. Honda. I wish I had paid attention.
    Mr. Schiff [continuing]. While we get the next panel ready. 
Thank you.
    [Recess.]
    Mr. Honda. [Presiding] Good morning. I guess you all know 
the format. Witnesses have four minutes of testimony. We have 
an hour, and we'll stick to the four minutes and then it may 
just be longer. So kick me underneath the table.
    So let's see, SEARCH. Kelly Peters is not here?
    Ms. Peters. That is me.
    Mr. Honda. Gregory, you are so eager to testify.
    Mr. Kepferle. I'm eager to go. No. That is okay. Ladies 
first.
                              ----------                              

                                         Wednesday, April 14, 2010.

                                 SEARCH


                                WITNESS

KELLY PETERS, SEARCH

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Peters. Well, good afternoon. And thank you, Mr. 
Chairman and Members of the Subcommittee for the opportunity to 
appear here today and for your support over the years.
    I am Kelly Peters. I am the Deputy Executive Director of 
SEARCH. SEARCH is a non-profit justice support organization 
created by the state and comprised of state governors' 
appointees. Each state pays dues annually. And we are 
headquartered in California.
    SEARCH's mission is to promote the effective use of 
information and identification technologies by justice 
agencies. We requested a $500,000 earmark for the SEARCH 
Justice Information Sharing Technical Assistance Program.
    For over 40 years, SEARCH has earned a stellar reputation 
for providing impartial, on-site technical assistance and 
training to state, local, and tribal justice agencies in 
planning, implementing, and managing their information sharing 
efforts. This House of Representatives recognized our work just 
this past November in the form of House Resolution 851. SEARCH 
has also been a key partner with the U.S. Department of Justice 
and a founding member of the Global Justice Information Sharing 
Initiative.
    For over 20 years SEARCH has operated the National 
Technical Assistance and Training Program, which provides no-
cost support for small- and medium-sized justice agencies. We 
assist them with implementing effective information sharing 
systems that are also compatible with other local, state, 
regional, tribal, and national systems. And that program also 
delivers high-tech crime investigative training to our nation's 
investigators. We have reached over 28,000 justice 
practitioners through this program.
    This year, recognizing the rapid developments in technology 
and information sharing, the lack of technical resources that 
the state and locals are facing, and the enhanced Federal Grant 
funding to the field, particularly through the Recovery Act, 
SEARCH has updated and improved our program offerings and 
proposes to implement a focused local program for California. 
This program will assist state and locals in California, but 
also create tools, resources, and models for use in other 
jurisdictions.
    And the need for funding really is clear. Congress and the 
Administration have a renewed focus on justice problems that we 
have discussed here today: Youth and gang violence, jail and 
prison crowding, successful reentry programs, Second Chance Act 
programs, evidence-based policing, and successful tracking of 
potential terrorists, arsonists, and bombers. And quite 
clearly, a strong information sharing backbone is critical to 
support better decisionmaking in all of these areas that I just 
mentioned, which in turn means improved public safety.
    And, meanwhile, over the past several years, the U.S. 
Department of Justice has developed numerous tools and models 
and standards and strategies to assist with information 
sharing. But, quite frankly, these tools are very complicated 
to use and implement. Many state and local agencies require 
expert technical assistance to adopt them. And SEARCH can 
provide that expertise while simultaneously preventing wasteful 
use of taxpayer dollars.
    Furthermore, SEARCH helps states develop privacy policies 
governing the collection and use of information and to protect 
individual privacy and civil liberties in a network 
environment. SEARCH is doing work all over the country on 
information sharing initiatives, from helping the California 
Department of Justice meet national standards for information 
sharing to working with West Virginia's Kenowah County's 
prosecutor's office in collecting an automated prosecutor case 
management system to assisting Marin County, California, 
develop a secure network solution for the law enforcement and 
fire agency to working with the city of Virginia Beach and 
partner agencies in Hampton Roads region to create a regional 
plan for their interoperable communication and to working with 
Hawaii to develop privacy policies for their statewide 
information sharing initiative. Ultimately, in all the work 
that SEARCH does, it develops resources for the rest of the 
country by replicating successful implementation strategies and 
transferring those strategies to other states and locals.
    Finally, on a related note, I want to share with you 
SEARCH's support for another program in the CJS appropriations 
bill, the Byrne Competitive Grant Program. We support the goal 
of distributing funds on a competitive basis to national 
programs that can demonstrate compelling use for that funding. 
But those programs should have a chance to compete for 
meaningful amounts. And SEARCH believes that funding in the 
range of at least 65 million is the minimum necessary to permit 
a workable and effective competitive grant program on a 
national basis.
    So in conclusion, Congressional support for the SEARCH 
Justice Information Sharing Technical Assistance Program is 
vital to leveraging the heavy Federal grant investment in 
information sharing initiatives, and creating a foundation for 
success in public safety decisionmaking. And investment of 
500,000 will be leveraged many times over by sharing the 
results realized with the rest of the nation those best 
practices that we've been talking about.
    So on behalf of SEARCH, its governor's appointees, and the 
thousands of justice officials who participate in the SEARCH 
network and who benefit from SEARCH's efforts, I thank you for 
your time and opportunity to appear here today. And I would be 
happy to answer any questions you have.
    Mr. Honda. Thank you. Five minutes.
    Ms. Peters. Oh, did I? I timed it. It was four. I'm sorry.
    Mr. Honda. No. No.
    Ms. Peters. I apologize.
    Mr. Honda. No. I am only teasing you. So if you work in 
California, then I suspect that--how is that working out, 
creating models for the rest of the other states. And we have 
it there. And my sense is that you are like an umbrella for the 
entire state and you try to bring it all together and have some 
coherence between and among all these programs. So asking about 
interoperability is the subset of all that.
    Where are we in the State of California in terms of that 
drive to have all the parts of the states become interoperable, 
they don't run into each other, and is there an issue around 
the availability of broad band that allows folks to travel up 
and down without interference with others or competing with the 
private industry area?
    Ms. Peters. Excellent question. And you know your broad 
band stuff. I would say generally, in California, there are 
several major, major efforts under way. Certainly, in L.A. 
County and the San Francisco Bay area and Sacramento and then 
state-wide with the Department of Justice to develop 
information sharing capabilities.
    I think the really good news is the work that has been 
spearheaded by the U.S. Department of Justice to help develop 
standards has educated the field. I think that most of these 
efforts, although we're not done with information sharing and 
interoperability, these efforts are being synchronized so that 
we are creating capabilities that will interplay and interact 
with each other as agencies build their information sharing 
systems.
    In terms of interoperability, the broad band issue is huge. 
We have been following what's happening with the D-Block 
Spectrum. It's absolutely critical that we can get that out and 
developed to public safety agencies, because they need that 
type of capability--that bandwidth that broad band provides to 
accomplish their important law enforcement efforts. Right now, 
for example, the killer app in policing and public safety is 
being able to share video. You need a big pipe to be able to 
share that information. And until that spectrum is built out 
and allocated to public safety agencies, I think they will 
continue to face some challenges in doing so.
    So I guess in general, California, I think all the efforts 
are moving along in a synchronized way. There's a lot of work 
to go. And we are certainly all following that broadband issue 
and hoping to make some inroads on that in the very near 
future.
    Mr. Honda. Okay. I would be interested in getting some sort 
of report back that sort of speaks to what the gaps are in 
those areas among the counties within the state.
    Ms. Peters. We would be happy to do that for you.
    Mr. Honda. Thank you.
    Ms. Peters. We will follow-up with you. Thank you. Thank 
you for your time.
    Mr. Honda. The CEO of Catholic Charities, Gregory Kepferle. 
I appreciate your enthusiasm. Good morning.
                              ----------                              --
--------

                                         Wednesday, April 14, 2010.

                          CATHOLIC CHARITIES 


                                WITNESS

GREGORY KEPFERLE, CATHOLIC CHARITIES

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Kepferle. Chairman Honda, Members of the Committee. My 
name is Greg Kepferle. I am CEO of Catholic Charities in Santa 
Clara County in San Jose. And I thank you for the opportunity 
to testify for continued and expanded funding for community-
based juvenile justice programs.
    Aaron Carrera lives in one of the most impoverished and 
gang-impacted communities in San Jose. He had all the 
indicators of being gang impacted. He hung around with youth 
that were gang involved and made very bad decisions. One day, 
he got stabbed.
    Catholic Charities staff from the Washington United Youth 
Center were the only friends to visit him in the hospital. None 
of his gang-banger buddies. He turned to us for help, and he 
changed his life around through relentless support. He finished 
high school, and now, two years later after the incident, he is 
going to college and is on a second term upon the city of San 
Jose's Youth Council.
    There is a critical need nationwide to invest in promising 
youth like Aaron. The Catholic Charities U.S.A. network serves 
8.5 million Americans each year, including 134,553 youth served 
through juvenile justice programs in 63 agencies. Locally, they 
offer continuing prevention and intervention programs with a 
very high success rate. But we are now faced with the potential 
elimination of our main youth center.
    It helps to understand the environment these youth are in. 
San Jose is reported to have more than 250 street gangs. A 
number of youth in our program come from families involved in 
gangs for several generations. Low incomes, high dropout rates, 
and minorities with twice the average arrest rate.
    Catholic Charities serves over 9,000 children and youth in 
Santa Clara County, including programs for at-risk youth, youth 
probation and vocational employment services, gang intervention 
and prevention, juvenile hall visitation and family services, 
including mentoring and reentry and youth centers.
    We rigorously measure outcomes both through quantitative 
and qualitative measures. We track success through school 
attendance, change in developmental assets, re-involvement with 
the juvenile justice system, as well as the quality measures. 
Based on what I have seen, our staff are not just changing 
lives, but saving lives.
    So how do they do it? What works? What we know works: 
caring adults that are culturally confident, consistently 
present, and non-judgmental; intensive skilled case management 
by trained professionals; coordination among service providers; 
wrap-around services; a safe, structured environment; a 
continuum of care from prevention to early intervention for 
intensive engagement; and finally, faith, hope, and love.
    My staff members tell me these kids come from a place of no 
hope. The only life they know is gang life. We know change is 
possible. At Catholic Charities we believe in the youth, that 
they have the power within themselves to succeed. We plant the 
seeds of hope, and we care. The staff have deep compassion for 
the youth and their family members, going above and beyond what 
a given contract may require. But we can't do it without your 
help.
    Saving our kids needs to be a national priority. We can't 
abandon our youth to the hard life in the streets or jails. It 
costs too much in human lives and in real dollars. A year in 
the state juvenile detention facility in California costs over 
$252,000 per youth versus only $1,271 per youth for community-
based prevention and intervention services a year. One dollar a 
year invested in community-based prevention and intervention 
and alterative services saves taxpayers $200 a year.
    Mr. Chairman, our recommendations to the Appropriations 
Committee are to save money by, first, maintaining and 
increasing funding for juvenile justice programs, including a 
priority of investing funding in early prevention and 
intervention, as well as funding proven community-based 
alternatives to incarceration. And secondly, reducing the 
bureaucratic barriers to funding and services for faith-based 
community organizations.
    Finally, while we tend to use jargon and talk about ``at-
risk youth'', ``gang-impacted youth'', et cetera, we need to 
remember these young men and women are persons, human beings 
worthy of dignity and respect and compassion with enormous 
potential for good in our community. Together, we can change 
life for good. Thank you.
    Mr. Honda. Thank you. Since you are local, I have an 
advantage, I guess. Given what you have said, and making the 
dollars go further, and what other community groups are you 
working with to make that dollar go further and what kind of 
coordinations are you looking at that will extend that dollar 
further out into the community and so that that network will go 
further out and help these young people? What are some of the 
things that--what are the dynamics that are going on in our 
communities that keeps this issue about youth gangs so high on 
our radar screen that we don't seem to have a handle on it?
    Mr. Kepferle. So the two questions, one, the partners, and 
then some are the dynamics.
    The partnering--we are part of the Mayor's Gang Prevention 
Task Force in San Jose that Mayor Chuck Reed chairs. And a 
number of other service providers are part of that, as well as 
the probation and the D.A.'s office and we have school 
representation on there, as well, California Youth Outreach and 
the Firehouse. At our Washington Youth Center, we also partner 
with a number of community-based groups, the neighborhood 
associations, Strong Neighborhood Initiatives, those other 
organizations. And then also, in the Franklin McKinley school 
district, with the school district itself, doing an intensive 
outreach, block by block, neighborhood by neighborhood, based 
on the Harlem Children's model. And we're hoping to apply to 
the Promise Neighborhood Grant for that.
    So there are a lot of community partners working together. 
The question is, okay, how effective are we, because this issue 
still seems to be continuous there. One of the things that we 
are seeing is in the last two years, the number of violent gang 
incidences have started to drop. And, you know, there could be 
a number of explanations for it.
    Is it because--some people will say, ``Well, it is because 
more kids are being locked up.'' Which is true. The Latino 
youth are being locked up at twice the rate of the youth on 
average.
    Others are saying, ``Well, it is because of the 
effectiveness of the intervention and prevention programs.''
    I am not sure that we have the full evidence for that 
matrix or that continuum right from that enforcement side and 
the prevention side. What we do know works is the prevention 
side. So why are we still having the issues with the kids? One 
of the things that we see is with kids that are struggling 
with--some of the things that we are seeing is kids that have 
learning disabilities are dropping out of school or are not 
engaged in school. So that the dropout rate with kids with 
learning disabilities and minority, what is their sense of 
hope? What is their sense of promise? Who is the caring adult 
in their life? What sort of engagement do they have with their 
parents? And what are the pro-social factors within the 
community?
    So what we are seeing is that with these kids that are 
coming to us, they are often more attracted to the gangs, like 
the wanna-be's, right, because here is somebody that, at least, 
seems to be looking out for them. Here is a group that they can 
belong to. And if they are struggling with issues of identity 
and belonging--a good Erik Erikson model--they are trying to 
find a home for themselves. We need to provide that alternative 
to the gang.
    Mr. Honda. I would be interested in some written response 
to the coordination that you are doing with juvenile courts, 
probation, the schools, and how much responsibility is being 
placed upon the principals of those schools that are part of 
that network.
    Mr. Kepferle. All right.
    Mr. Honda. That might be beyond your scope of 
responsibility, but it may be information that we can use to 
replicate that kind of combined effort. The other agencies did 
get some funding. And I am just curious how you guys are going 
to be sharing those funding so that you focus back on the 
youngsters and of keeping those school kids in sight.
    Mr. Kepferle. I would be happy to provide that written 
information for you.
    Mr. Honda. Thank you very much.
    Mr. Kepferle. Thank you.
    Mr. Honda. National Space Grant Alliance. Mary Sandy. 
Right? Welcome.
                              ----------                              --
--------

                                         Wednesday, April 14, 2010.

                     NATIONAL SPACE GRANT ALLIANCE


                                WITNESS

MARY SANDY, NATIONAL SPACE GRANT ALLIANCE

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Sandy. Thank you. Mr. Chairman, and distinguished 
members of the Subcommittee, thank you for allowing me to 
testify today on behalf of the National Space Grant Alliance, 
which is a coalition of 52 Space Grant Programs, one in every 
state, plus Puerto Rico and the District of Columbia. I am Mary 
Sandy. I direct the Virginia Space Grant Consortium and also 
chair our Space Grant Alliance.
    For fiscal year 2011, the Alliance is requesting $45.6 
million, the same amount that was appropriated in fiscal year 
2010; however, every space grant program in every state could 
make constructive use of additional funding. Let me tell you 
why Space Grant is important.
    First, we have an established functioning, viable 
grassroots network in every state in this country. The network 
has a proven track record of identifying, attracting, 
supporting, educating, and training students and young 
professionals in much-needed STEM fields: Science, technology, 
engineering, and math. The network consists of 867 colleges, 
universities, plus industries, non-profits, governmental 
organizations, and other affiliates, all of us working together 
to strengthen STEM education, build that pipeline of needed 
scientists, engineers, technologists, those workers, and 
building research capabilities at our nation's universities.
    Secondly, Space Grant offers a broad variety of and a very 
unique set of programs and experiences for students and for 
faculty. Last year, 4670 students received college level 
scholarships and fellowships and were placed in paid 
internships with NASA centers and industry. That is a very key 
part of our program. In addition, 86 percent of our Space Grant 
programs have student-led flight programs. And I can tell you 
from experience, these kinds of programs that range from rocket 
and balloon missions to small satellites, very small satellite 
flights, like Landsat and Cubesat are just the best kind of 
real-world educational experience for the students. They build 
very strong connections with NASA personnel and industry 
personnel, as well. In 2007, 2200 students and 300 faculty were 
actively involved in these kinds of projects. And those numbers 
have been growing over the past two years.
    Through Space Grant, a hundred and forty-seven courses in 
STEM were either brought out new or revised. And in addition, 
nearly 19,000 elementary and secondary teachers received 
professional development and participated in our program. And 
nearly a hundred and forty-five thousand students were actively 
involved in the Space Grant Program.
    A third point I'd like to make is that Space Grant has a 
fine record of working with and reaching under-represented 
minority students in STEM activities. Last year 21,500 students 
participated in higher education programs. Of these, 21 percent 
were from under-represented groups, and 40 percent were female. 
Space Grant is engaging the entire spectrum of our nation's 
citizens in STEM education or course development and research.
    And the outcome of these Space Grant activities is 
dramatic, because we do longitudinally track our higher 
education students. Right now, 82 percent of Space Grant 
student awardees are either in active STEM careers with NASA or 
with industry, or are pursuing advanced STEM degrees.
    As I said earlier, we are requesting $45.6 million in 
support. Without this support Space Grant would be forced to 
reduce its affiliates, cut back on our programs, decrease our 
contributions to workforce development, decrease the number of 
scholarships and fellowships we are able to give, and it would 
diminish our ability to serve as leaders in our state for STEM 
education and workforce development.
    In summary, Space Grant is delivering a remarkable number 
of high quality educational experiences for a very small 
investment. For every dollar that NASA invests in Space Grants, 
our state programs return an additional dollar and twenty 
cents. And I can tell you in Virginia we leverage every dollar 
five to one.
    Space Grant is a sound investment in America's future and 
should be expanded, not reduced. I wish that I had more time to 
talk about our program in Virginia, because I'm very proud of 
it, and it has been very successful, but I've included 
statistics in our written testimony.
    Thank you for the opportunity to be here today and to 
appear before you.
    Mr. Honda. Thank you very much. The stats are important for 
me, because it gives me a more refined picture of the folks 
that are working with you and for whom you are working. And 
what is it that you do that keeps you on the edge in terms of 
reinventing yourself and becoming even more acquainted in 
finding youngsters and seeking out women who have, or young 
ladies, who are in middle school or younger to engage them in--
are there groups that you work with that are non-traditional 
groups like Shift and other groups?
    Ms. Sandy. Yes. Certainly, we work with under-represented 
minority groups to a large extent. But to address the middle 
school level that you just talked about, in Virginia we have 
several innovative programs. One is the Governor's Academy for 
Innovation and Technology and Engineering. And in that program, 
we bring seventh and eighth graders in for technology 
exploration Saturdays that involve NASA personnel and industry 
personnel from Northrop Grumman, Canon, and other 
organizations. And it is a chance for them to really do hands-
on technology based activities and learn about the careers and 
opportunities that are available for them.
    So we take that group, and we pipeline them into summer 
academy-type experiences in ninth and tenth grades, and then 
into specific curriculums at the high school level, and then we 
help to pipeline them again into community college and higher 
education experiences. And those have been tremendously 
successful activities.
    We also work with a Gear-up Grant from the Department of 
Education. It begins at sixth grade. And I could go on and on. 
But we are always looking for innovative problem-based, real-
world kinds of activities where we can engage students and show 
them successful role models and help track them, too, along 
their pathway.
    Mr. Honda. Great. Thank you so much.
    Ms. Sandy. Thank you.
    Mr. Honda. National Wildlife Federation, Jaime Matyas. Did 
I say it right?
    Ms. Matyas. Good afternoon. Jaime Matyas.
    Mr. Honda. Matyas.
    Ms. Matyas. I can be almost anybody. Good morning.
    Mr. Honda. You want to put your name tag over that one 
there, or just set it aside. Thank you. Not that I would not 
call you Jaime. But it's Jaime.
    Ms. Matyas. It is Jaime. My Spanish has improved, though, 
after the last number of years.
                              ----------                              --
--------

                                         Wednesday, April 14, 2010.

                      NATIONAL WILDLIFE FEDERATION


                                WITNESS

JAIME MATYAS, NATIONAL WILDLIFE FEDERATION

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Matyas. Mr. Chairman, on behalf of the National 
Wildlife Federation and our more than four million members and 
supporters, I thank you for the opportunity to testify today. 
My name is Jaime Matyas. I am the Executive Vice President, 
Chief Operating Officer of the National Wildlife Federation. 
And Congressman Honda, I want to start by thanking you for your 
personal ongoing leadership and support of environmental 
education funding.
    Well, National Wildlife Federation supports numerous 
programs under the jurisdiction of the Subcommittee. The 
purpose of this testimony today is to recommend funding levels 
for specific environmental and climate-change education 
programs at the National Oceanic and Atmospheric 
Administration, the National Science Foundation, and the 
National Aeronautics and Space Administration. These are 
programs that we believe are vital to NWF's mission to inspire 
Americans to protect wildlife for our children's future.
    NWF's top legislative priority in Congress is to pass 
comprehensive climate-change legislation. And as we address 
climate change and transition to a clean-energy economy, we 
must insure our education infrastructure keeps pace and that 
America remains competitive globally. To do this, we must 
invest in education.
    We applaud the Subcommittee for its leadership in creating 
new climate-change education programs at NASA in fiscal year 
2008 and at NSF in fiscal year 2009. In our experience, 
teachers need resources, training, and support to effectively, 
accurately, and objectively teach this complex issue, which is 
so central to the future of their students.
    The conservation and environmental education communities 
urge the Subcommittee to grow these programs in fiscal 2011 by 
funding NSF climate-change education program at $30 million, 
NASA at $15 million, and to create a new climate-change 
education program at NOAA funded at $10 million.
    We very much appreciate the recent increases for NOAA's 
environmental literacy grants program, and urge the 
Subcommittee to grow it to $20 million in fiscal year 2011. We 
also urge increased funding for the NOAA Bay Watershed 
Education and Training Program, or BWET, to $16 million in 
fiscal year 2011. Both of these programs have strong support as 
evidenced by the March 19 passage of H.R. 3644 on the House 
floor, the Ocean Coastal and Watershed Education Act. The goal 
of this legislation is to formally authorize both of these NOAA 
programs. The bill passes by bi-partisan vote of 244 to 170 and 
has the support of more than 125 organizations ranging from 
National Wildlife Federation to National Science Teachers' 
Association to Trout Unlimited.
    In the past 12 years an impressive base of research has 
been developed that demonstrates the positive effects of 
environmental and nature-based education on improving academic 
performance and overall student learning. The data collected 
from many peer-reviewed sources included improved statewide 
test results, higher scores in science and math, higher student 
interest in science, fewer discipline problems in the 
classroom, and more even playing field for students in under-
resourced schools.
    There is no question that environmental education is a 
significant and useful tool for advancing STEM education in the 
U.S. to provide our nation with needed intellectual capital 
such as scientists and engineers who will continue the research 
and development essential to the economic growth of our 
country.
    Again, thank you for your ongoing leadership of 
environmental education funding, and thank you again for the 
opportunity to testify before you today.
    I have submitted written testimony providing further 
details about the programs referenced, and welcome any 
questions.
    Mr. Honda. Okay. Thank you. I'm still the only one here. 
This is good for me. So you have all these programs that you 
are running. How do we get the consciousness of individuals 
throughout this country, not just here on the Hill or no the 
east coast or the west coast, but in areas where traditionally 
you would have policy-makers that come back and say, you know, 
``This is not manmade,'' or, you know, ``It is partly 
manmade,'' and they don't see a need or a sense of urgency. How 
would these programs move youngsters to become our agents of 
change, because they're the ones that told me, ``No, dad, that 
is recycling here, and wet paper, you know, garbage goes,'' and 
just push that pressure up to policy makers for which that 
could be looked at more anxious about being on time?
    Ms. Matyas. The citing that you mentioned of the importance 
of youth being the active engagers of the adults in decision-
making roles is an important element of many of the programs 
referenced here. The need, as you identified, can be achieved, 
as we have seen, with recycling and other efforts by expanding 
an education effort at elementary, middle, and high school 
levels to raise the education level--that knowledge and inspire 
and equip kids to actually urge their adults in their lives to 
make a difference. We have seen a number of cases--college 
students, for example--actually coming to Washington, D.C., to 
raise concern about their future and empowerment.
    In addition, coalitions among conservation, education, 
jobs, and other organizations is an important element. A number 
of the efforts at National Wildlife Federation engaged at a 
state and national level is enhanced by unlikely partners at 
all of these junctures, again, to raise awareness to equip 
children, to equip educators to understand the problems, to 
understand science and math and then to understand the changes 
that can be brought about as a result.
    Mr. Honda. And the greater media of the print and 
electronics? I am not sure that we see enough of instructional 
kinds of information that is coming out that should make us 
stop chopping vegetables and looking at what is going on.
    Ms. Matyas. Yes.
    Mr. Honda. Are there activities within these programs that 
we are looking at that move towards more instruction of the 
community here that we have?
    Ms. Matyas. Absolutely. In fact, one of the programs that 
is an international program that National Wildlife Federation 
and over 250 schools are a part of in this country just in the 
last several months, it's called Eco Schools. I can submit a 
formal record of the program.
    But it is a program that requires involvement of the 
school, of a portion of the student body--50 percent of the 
organizing committee for each of these schools needs to be made 
up of students. The other portion is administration, parents, 
and members of the community. And it is all about raising 
awareness, doing energy audits, curriculum development, to not 
only improve the school's knowledge, curriculum, energy use, 
but of the entire community. There is an education benefit. 
There is a community organizing benefit. There are absolutely 
cost savings benefits from energy and water use that those 
schools, then, can reapply and reinvest actually in curriculum 
and educator training and other needs.
    Mr. Honda. Thank you.
    Ms. Matyas. Thank you very much.
    Mr. Honda. It just seems like more activity needs to be 
done to integrate all the stuff so that we're not 
compartmentalizing our instruction, our activities but trying 
to bring it together so that when we say ``STEM'', it is not 
only engineers, it is every child should have that 
understanding so that they become a more conscious consumer of 
goods and information.
    Ms. Matyas. We share that belief.
    Mr. Honda. Thank you. Having said that, we are going to go 
smaller, and the American Society for Biochemistry and 
Molecular Biology, Mr. Gregory Petsko. You all got different 
names on. Is that a requirement in science?
    Mr. Petsko. No, but it probably ought to be.
    Mr. Honda. Welcome, Gregory.
                              ----------                              --
--------

                                         Wednesday, April 14, 2010.

        AMERICAN SOCIETY FOR BIOCHEMISTRY AND MOLECULAR BIOLOGY


                                WITNESS

GREGORY A. PETSKO, AMERICAN SOCIETY FOR BIOCHEMISTRY AND MOLECULAR 
    BIOLOGY

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Petsko. Thank you very much. Good afternoon. For those 
of you unfamiliar with my society, it represents about 12,000 
scientists and students from every state in the Union. It is a 
member of FACEB. You'll be hearing from them shortly.
    I am honored to be here to express our strong support for 
the President's request for the National Science Foundation for 
fiscal year 2011. Since in the overall budget so many agencies 
and programs have received much smaller increases than the NSF 
or none at all, we are encouraged that the Administration's 
continuing to demonstrate that it understands how important 
science is as an underpinning for the country's continued 
economic growth and prosperity. Nevertheless, we hope the 
Congress will view the President's request as a floor, not a 
ceiling when considering funding levels for the agency in the 
coming months.
    ASBMB considers NSF to be one of the most underfunded 
agencies in the Federal Government. NSF funds the majority of 
academic research in a wide variety of disciplines. NSF 
sponsored research gave us the laser, gave us the whole field 
of nanotechnology. I could give you lots of other examples.
    NSF also receives far more proposals than it can possibly 
fund. For example, in fiscal year 2009, NSF was able to fund 
about 25,000 research grants, and that is about a 28 percent 
success rate. That means about one in four research grants were 
funded. And, of course, that includes stimulus money for that 
year. And NSF projects that in 2011 the agency will fund about 
39,600 research grants, and although that is an increase over 
what the agency funded in 2009, the success rate actually drops 
to 20 percent, only one in five applicants getting funded. Thus 
there is a huge group of researchers out there who could be 
funded if money were available. Sadly, unless Congress acts, 
this tremendous pool of American talent is going to languish.
    We are, of course, very appreciative that the President has 
proposed an almost eight percent increase, almost $500 million 
dollars, bringing the NSF budget to $7.424 billion; however, in 
a perfect world, and we all know there is no such thing, we 
would like to see the budget increased to 7.68 billion to 
conform to the recommendation of FASEB, which, again you'll 
hear about in a moment. This would allow funding several 
programs we believe need additional support.
    ASBMB usually views the NSF budget as a whole since our 
members receive funding from a number of different programs, 
not just the Biological Sciences Directorate. Nevertheless, we 
are pleased that that directorate goes up almost as much as the 
agency overall, because certain programs within Bio are even 
more underfunded than the agency as a whole.
    The Chemistry Division of the Mathematics and Physical 
Sciences Directorate fairs somewhat less well. The President 
proposed less than a six percent increase there. We hope 
Congress can make sure this division gets a little bit more 
money when the agency budget is finalized.
    However, the two areas where we consider it vital that 
adjustments be made are in education and human resources and 
major research instrumentation. The President's proposing only 
a 2.2 percent increase for education and human resources in 
2011. You have heard from two previous witnesses about the 
importance of education. I don't have to go into other reasons 
why science education is so important. And these have been 
detailed by reports that go back to the 1980's and are called 
things like ``A Nation at Risk'' and ``The Gathering Storm.'' 
They have been most recently described in ``Above the Gathering 
Storm.'' It's sad that the problems that were so eloquently 
inscribed in those reports are still with us in large measure, 
and it is our hope that we, as a nation, can actually begin to 
provide a level of funding for science education that does 
justice to its importance. Speaking personally, I love doing 
research, but training the next generation of scientists is the 
most important thing I do.
    A second area where we have got concern is flat funding for 
the major research instrumentation program. Funding for 
advanced instrumentation in most universities is in serious 
trouble, and instrumentation is vital for a robust research 
enterprise. We hope Congress can address this problem, as well, 
when it writes the final budget.
    Finally, we want to encourage NSF, as it studies how to 
spend this increase, to avoid the siren song of new initiatives 
that have grandiose names, but in the end merely serve to take 
money away from what we think is NSF's strength, the core 
research funding found in its various programs, divisions, and 
directorates. These core research programs may not seem as 
glamorous and they may not sound as new, but they are where the 
vital work of this agency, fostering innovation and creating 
new knowledge and new industries, is best exemplified and 
carried out.
    But to summarize, Congressman Honda, our overall impression 
of the President's proposed NSF budget is good. But the 
increases are needed and welcome. We certainly applaud the 
President for finding the money for an increase in these 
extraordinarily difficult budgetary times. That said, we hope 
Congress can do a little better in the areas I mentioned to 
build upon the momentum created by the stimulus package in 2009 
and 2010. We risk frittering away those gains, otherwise.
    I am happy to take any questions you have. Thanks.
    Mr. Honda. Thank you. And I think you have described some 
of the aftermath of non-attention that has gone on. I have been 
here since 2001. So I think it started somewhere around there 
where the attention and the resources and funding have 
dissipated or went to zero. And I think that the President has 
taken the opportunity to indicate where his priorities are by 
putting real money and showing that--and I think that it is 
good that we keep saying, ``But it is still not enough.''
    You mentioned ``Nation at Risk'' and ``Rising Above the 
Gathering Storm,'' both which concluded that our students are 
not achieving compared to the other countries. I would like 
your reaction to this comment. First of all, neither one of 
them went into the characteristic of the population that we are 
looking at. They have not looked at the changes that our 
country has gone through and adjustments we have made. Third, 
and we end up keeping the pressure on the victims that we have 
identified as being the perpetrators of that.
    Where is that change? And you said ``level of funding.'' 
Where does ``level of funding'' work in this whole picture of 
trying to address our youngsters' educational experience?
    Mr. Petsko. To be honest with you, I might have written 
those reports a little differently, because I think we need to 
distinguish more than we sometimes do between training the next 
generation of scientists, which is very important, and 
increased science literacy for the general population, which I 
actually think is even more important and which gets short 
shrift.
    I think making the general population more literate is 
something that needs to be done early in K-12 and high school 
education. But I also think that all aspects of science, both 
scientific literacy for the general population and training our 
next generation of scientists, depend most heavily on people 
getting a hands-on experience with what it is like to do 
science as early as possible. If they have not gotten it by the 
time they get to college, they ought to get it there, because 
it is only in the doing of science that you really understand 
what makes it what it is and that you gain an appreciation for 
its power as a way of finding out things about the world.
    I work on trying to cure Parkinson's and Lou Gherig's 
Disease. And in my lab there are 22 senior scientists, graduate 
students and post-doctorates. Working alongside them are 15 
undergraduates--freshmen, sophomores, juniors, seniors, and 
that is much more important than actually training the graduate 
students and post-docs, getting those 15 undergraduates hands-
on experience with doing research. I couldn't do that if NSF 
didn't give us money to fund those students in the summer 
months, for example.
    That is the sort of thing that an agency like NSF can do at 
the individual level. When you get down into the lower grades, 
it is a much tougher problem. Not working in that educational 
sphere, I hesitate to offer a comment, except that my own 
belief is that it is only hands-on doing of science that really 
gives people an appreciation for what it is all about.
    Mr. Honda. And thank you. I would agree with you on that. 
It could be re-written in a different way. And a discussion on 
the facilities our youngsters have been taught in, I am 
wondering whether that is not archaic, that is not keeping up 
with the times and the way we learn anyway. And with nano 
coming along, we learned that things change when you get too 
small, even characteristics. So the rules change. All that--
simple principles to understand is not being reflected, I 
think, in the way we take our instruction and try to have that 
daily instruction work so that youngsters are not awed into 
thinking that it is too complicated, but rather the daily 
occurrence that you only understood----
    Mr. Petsko. I actually agree with you. I think we need to 
rethink the way we talk about these things in an educational 
sense. I teach freshman chemistry, which as the biggest course 
on campus, has hundreds of pre-meds. And I could teach that 
course with exactly the same book and exactly the same notes 
that I used when I took the course 40 years ago. That is not 
right. We have got to change that. And I have, in fact, been 
part of a committee formed by the Howard Hughes Medical 
Institutes and the American Association of Medical Colleges 
trying to figure out how to change that.
    We have got to fix that, because as you say, the things 
that have happened have changed the way we think about things, 
the way we talk about things, the way we do things. Our 
education of scientists is not reflecting that as fast as we 
need to be. Our education of lay people in science is not 
reflecting that.
    Mr. Honda. We demand our technology to be agile, but we 
don't demand that of our public education system.
    Mr. Petsko. Well put.
    Mr. Honda. Thank you so much. I appreciate your thoughts 
and your insights.
    Mr. Petsko. Thanks for listening.
    Mr. Honda. The American Society of Plant Biologists. Now we 
are going to get more specific. Sally Mackenzie. Welcome.
                              ----------                              --
--------

                                         Wednesday, April 14, 2010.

                  AMERICAN SOCIETY OF PLANT BIOLOGISTS


                                WITNESS

SALLIE A. MACKENZIE, Ph.D., AMERICAN SOCIETY OF PLANT BIOLOGISTS

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Mackenzie. Thank you. Mr. Chairman, Members of the 
Subcommittee, I, likewise, am here to express gratitude for the 
funding proposed for the National Science Foundation. And I 
appreciate the opportunity to speak.
    So I am Sallie Mackenzie. I am a professor of plant 
genetics and the Director for the Center for Plant Science 
Innovation at the University of Nebraska, Lincoln. And I am 
here today representing the American Society for Plant 
Biologists. In my own career, the National Science Foundation 
has had tremendous impact not only in providing research 
funding to my own lab over the past 20 years, as well as 
allowing us to sponsor professional meetings of members of our 
research group, but, most importantly, by insisting without 
compromise on a U.S. scientific research environment that is 
both diverse and inclusive of women at all levels.
    The ASPB, American Society for Plant Biologists, is an 
organization of more than 5,000 researchers, educators, 
graduate students, post-doctoral scientists, not only in the 50 
states, but throughout the world. Our mission is to promote the 
growth of plant biology, communicate research in plant biology, 
promote the interests of plant scientists in general, and 
although many of our members are focused on plants, basic plant 
research, we are keenly aware of the applied ramifications of 
our findings.
    As you realize, plants are vital to our very existence in 
providing food, feed, the oxygen that we breathe. But research 
in plant biology is making fundamental contributions in 
sustainable development of better food, fabrics, building 
materials, currently our fuel security, our environmental 
stewardship, and in understanding basic biological principals 
that underpin improvements in health and nutrition and all 
Americans.
    But the amount of funding invested in basic plant research 
is relatively small when compared with the impact this research 
has on the multi-billion dollar sectors of our nation's 
economy, primarily in energy and agriculture. The fiscal year 
2011 NSF budget overview released in February would fund the 
NSF at $7.4 billion in fiscal year 2011, and ASPB 
enthusiastically supports this request and encourages 
proportional funding increases across all of the science 
disciplines supported by NSF.
    The NSF Directorate of Biological Sciences, known as BIO, 
is a critical source of funding for non-biomedical research. It 
supports discoveries ranging from molecules to cells, 
ecosystems to biosphere. Within BIO the plant genome research 
program has profoundly influenced our understanding of bio-fuel 
crop, human nutrition, the impact of climate change on 
agriculture, the roles of plants in ecosystems.
    ASPB asks that the plant genome research program continue 
to be in separate funding lines within the NSF budget as in 
years past, and that sustained funding growth continue for this 
program. We also ask that the PGRP be funded at the highest 
possible level in fiscal year 2011.
    NSF is also a major source of funding for the education and 
training of American scientific workforce. NSF education 
portfolio impacts students at all levels in the science 
pipeline, as you were hearing just a minute ago, and also 
offers programs focused on outreach and engagement of under-
represented groups.
    ASPB encourages further development of the NSF education 
and training program, such as post-doctoral research 
fellowships in biology, graduate research fellowships, faculty 
early career development programs. ASPB is committed to 
cultivating success in under-represented groups in plant 
biology; therefore, it is important to us that NSF maintain 
strong support for programs dedicated to broadening 
participation. With this in mind, we have concerns about the 
proposed consolidation of minority serving programs into the 
comprehensive broadening participation of undergraduates in the 
STEM program. If this new program does move forward, we would 
like that the Subcommittee consider insuring distinct funding 
amounts for Hispanic serving institutions, historically black 
colleges and universities, and tribal colleges and universities 
within the comprehensive program to insure that these 
institutions remain key producers of members of the STEM 
workforce.
    Finally, if the Subcommittee oversees the White House 
Office of Science and Technology Policy appropriations, ASPB 
asks that the Subcommittee direct OSTP to coordinate 
interagency development and implementation of a strategy to 
address the recommendations made in the National Research 
Council's report entitled, ``A New Biology for the Twenty-first 
Century, Insuring the United States Lead the Coming Biology 
Revolution''. The report accurately lays out the current 
status, potential, and challenges for new biology, and how 
increased efforts in these areas can address major societal and 
environmental challenges. The NSF has a critical role to play 
in an interagency strategy initiative in this area, as do other 
agencies, including the Department of Energy, U.S. Department 
of Agriculture, and the National Institutes of Health.
    So to conclude, sustained funding growth for the NSF and 
its bio-directorates is of critical importance to the plant 
biology community and ASPB members. The promise of such funding 
growth would lend encouragement to the hardworking 
undergraduate, graduate students in my own lab and across the 
country to continue on in science. But, more importantly, 
support for the NSF ultimately will lead to promising 
discoveries with vital applications to energy independence for 
this country, human health, agriculture and our environment, 
which will also help assure America's competitiveness.
    Thank you for listening to my remarks.
    Mr. Honda. Well, thank you for sharing your remarks. You 
had a comment there that you were recommending a separate 
funding for an activity. I forgot what the activity was, but--
--
    Ms. Mackenzie. For the plant genome research program.
    Mr. Honda. And why is that?
    Ms. Mackenzie. The plant genome research program was the 
program that was initially envisioned to allow us to do a lot 
of the genomics research and up to date that has meant a 
comprehensive sequencing of the genomes of many of our major 
crop plants. The corn genome, the soybean genome, all emerged 
from that program. The amount of information and the power that 
comes from that information, the scientific power, is immense 
per dollar spent. So it has been extremely productive and 
valuable for the plant science community in allowing us to 
understand and identify the genes that are going to be critical 
components for improvement of our crops, both for biofuels, as 
well as for water use efficiency, as well as for nutrition.
    Mr. Honda. Should I just move my mouth? I was just 
wondering if you had any thoughts on arabidopsis information? 
Whatever the hell that means.
    Ms. Mackenzie. Thank you for bringing that up, because that 
is an important issue.
    Mr. Honda. No, I am only messing with you.
    Ms. Mackenzie. So the thing is that when we began the plant 
genome program, of course there is an immense amount of 
information that derives when we do genomics research----
    Mr. Honda. Right.
    Ms. Mackenzie [continuing]. Just like the human genome. And 
this has been a critical need. Where do we keep that 
information? How do we store it? And how do we disseminate it 
as quickly as possible? The problem is that right now we have a 
certain amount of funding to get the initial data, but there is 
not sustained funding to maintain those databases that allow 
that recurrent access to all of the scientists, essentially of 
the world, who need access to those data. So it is critical 
both that arabidopsis research continue, arabidopsis is the 
model plant species we sequenced first, it actually is the 
model that we used to, it would be like a mouse for studying 
the human genome. It is the model that tells us the most 
fundamental information about plants.
    Mr. Honda. I thought it was the fruit fly.
    Ms. Mackenzie. It would be very similar to the fruit fly in 
studying animal biology. And understanding how to maintain 
these databases is going to be critical. I mean it is, if we 
lose that information once we have gained it, or if we cannot 
disseminate it quickly, then we essentially impede the ability 
to be innovative, as innovative as possible.
    Mr. Honda. So you are saying that we do not have a method? 
Or we just do not have a place?
    Ms. Mackenzie. We do not have a mandate for sustainable 
funding to allow that to continue. So we have the database in 
place. There is widespread dissemination of information. But 
there is a critical concern that that requires sustained 
funding to allow that database to be maintained year in, year 
out, and to be infused with new data, with the new innovations, 
with new collections of information that will sustain it and 
implement and broaden our understanding as we go further.
    We started out with genome sequence. We moved to protein 
collections. We have now moved to metabolic collections of 
information. These are huge collections of information and the 
database, maintaining a database that will integrate that 
information is going to be critical to the whole piece. And 
then remember that we are integrating not only arabidopsis, 
corn data, soybean data, there are a lot of plants out there 
that we care about economically in this country.
    Mr. Honda. And so maintaining all that data, you are saying 
that we have to have sustainable funding for the activities----
    Ms. Mackenzie. Yes.
    Mr. Honda [continuing]. That create that data.
    Ms. Mackenzie. And part and parcel to that will be to 
maintaining the infrastructure for the data----
    Mr. Honda. So you do not want to separate the data storage 
and maintenance from the creation of more information.
    Ms. Mackenzie. That is correct. But in addition, if you 
were to simply fund NSF without mentioning the plant genome 
program then there is nothing that actually even directs the 
effort toward either the production of those data or the 
maintenance of it, which is why we ask for it to be a separate 
line.
    Mr. Honda. Is there any place where we can place all this 
scientific information, whether it be the plant, or the 
information you are talking about, whether it is stem 
information that we gather from the grass that we gave out, 
because we do not have that either. Is there one massive 
repository of information where scientists, and students, or 
the general community can access that information, or is that--
--
    Ms. Mackenzie. Yes.
    Mr. Honda. Is that what we would need? Or we just want 
something that----
    Ms. Mackenzie. Yes.
    Mr. Honda [continuing]. Is more specific?
    Ms. Mackenzie. So the databases are in place, they grow 
daily.
    Mr. Honda. Okay.
    Ms. Mackenzie. And they are integrated. You can find human 
genome data and fruit fly genome data and plant genome data all 
available. However, it is the maintaining of that process, 
those databases have to be funded each year.
    Mr. Honda. Okay. It sounds like, the President has 
committees that probably can advise him to do that also, and 
have something from the, his committees that advise him on, 
like, OSTP, and other committees that get together and hit him 
with it.
    Ms. Mackenzie. Yes.
    Mr. Honda. Okay.
    Ms. Mackenzie. True. But here we are discussing the funding 
to NSF and that critical line item is important.
    Mr. Honda. Okay. Thank you very much.
    Ms. Mackenzie. Thank you.
    Mr. Honda. We appreciate it. Federation of American 
Societies for Experimental Biology, Dr. William Talman. 
Welcome.
                              ----------                              

                                         Wednesday, April 14, 2010.

       FEDERATION OF AMERICAN SOCIETIES FOR EXPERIMENTAL BIOLOGY


                                WITNESS

DR. WILLIAM T. TALMAN, PRESIDENT-ELECT

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Dr. Talman. Thank you, Mr. Honda. Thanks very much. I 
really appreciate having an opportunity to testify before you, 
and to represent FASEB. And through this opportunity to reach 
the Subcommittee and the general Committee as well. FASEB, if 
you do not know, is a society, a federation of twenty-three 
biomedical scientific societies, with 90,000 members. FASEB's 
members really sincerely appreciate your ongoing commitment to 
innovation and science, and we respectfully request a fiscal 
year 2011 budget for the National Science Foundation of $7.68 
billion. And as Greg Petsko commented a few moments ago, that 
is a bit above what the President has recommended, or 
requested, and we applaud that request. But for the following 
reasons we support a higher number.
    As a biomedical science and neurologist practicing medicine 
at a Department of Veterans Affairs medical center and at a 
university hospital, I come before you in full support of 
adequate funding for all fields of science, not just biomedical 
science which I represent. It is abundantly clear to me that 
the work we do in medicine and in life sciences in general has 
been tremendously enriched by discoveries in physics, 
mathematics, chemistry, and engineering. And I am pleased to 
join my colleague, Professor Kate Kirby, who will present in a 
few moments from the American Physical Society, in appearing 
before you to support NSF today.
    The rapid development of imaging techniques, including 
magnetic resonance imaging, positron emission tomography, and 
computerized tomography all were supported through NSF, and 
they are examples of an intersection between medicine, 
biomedical research, and the physical sciences. For example, 
magnetic resonance imaging, or MRI, has revolutionized my own 
specialty neurology as it has many others. The use of MRI has 
saved lives, it has improved care, and it has led to reduction 
in costs that have prevented unnecessary surgery. It has also 
led to the prevention of unnecessary admissions to hospital. It 
expedites therapeutic intervention and thus can lead to both 
diagnosis and care at an earlier time of disease.
    In addition, NSF in conjunction with the Department of 
Energy--and this is an example of its ongoing rather than past 
achievements--and in collaboration with the National Eye 
Institute, has helped to fund a team of ophthalmologists. 
Forgive me, but just without making the assumption, eye 
doctors, okay? Engineers, and neuroscientists to create the 
first ever artificial retina. This device is able to restore 
some sight to those who have lost vision due to retinal 
disease. By 2011 the research team expects to start clinical 
testing on a version that will allow for reading and face 
recognition with this artificial retina.
    Last year Congress provided a generous and much needed 
investment in science when it included the NSF in the American 
Recovery and Reinvestment Act. The legislation allowed federal 
science agencies to start groundbreaking research projects, to 
upgrade facilities and equipment at research institutions 
across the U.S. And furthermore, the ARRA funding expanded the 
scope of important ongoing research. The majority of the ARRA 
allocation for NSF was spent on high quality research proposals 
for which funding was not previously available. And these 
awards supported projects related to nanotechnology, which you 
Mr. Chairman have mentioned, climate change, and the 
development of new drug delivery systems. Past experience tells 
us these funded projects will expand job opportunities and 
foster commercial activity through the broader economy.
    Timely, valuable, and in great demand, ARRA funds are doing 
much to advance knowledge in all fields of science. However, 
unless preparations are made to continue this support, many of 
the newly funded research projects will be halted, and jobs 
will be terminated. To truly fulfill the promise of our 
investment we must renew our commitment to sustained, 
predictable growth in research funding rather than the ups and 
downs. This is an essential element in restoring and 
maintaining both national and local economic growth and 
vitality, as well a maintaining this nation's prominence as the 
world leader in science and technology.
    The competition to receive a research grant from NSF is 
fierce. It has already been mentioned by Greg Petsko. But that 
is for good reason. NSF has a history of identifying scientific 
talent very early in its development, and funding some of the 
most promising research and research investigators in this 
country. For example, 187 U.S. and U.S.-based researchers who 
have won a Nobel Prize were funded by NSF early in their 
careers.
    NSF is also committed to achieving excellence in science, 
technology, and engineering, and math education, STEM if you 
will, and supports a wide variety of initiatives aimed at 
preparing science teachers, which you have already heard about, 
developing innovative curricula, and training the next 
generation of scientists. For example, the Integrated Graduate 
Research and Training, or IGRT program, supports doctoral 
degree programs that foster collaborative and interdisciplinary 
training in emerging scientific domains. IGRT trainees have 
produced several important breakthroughs already, including 
more efficient fuel cells, one of the first steps toward 
sustainable and renewable energy generation, as well as 
rehabilitation methods to speed recovery of patients who have 
experienced a stroke.
    Since it was established in 1950, NSF has funded and fueled 
innovation, energized the economy, and improved health and 
quality of life for all Americans. In the years ahead, funding 
for NSF will allow the agency to accelerate discovery, promote 
transformational, interdisciplinary research projects, and 
foster innovative approaches to science education and training 
at all levels.
    Thank you for the opportunity to offer FASEB's support for 
the National Science Foundation. I would be happy to answer any 
questions, but I appreciate both your attention and that of the 
staff. Thank you very much, Mr. Chairman.
    Mr. Honda. Thank you so much, I appreciate it. And since 
you mentioned Dr. Kirby, we will bring her on with the American 
Physical Society, and then if there are questions for the both 
of you we will direct them to both of you.
    Dr. Talman. Indeed. Thank you, sir.
    Mr. Honda. Thank you. Good afternoon.
                                         Wednesday, April 14, 2010.

                       AMERICAN PHYSICAL SOCIETY


                                WITNESS

KATE KIRBY, EXECUTIVE OFFICER

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Kirby. Good afternoon. Mr. Honda and other members of 
the Committee, I thank you for the opportunity to testify 
today. I am the Executive Officer of the American Physical 
Society, which represents 48,000 physicists in universities, 
industry, and national laboratories. I am pleased to have the 
opportunity to thank you in person for your past support of the 
National Science Foundation.
    As a former member of academia and a research physicist 
myself, I can speak personally about the critical role NSF 
plays in advancing the frontiers of American science and in 
training America's next generation of scientists. Here, I will 
concentrate on two salient issues. The President's fiscal year 
2011 budget request for NSF, and a problem I see looming on the 
horizon for NSF in fiscal year 2012, which this Committee could 
ameliorate in the fiscal year 2011 appropriations bill.
    For fiscal year 2011 I am heartened by the administration's 
continued commitment to doubling the budgets of the NSF, the 
DOE's Office of Science, and the core programs of the National 
Institute of Standards and Technology. This plan has drawn 
strong bipartisan support. That is no accident. Science and 
technology have been the drivers of America's economic growth 
ever since the end of World War II. For decades we have led the 
world in discovery and innovation, so much so that we have 
become complacent in our primacy.
    But today, as you well know, other nations are catching up, 
and in some cases surpassing us. To sustain our economic growth 
and to keep high skilled jobs within our borders, we must 
commit ourselves to educating the scientific workforce of the 
future and to providing the young scientists of today with the 
resources they need to keep our nation competitive at the 
scientific frontiers. The President's proposed budget would 
keep us on track to do just that. His requested increase of 6.4 
percent for NSF, especially within a budget that keeps much 
discretionary domestic spending frozen at fiscal year 2010 
levels, reflects the importance of the Foundation's role in 
achieving those goals. I urge the Committee to support the 
President's request.
    However, I must express my concern about the wide disparity 
in the funding recommendations among the Foundation's different 
directorates. While I appreciate the government's need to focus 
science on compelling national technology needs, I believe NSF 
nonetheless must adhere to its primary mission to support basic 
science, mathematics and engineering across all disciplines in 
academia. The proposed budget, which contains a 
disproportionately large increase for engineering, could 
substantially alter the balance of NSF's programming. I believe 
that this deserves significant scrutiny and debate before it is 
implemented.
    I am pleased, however, that the President's request 
provides a stronger NSF focus on the biological sciences to 
help fill gaps in a critical area of research not addressed by 
the programming at the NIH.
    Let me now turn to a concern about future NSF budgets. As 
this Committee knows, NSF allocated $2 billion of ARRA money to 
new grants, most of which support the training of graduate 
students. In accord with the terms of the Recovery Act, 
grantees received three-year funding up front with no 
commitment for future year continuation. Today it is only the 
rare graduate student who is able to complete his or her 
research in the three years or less. If an ARRA grant ends 
precipitously, as the three-year term suggests it will, many 
graduate students will face serious disruptions in the support 
of their education.
    To address the issue, NSF has suggested that it will need 
substantial new resources in the fiscal year 2012 budget far 
beyond even a 7 percent or a 10 percent increase. In a severely 
constrained fiscal climate I am concerned that adequate funding 
will not materialize. Therefore, as my predecessor recommended 
to this Committee last year for fiscal year 2010, I urge that 
$300 million to $500 million of the increases in the fiscal 
year 2011 NSF funding be devoted to one shots, such as new 
faculty laboratory renovation, rather than new three-year 
grants.
    Although such an approach will not help reduce the current 
problem of unacceptably low proposal acceptance rates, it will 
alleviate the shortfall the Foundation will face in fiscal year 
2012 for grant continuations. And the precipitous shortfall in 
my mind is the more important issue.
    In closing, let me again express my appreciation for the 
Committee's strong support for the NSF and for science at NASA 
and NIST. Thank you very much for the opportunity to testify, 
and I would be glad to answer questions.
    Mr. Honda. Thank you. The consistent admonition I hear is 
thank you for doubling the funding, keep it up, and with the 
ARRA it is an opportunity to sort of inject some monies that 
have not been there for a long time. And you are looking at the 
fourth year, and I think that that is wise. And I think that 
this is an opportunity for them to also figure out how they are 
going to be adjusting their game table so that these things 
will not just be a one-time shot but, you know, there will be 
some sustainability there. And I hope that while we are getting 
to the third year, we will have the financial picture of our 
country somewhat in order so that we can start really looking 
at some serious long term funding. So I appreciate that.
    University Corporation for Atmospheric Research, Richard 
Anthes.
    You were not a weather forecaster, were you, on TV, or 
anything else like that?
    Mr. Anthes. Yes, I am an old weather forecaster, a former 
weather forecaster. I can still do a pretty good job. It is 
nice to see you again.
    Mr. Honda. Welcome.
                              ----------                              

                                         Wednesday, April 14, 2010.

            UNIVERSITY CORPORATION FOR ATMOSPHERIC RESEARCH


                                WITNESS

RICHARD ANTHES, PRESIDENT 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Anthes. Thanks for inviting me, Mr. Honda. Nice to see 
you, Dixon, you are looking good. My name is Richard Anthes and 
I am President of the University Corporation for Atmospheric 
Research, or UCAR, a consortium of seventy-five North American 
universities that serve the atomospheric and geosciences 
research community and university community. This is our 
fiftieth birthday as well, we have heard other birthdays. And 
since 1960 UCAR has managed the National Center for Atmospheric 
Research, NCAR, under support of the National Science 
Foundation and more recently other agencies.
    On behalf of the atmospheric sciences community represented 
by UCAR, I along with my colleagues who have just recently 
testified here, strongly support the President's 2011 request 
for NSF, NOAA, and NASA. This would be record investments in 
Earth sciences, thereby ensuring that the U.S. stays at the 
forefront of innovative research and operational systems that 
are essential for the health of our planet and our citizens.
    Jobs in Earth sciences, supported by Earth sciences, are 
some of the most highly leveraged in this country. The return 
is many fold in areas of technology, innovative products, and 
tools that help solve societal problems. And as others have 
testified, and is pretty obvious, science is essential to the 
country's long term economic recovery. So I urge the Committee 
also to support the President's request for the National 
Science Foundation budget as authorized by the America Competes 
Act.
    NSF's Geosciences Directorate provides over 60 percent of 
the university-based basic research in geosciences, or Earth 
sciences. And this broad and diverse academic field contributes 
knowledge that is absolutely necessary to understanding climate 
change. And yes, Mr. Chairman, climate change is real. It is 
getting more certain as every year passes. And if you want to 
ask me a question later that you asked one of the earlier 
witnesses about educating the public and how can we do better, 
I might have an answer.
    But there is also, in addition to climate change, the 
immediate impacts of extreme weather, water resources, dynamics 
of water resources, solar effects on Earth, space weather 
effects, and so on. And as we have been reminded by geologic 
hazards around the world, it seems like this year is going to 
be a record year for earthquakes in all different parts of the 
world.
    Regarding NASA, we understand that the administration has 
had to make some tough choices, and in this budget those 
choices have been made. Until I read the President's 2011 
budget I was, as Chairman of the NRC Decadal Survey along with 
Berrien Moore, discouraged about our country's commitment to 
Earth sciences. But the fiscal year 2011 budget for NASA's 
science account, particularly the request for Earth sciences, 
cheers me up greatly. It brings us closer than others to being 
able to achieve the goals that we set forth in the decadal 
survey.
    So I urge you to support the President's $1.8 billion 
request for NASA's Earth sciences, including the $170 million 
to relaunch the orbiting carbon observatory, which as you know 
failed on launch about a year ago.
    I also urge you to fully fund the President's $2.2 billion 
request for NOAA's National Environmental Satellite Data and 
Information Service, or NESDIS, including the $1.06 billion 
request for the new joint polar satellite system which was 
previously the civilian component of NPOESS. And given NOAA's 
new responsibilities NESDIS will need to sustain this elevated 
level of funding into the near future so that it can fix the 
problems with our operational satellite system that have 
plagued us for many years. I think they are moving on the right 
track now.
    Regarding the creation of NOAA's climate services, UCAR 
supports NOAA's plan to restructure its existing climate 
programs. And we are working with the agency to ensure that the 
new service takes full advantage of the atmospheric science 
observational systems, datasets, models, housed at NCAR and 
other places.
    Mr. Honda. To take advantage of your last minute, why do 
you not address yourself to what can we do better?
    Mr. Anthes. On climate change education?
    Mr. Honda. Yeah.
    Mr. Anthes. Well, I have been thinking about this. And 
there have probably been thousands of power point slides given 
around the world describing why we know climate is changing and 
why it is warming. And so that is almost overkill. So I tried 
to say, ``Well if I had only three slides and ten minutes to 
convince an educated person like yourself, but who is not a 
climate scientist, what three slides, in ten minutes; and how 
would I use those three slides in ten minutes?''
    And I came up with three slides, and I can do it in ten 
minutes but not today. If you have ten minutes of your time 
sometime in the future I would be happy to try it out on you. 
But the essence is that the observations, the most compelling 
one is the observations of sea surface change, ocean 
temperatures are increasing over the last twenty-five years. 
And the oceans do not lie. They do not care about a cold winter 
in Washington, or a big snowstorm somewhere. They integrate the 
effects of warming over the entire Earth. And there are only 
two ways that the oceans can, the sea level can rise. Sea level 
can rise by a warming ocean, because the water expands, and 
melting glaciers over land. And both of those are occurring. 
And so that is one of the three slides, and I do not have time 
to describe the others.
    But I think somehow being able to talk to the public--the 
public is the ultimate policy maker--that is what we need to do 
to communicate this very real scientific fact and the impacts 
it will be having on future generations. Thank you.
    Mr. Honda. Well, I would be interested in the three slides. 
And with that, I will turn the microphone and the chair over to 
Congressman Ehlers. And we will take a short break, and then 
you have the gavel. Oh, you are going to come and testify? Ah, 
I am sorry.
    Mr. Ehlers. Do you want to put me on the Committee?
    Mr. Honda. By the way, Dr. Ehlers is one of the supporters 
of the many things that we want to see happen.
    Mr. Ehlers. Yeah, and just in connection with the previous 
speaker, it occurred to me that a good campaign for my district 
would be that I want climate change in the sense that your 
district's weather would come to my district. That would be 
very popular in Michigan.
    Mr. Honda. In the words of anti-obesity, fat chance. No, we 
love to share, do we not? Yeah.
    Mr. Ehlers. Okay. Yes, right.
                              ----------                              

                                         Wednesday, April 14, 2010.

                    TESTIMONY OF MEMBERS OF CONGRESS


                                WITNESS

HON. VERN EHLERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Ehlers. I thank you very much for squeezing me in. The 
schedule has been very tough today and I appreciate you taking 
the time. I want to thank you for the opportunity to testify 
before you, and as the Ranking Member of the Subcommittee on 
Research and Science Education, which we spent all morning at a 
hearing on, and as a member of the House Committee on Science 
and Technology, I work with my colleagues to support and 
strengthen several agencies of great importance to our nation's 
technological innovation capacity. The core of that capacity 
depends on basic research. And I believe a vigorous research 
base is crucial to our national economic security. And given 
enough time I could certainly justify that broad statement.
    But to that end I ask you to give high priority to 
scientific research and development, as well as math and 
science education in fiscal year 2011 by funding the National 
Science Foundation at $7.4 billion; the National Institute of 
Standards and Technology, better known as NIST, at $950 
million; and the National Oceanic and Atmospheric 
Administration, better known as NOAA, at $5.6 billion. For NSF 
and NIST these amounts would continue a doubling path for 
funding for these agencies that was established as early as 
2006.
    I do not need to remind you that in the early 1990's we did 
that, established a doubling path for National Institutes of 
Health, and the Congress has carried that through over the 
years. The point is simply that they have reached the plateau 
after the doubling. But there are other areas, particularly NSF 
and NIST, that also needed doubling, and the Congress and the 
President have both recognized that by establishing doubling 
levels.
    I recognize that these are large increases at a time when 
the outlook for many other agencies and programs is 
significantly more austere in fiscal year 2011. I believe this 
sustained commitment to basic research and education will be 
more challenging this year than ever before, but I sincerely 
thank this Subcommittee for sharing this commitment in the 
past.
    Let us discuss NSF in more detail. Since 2006 the 
administration and many members of Congress have sought to put 
the scientific research agencies on a budget doubling path. The 
timeline of this doubling has varied from five to ten years, 
but there has been common agreement that sustained funding 
increases for science and engineering are directly tied to our 
national economic competitiveness. And also, as I said earlier, 
you can make a strong case that it is also tied directly to our 
national security. Supporting the NSF is critical to 
maintaining our preeminence in science and technology. NSF 
investments are aimed at the frontiers of science and 
engineering, where advances in science and technology underpin 
our ability to meet many of the challenges that America faces 
today, including securing the homeland, preventing terrorism, 
fostering innovation, and economic development, as well as 
educating our children to be able to compete in the knowledge-
based global economy. $7.4 billion for NSF in fiscal year 2011 
will continue this important work. In March seventy members of 
the House signed a letter to Chairman Mollohan and Ranking 
Member Wolf endorsing this request.
    NIST is one of our nation's most critical science 
organizations. Almost every federal agency and U.S. industry 
sector uses the standards, measurements, and certification 
services that NIST labs provide. The future of many cutting 
edge technologies depends on the research and technical 
expertise of NIST. My request is that you provide $950 million 
in fiscal year 2011 for NIST. This sum would allow for an 
increase to the manufacturing extension partnership program 
which helps our small companies compete in the global economy. 
And that program has been very, very important to my state, but 
also to many other states, because they have really brought to 
the forefront the need for improving our manufacturing work in 
this nation and how we can produce products that are 
competitive worldwide in spite of the difference in wages, just 
because we have the better technology and the better 
innovation. In the economic downturn states like Michigan are 
struggling to reach the state matching requirement to 
participate in the program. Increasing the federal share of 
responsibility would help, and that is under consideration in 
the Science Committee right now.
    Finally, I ask that you consider funding NOAA at $5.6 
billion for fiscal year 2011. This amount will strengthen 
NOAA's important science forecast and efforts to sustain our 
oceans and Great Lakes. And you heard from the previous witness 
about the importance of the oceans.
    In summary, I respectfully urge you to give high priority 
to scientific research and development, and math and science 
education in fiscal year 2011, by funding the National Science 
Foundation at $7.4 billion, NIST at $950 million, and NOAA at 
$5.6 billion. My staff and I would be happy to help answer any 
further questions you might have about these priorities as you 
prepare the Subcommittee's appropriations bill. Thank you again 
for allowing me to testify today.
    And let me just also relate this to the testimony of the 
previous witness, who was talking about Earth sciences. And it 
is a very personal example, because my son happens to be a 
geophysicist who had done research and taught at the University 
of Michigan, as well as Caltech and the University of 
Washington. And he recently, this is an example of reverse 
brain drain. He moved to Germany last summer. Got a better 
offer, better research facilities, and above all more research 
funding to carry on his research in Germany than he was able to 
obtain from the National Science Foundation. I am not blaming 
you or the National Science Foundation for my son's defection, 
but that, the ability to get appropriate research funding is a 
very important factor for any scientist. And he took advantage 
of that opportunity. There were other factors there as well, 
which I will not get into. But I just wanted to mention that.
    Mr. Honda. Well, I am sure there will be an opportunity for 
him to come back.
    Mr. Ehlers. Yeah, we hope so.
    Mr. Honda. And bring back some important work.
    Mr. Ehlers. Yeah, right. Well thank you very much for 
taking the time to listen to me.
    [Recess]
    Mr. Kennedy [presiding]. Good afternoon, everybody. It is a 
little nicer to be able to sit rather than standing out there. 
That was my call, just so you know. So we will have witnesses 
speak for about four minutes. Do we have a, like, light or 
anything? Or do we just go with the flow? All right, so I am 
not the bad guy. But if you have a prepared statement, 
obviously we will take that for the record. And then Tina, 
maybe what we can do is have you kick us off?
                              ----------                              

                                         Wednesday, April 14, 2010.

         AMERICAN ALLIANCE OF FISHERMEN AND THEIR COMMUNITIES 


                                WITNESS 

TINA JACKSON, PRESIDENT 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Jackson. No problem. First of all, thank you for 
allowing me to testify today. It is in opposition of NOAA's 
budget towards the fisheries portion of their request. I have 
submitted my written testimony to the Committee in regards to 
the figures and the reasons why their request should be denied.
    There are some major concerns within the industry that 
should be acknowledged. It is very likely that catch shares, 
which is the portion of the fisheries appropriation that NOAA 
is asking for, for $54 million I believe, will collapse not 
only the industry but the infrastructure supported by it. It 
will cause massive job losses on a level that have been 
overlooked by most.
    Forty-two percent of America's economy comes from coastal 
communities, just like ours in Rhode Island, across the nation. 
There is no doubt that catch shares are going to consolidate 
the fishing fleets, but also upon the collapse of these coastal 
communities there will be devastating effects on our nation's 
economy. Who is going to be forced to make up a large portion 
of that 42 percent but every other American across the nation? 
Every other taxpayer that is already burdened enough by these 
tough economic times.
    Billions upon billions of tax dollars have already been 
wasted over a thirty-three years period of failed management 
plan after failed management plan by their own admission. At 
what point do we say enough is enough? Do we allow them to 
continue to waste more money on this agency? Or do we have a 
responsibility to make the necessary changes to stop the 
implementation of another program that is bound for failure at 
the cost of the very livelihoods of the fishermen and their 
families. And once that is gone, it will not come back. Once a 
permit is lost, a fishing permit, the fisherman cannot get it 
back.
    We also must look at the catch share programs from around 
the world that have failed and collapsed the economies of the 
very countries who implemented them, Iceland in particular. 
They are scrambling now at this point to gain control of their 
fisheries back from the corporations that ended up having them 
due to the privatization.
    The United Nations also deemed catch share as illegal under 
international law, the covenant of civil and political rights, 
which this country recognizes, and signed onto this covenant in 
1992. Why are we not recognizing this international illegality?
    NOAA and EDF, a corporate minded environmental group, has 
been touting the legalities of Magnuson for years. But there 
are legal standards in Magnuson that they are legally required 
to adhere to, and they have blatantly disregarded these 
standards again and again with no consequence to their actions. 
There have been several misinformed statements to the 
congressional committees on several issues, such as 95 percent 
of the northeast fishermen have volunteered for this program. 
If the referendum was held, as Magnuson requires by law, you 
would see that 95 percent of the fishermen, northeast and Gulf 
fishermen, are highly opposed to sectors and catch shares and 
are in no way eager to implement this program.
    Also falsely stated is the idea that NOAA's requested 
increase is needed for observer ship and dockside monitoring 
for fiscal year 2011. As every boat owner or permit holder are 
required to pay in, they are required to pay for this portion 
of the program for 2011 with the predicted amounts totaling 
more than $26,000 per year per boat, again placing a serious 
financial burden on an already strained profit margin by owners 
and crew.
    NOAA's definition of overfishing is this. When vessels are 
landing more than the species are reproducing. If every stock 
in American waters is on the increase, as supported by the 
latest trawl surveys just released, then overfishing is no 
longer occurring. If overfishing were occurring every stock 
would be in decline, and that is certainly not the case.
    Also with the inevitable privatization of the industry as a 
whole. One only has to look at the Alaskan fisheries already 
having been in catch shares. Since the privatization every 
stock has been in a decline due to the nature of corporate 
owners to only care about the bottom line, the almighty dollar. 
The consolidation was immediate and lost forever, and it is 
estimated that all the fleets nationwide will be consolidated 
by 50 percent to 75 percent and that is a loss that is not 
acceptable.
    If this administration is so concerned with jobs then why 
do our jobs not count? It will cost the government not a single 
dime to keep fishermen working. And given the questionability 
on NOAA's science that industry has proven wrong over and over 
again, it is not understandable as to why consolidation of the 
fleet is necessary. Last year we lost over $500 million in 
underharvested fish in the Northeast alone.
    Also of concern is the huge shift from days at sea to 
allocations. It renders every boat worthless, in the respect 
that the currency was days at sea, it was attached to the boat 
itself. Now with allocations being attached to the permits, it 
is completely devaluing the property of the owner and said 
vessels.
    Also, back in the eighties and nineties, the late eighties, 
early nineties, capital construction fund encouraged fishermen 
and people to buy boats and to go fishing. Not with a ten- or 
twenty-year business plan but with a plan that was meant to be 
a lifetime and into a generation for their sons or possibly 
selling the business, later down the road. Now that business 
plan can no longer work for those who invested the hundreds of 
thousands of dollars that they have in a days at sea program.
    Thank you.
    Mr. Kennedy. All right, thank you. It was very 
comprehensive but maybe we can get into some detail in some of 
the questions. What perhaps is best, as we go through the list 
of folks who are going to be testifying on this issue, and then 
ask questions that will probably pertain to almost everybody's 
testimony in some fashion or another. And that way we will get 
everybody just initially up to get their testimony, and then 
ask everybody to respond in response to these questions that 
will pertain to everybody's testimony.
    Ms. Jackson. Thank you.
    Mr. Kennedy. But thank you very much. Well, can we just 
have then the next person who is going to speak on this 
particular issue? Is it Michael? Yeah, Michael.
                              ----------                              --
--------

                                         Wednesday, April 14, 2010.

                            LOVE FISHERIES 


                                WITNESS 

MICHAEL E. LOVE, OWNER

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Love. Thank you very much for having me, Congressman 
Kennedy, staff. I appreciate the opportunity to speak about 
this. I would say first of all I am representing Maine here, 
although I was born in St. Luke's Hospital in New Bedford. My 
father fished out of New Bedford for twenty-odd years, years 
ago. But anyway, moving along, I am also in opposition to funds 
being spend on the catch shares and so forth.
    Catch shares and the ITQ, which is basically a backdoor way 
of saying ITQ, it may work in some fisheries. Years ago for a 
while I was a captain of factory trawls in the North Pacific. 
And in that fishery, large, far flung fishery, single species 
type of thing, I guess it seems to work better for that 
situation.
    In New England we have a multispecies fishery, many 
different fish, many different stocks and so forth in the 
complex. And essentially to make this work each fisherman has 
to pretty much become a Wall Street options trader. We have to 
try and figure out, you know, say sixteen ancillary species. 
You have got about twenty different things you are trying to 
figure out, what the various costs of those species are going 
to be. Not to mention what the price of diesel fuel might be, 
and trying to figure all of this out and make a business plan 
is next to impossible.
    Catch shares also tend to favor, because you are doing it 
on a pound by pound basis versus, what we have now is an 
opportunity, a days at sea, a time. You have a time opportunity 
to fish. If you screw up your opportunity to fish, if you are 
not that skillful, well you do not do so well. The fish that 
you miss, they go on to live another day. So what we have right 
now is basically conservation positive.
    Under catch shares, because the larger fish can combine 
with the smaller ones with multiple vessels, and essentially 
balance their allocations, each little species throughout the 
fleet, different fish are caught in different areas. So a fleet 
owner, which is why I believe this also violates Magnuson, 
discriminates against individual boat folks because they have 
one boat that can only be in one place at one time. The large 
fleet owner, on the other hand, can balance across his fleet 
his various catch share levels of each species. And he can have 
some boats in an area where there are a lot of stocks, and then 
the other vessels, some other kind of clean up boats in yet 
another area at the same time, and taking down his various 
amounts of species allocation kind of simultaneously.
    I with a single vessel cannot do that because my boat can 
only be in one place at one time. So if I am going to have to 
work in haddock and George's, and yet I have to keep some of my 
choke species, of say gray sole, that is more of a Gulf of 
Maine thing. I cannot do it simultaneously. I have to first 
fish one and then the other. So anyway, I believe it 
discriminates against the single boat person in favor of the 
larger one.
    Also, it was also maybe brought up earlier, we are shifting 
money from research, which we need good research. Out of 
research towards the catch shares. And, in general, I could go 
on and on, many things. I submitted this testimony earlier 
online. And just to say that the catch shares, at least in 
multispecies in New England, is a terribly complicated, 
expensive system to run. And I believe that the vast majority 
of Maine fishermen, certainly, and I believe many up and down 
the coast, are totally against it. And with that I will end my 
time.
    Mr. Kennedy. Okay. Well maybe you could stay there, and 
what we could do is just have Tina come up for just a minute. 
Both of you, because you both have the same perspective and it 
would be nice to have both of your input. So the permit would 
go to a fishing operator, not tied to a boat operator?
    Ms. Jackson. At this present time, yes, I believe that is 
correct.
    Mr. Love. Yes. For instance my permits, I have three 
permits I bought. Each permit is on a boat. I have two little 
skiffs in the backyard. Under government rules, they are both 
hooked up to the satellites at 20,000 synchronous miles above 
Earth, sending their signal, but to be legal that is the way we 
do it. And they have permits. And I lease the days at sea from 
those permits over to my operative vessel. And I lease from 
other people, too. So I could at least do myself, but other 
people do that. And with the days at sea it runs, that is the 
way it works. And----
    Mr. Kennedy. You know, just to give you an anecdote, and 
you can tell me how this applies. We have seen, one operator in 
New Bedford be the operator for about 85 percent of the 
commercial fishing. They are just, they bring it in, they pack 
it, they ship it, I mean, it is out. But basically they put all 
the others out of business, okay? I mean, there used to be 
hundreds and hundreds and hundreds of individual fisherman, but 
now it is one, and it is a big profit making corporation.
    Mr. Love. I am very familiar with it.
    Mr. Kennedy. Okay. So, then the idea is, what I am 
interested in is the way of life. In Rhode Island amongst the 
fishermen that I represent, it is a way of life, it is a 
tradition, it is a family heritage. And it is also part of the 
make up of our state in terms of the connection to our state.
    So people want to preserve that way of life. But they are 
threatened by, that the ocean is the commons. Okay? Everybody 
has a right to the commons. To subsist, to live off of, and to 
provide for their family. But, what we are having is corporate 
takeover of the commons. And that is pushing out the 
individual's ability to have, to sustain a livelihood. And so I 
would like you to give me a picture as to how this policy takes 
that concept and furthers it in the wrong direction, if you 
understand what I am saying?
    Mr. Love. Well I can----
    Ms. Jackson. You want me to go and then you will elaborate? 
Okay, I will give it a shot.
    Basically, the sector that maybe five boats belong to, each 
individual boat and/or permit holder is allocated a certain 
portion of fish based on their history, no longer on their days 
at sea. Say one person owned 60 percent of that sector's 
allocations. What ends up happening is it gives them the right 
to take their 60 percent----
    Mr. Kennedy. They can buy up all the permits? One person?
    Ms. Jackson. Oh, yeah. There is no cap on stacking.
    Mr. Kennedy. Okay, see that is the, that is the thing.
    Ms. Jackson. That has been a big problem and it has been a 
big concern. And we were at the advisory committee to New 
England Fisheries Management Council on Tuesday in Boston. And 
a motion was made to recommend a cap on permit stacking. The 
only problem with that is that if somebody already owned 60 
percent of their fleet, which has already happened. We are down 
to the line, we have only got two weeks left. They already own 
it. We cannot force them to sell it. What the cap will do is 
prevent them from selling 60 percent all at once. But then 
again, one corporation could have several subsidiaries, and say 
it was a 10 percent cap. That 10 percent could go to one 
corporation, and then the subsidiary could get the other 10 
percent. So in essence, the corporation will still end up 
owning 60 percent of that particular fishery. So.
    Mr. Love. Well I will just say, I will be maybe a little 
more blunt about it. In essence now for a period of time we 
have had a group of companies that are very closely, closely 
held, and they are represented by a particular New England 
Fishery Council member who basically during this time while he 
is voting on these things and choosing allocation time frames 
and so forth, has basically been amassing the largest single 
block of quote share out there. And this group is a member of a 
sector of Maine. I am also a member in the sector, and they are 
probably going to throw me out in a little while if they, get 
the testimony.
    But basically a sector is, it is a group of people. But 
most people do not have a choice. Some of the people pushing 
the sector concept and themselves have made what they call the 
days at sea common pool, the people using still the old system, 
and made that by design so untenable that you are going to fail 
if you have to stay in the common pool.
    So you have no choice but to join a sector. And so I have 
had to join a sector. And essentially a sector, and the problem 
is the big guy in a sector can basically, because his boats by 
poundage can outvote everybody else even, get a boat tomorrow 
and say, ``Michael, you are done. See you. Bye.'' Or he might 
just vote tomorrow and it could be anything. Because it is a 
group that you have to, once you are inside the sector it is a 
wild west.
    Mr. Kennedy. Yeah, right.
    Mr. Love. There is no oversight. There is none, and in fact 
the secrecy is amazing, how there is no transparency. It is a 
terrible, terrible way to do things. And so that is what has 
already happened. And so there needs to be just a huge pause in 
the whole thing until people can really see what is really 
going on here.
    Mr. Kennedy. Well, we will have to move on because I have 
other people to testify. But let me just say, I look forward to 
following up. You can speak with Ben. And obviously, Adrienne 
of our staff. But as far as I am concerned, and we will work 
when we mark this up, I am going to get to follow up with NOAA. 
It is absolutely the wrong policy for our country----
    Ms. Jackson. Absolutely.
    Mr. Kennedy [continuing]. To be privatizing the commons. It 
goes against our Constitution, which is these are the people's 
lands, it does not belong to anybody. Okay? It is the ocean, it 
is the land, it is the air we breathe. This is not privately 
held. That is why this administration is trying to charge 
people for the pollution they put in the air. Because you know 
what? That air does not belong to anyone. It belongs to all of 
us. When we breathe it in, and it is someone else's pollution, 
they have better have paid for that pollution to clean it up. 
Because it is the byproduct of a production process. It is not 
free when they get to dump their garbage into the air. Just 
like it is not free when someone gets to go out there and buy 
up the whole market, so to speak, of what is able to be caught. 
And then my fishermen do not get to go out there and fish 
because there are not enough permits left to go out there and 
subsist in a livelihood because of a market that is rigged 
against them, to be able to have a livelihood. And we ran into 
this with the lobstering in my state just a couple of years 
ago. They capped it. You know, you had generations of college 
kids being able to come back and over the course of a summer be 
able to just go out there and throw traps out and lobster. They 
capped the number of traps the average person could throw out. 
It did away with this whole notion of a whole summer 
opportunity for kids.
    Ms. Jackson. Just like they are actually looking to cut our 
effort again another 50 percent in Rhode Island, I just wanted 
to make you aware. And also, only one-third of Rhode Island's 
ground fish fleet signed up for sectors.
    Mr. Kennedy. And I want to follow up with you on that 
notion of the Magnuson requirement for the referendum, and 
whether that was pursued. Because it is process equals 
substance. The way the process is managed will equal what the 
actual outcome is. So if there is not a fair process, the end 
result. And I have been out on these ships, these trawlers on 
many, many occasions. And they are not going to catch stuff 
that is not in there.
    Ms. Jackson. That is right.
    Mr. Kennedy. This notion that they are out there trying to 
take endangered species, if they are endangered they are not 
catching them. So they are after, they want to catch stuff that 
is out there. And they can ship it anywhere in the world. And 
the stuff that we do not, dogfish, I mean, we are like what are 
they, they ship them over and make lots of money, and we will 
not tell them where they are making the money, because they 
will not want to go out and eat in those places in the world 
when they buy their fish and chips in those places.
    Ms. Jackson. That is right.
    Mr. Kennedy. But that is where they make the fish and chips 
in some of these other places----
    Ms. Jackson. But we have lost our market for that, though. 
That is another large portion of the problem, due to the 
science that there was not enough dogfish. And in the latest 
trawl surveys, 62 percent of every single trawl was dogfish. 
And we have been complaining about there is so much dogfish we 
cannot get away from it. And it is impossible to get it out of 
your net.
    Mr. Kennedy. Well, I want to take some of the scientists 
who say some of these low stocks with me when I come out on----
    Ms. Jackson. Very good. They are more than welcome to come 
on our boat.
    Mr. Kennedy. Just because it would be just very good. There 
is nothing like seeing to believe. Anyway, and then taking the 
money from the research, I would also like to get some feedback 
on that as well.
    Ms. Jackson. Feedback on that? Absolutely.
    Mr. Kennedy. But thank you very much for your 
participation. And it is a way of life that we need to protect. 
Thank you.
    Now we have Thomas Capps from the American Business 
Council.
                              ----------                              

                                         Wednesday, April 14, 2010.

                       AMERICAN BUSINESS COUNCIL


                                WITNESS

THOMAS CAPPS, PRESIDENT, CAPPS SHOW COMPANY

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Capps. Thank you for allowing me to appear. My name is 
Thomas Capps, I am President of Capps Show Company, 
headquartered in Lynchburg, Virginia. We employ 196 people in 
our main office and warehouse in Lynchburg and our factory in 
Gretna, Virginia which is in one of the state's highest 
unemployment areas now.
    The factory was purchased from a company called Craddock-
Terry, which was founded in 1888 and had nine factories and 
made 36,000 pairs a day. They basically closed as a result of 
their inability to compete with foreign competition. And it is 
really not too hard to understand. I mean in most of the 
countries that manufacture in volume, especially shoes as you 
would know from Massachusetts, there are no labor laws, there 
are no wage laws, there are not environmental laws, there are 
no safety laws. All that, obviously, adds to the price of the 
product.
    So I am here on behalf of my company and 795 other small 
firms that are certified in TAA for firms program. I am here to 
ask the Subcommittee to include as authorized a $50 million 
appropriation for the trade adjustment assistance for firms 
program in the Department of Commerce 2011 budget.
    Our company was certified in 2006 by the trade adjustment 
assistance group. And although we were economically challenged 
we were able to match the grants that they approved on a dollar 
for dollars basis. Some of the things that we did, we basically 
upgraded websites, we put in an RFID radio tag program which 
enabled us to win our latest federal contract, a Defense 
Department contract for the men's issue shoe for the Army and 
the Marine Corps, the dress oxford.
    But our most challenging project was in 2006. And we were 
having horrible inefficiencies in manufacturing, and also with 
personnel. And with the help of Maytech we were able to 
contract with consultants from Virginia Tech and Clemson 
University. They helped us solve our problems. And as a result, 
we are making twice as many shoes per man hour per day now than 
we were in 2006.
    Also, the close customized relationship that we have with 
TAA firms has allowed our company to have sales increases, 
where we are up 45 percent in sales, 68 percent in earnings, 16 
percent in productivity, and 34 percent in jobs since 2006.
    But the demand on these programs is even higher than ever. 
There were 8,000 inquiries since 2006. 38 percent increase in 
certification since 2008. The gap between demand and funding is 
widening. There is about an $18 million backlog now. And since 
2005 they have created over 48,000 jobs in manufacturing and 
the return on investment is about 749 percent. And as a 
taxpayer and a manufacturer, I think that is a very wise way 
for us to use our tax dollars.
    Manufacturing and jobs go hand in hand. And we have done 
well in the shoe business, and a lot of it is as a result of 
the help we have had from Maytech. And I would urge the 
Committee strongly to support the funding for this 
organization. Thank you.
    Mr. Kennedy. Excellent. Very well put. We share all the 
same interests from where I am coming from. And do you have any 
kind of part of advertising issues, manufacturing have been 
made in the United States in the process of the sale of the 
shoe?
    Mr. Capps. Well I know fifteen years ago there were twenty 
manufacturers in the State of Maine alone. And now we are the 
largest women's manufacturer east of the Mississippi. I mean, 
there are very few manufacturers left. But we are doing very 
well because there, we make a good product, we have very 
skilled workers, and in towns like Gretna, Virginia, the town 
revolves around this business. I mean, you have got 1,350 
people there. If we were not there----
    Mr. Kennedy. Do you label anything in the shoe as made in 
America?
    Mr. Capps. Oh, yes.
    Mr. Kennedy. Yeah, because people, I have actually talked, 
just anecdotally, but I have found it a lot, people actually 
make a point of trying to find stuff that is made in America, 
as difficult as it is these days.
    Mr. Capps. Fortunate the government, Defense Department 
shoes have to be made with domestic materials and 100 percent 
domestic. But we also make women's dress shoes and men's dress 
shoes in sizes a widths, again, 100 percent domestically.
    Mr. Kennedy. One point I would ask you to bring to the 
business council in addition to the work we are going to do on 
the TAAs, in the Department of Labor we have the ILO, the 
International Labor Organization. That is the U.S.' opportunity 
to enforce child labor standards overseas. Ultimately down the 
road, I mean, the world is smaller, and smaller, and smaller. 
Our way of life is going to depend directly on the enforcement 
of more international standards. So, while we need to continue 
to try to get better teeth in the laws of trade agreements so 
that we cannot import products from other countries that do not 
adhere to basic standards that we have to adhere to, in 
addition to that we need to strengthen our international 
oversight of countries that are exporting to us. And I just 
make that as a point that the business community actually 
ironically has a very strong, strong interest in the ILO, the 
labor enforcement internationally. Because they are dealing 
with it here. So their direct interest is to make sure that 
that is adequately staffed.
    It is interesting because the business community here, 
``Oh, we have got another federal regulator, another federal 
this, or another federal coming down, breathing down our 
back.'' Well, we need to have people doing it to their 
competitors elsewhere in the world where they are not getting 
anybody to inspect. And that is the ILO. So just as a point of 
interest down the line, because ultimately it is a smaller and 
smaller world and we have an interest business-wise to do that.
    Mr. Capps. Thank you very much for allowing me to speak.
    Mr. Kennedy. You bet. Thanks. Now we have Leonard, come on 
up from the Association of Public and Land-grant Universities.
                                         Wednesday, April 14, 2010.

ASSOCIATION OF PUBLIC AND LAND-GRANT UNIVERSITIES--BOARD ON OCEANS AND 
                               ATMOSPHERE


                                WITNESS

LEONARD PIETRAFESA, NORTH CAROLINA STATE UNIVERSITY

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Pietrafesa. Congressman Kennedy, on behalf of the 
Association of Public and Land-Grant Universities Board on 
Oceans and Atmosphere, and the National Constellation of----
    Mr. Kennedy. And Sea-Grant Universities?
    Mr. Pietrafesa. And Sea-Grant Universities as well.
    Mr. Kennedy. All right. Right in Rhode Island with that 
one.
    Mr. Pietrafesa. And the Constellation of Institutions of 
Higher Learning that APLU and BOA represent, I thank you for 
this opportunity to provide support of and recommendations for 
the proposed fiscal year 2011 budgets for NOAA, NASA, and NSF.
    We strongly support the administration's request of $5.554 
billion for NOAA, $7.424 billion for NSF, and $5.006 billion 
for NASA science account.
    Mr. Kennedy. Let me stop you there.
    Mr. Pietrafesa. Yes, sir?
    Mr. Kennedy. Is there any money that is moving from, you 
know, to support this other thing that we were talking about 
with this catch program, catch shares enforcement? Should any 
money that is going to that perhaps be going to some of this 
research programs?
    Mr. Pietrafesa. That I do not know specifically, but I can 
find out, yeah.
    Mr. Kennedy. I am sure you could use it.
    Mr. Pietrafesa. I was the Chair of the NOAA Science 
Advisory Board for half a decade, so I can find those things 
out if necessary. I will do so, sir.
    Mr. Kennedy. Okay. What we could do with those dollars if 
you had them, would be good to know.
    Mr. Pietrafesa. Right, thank you. President Obama's fiscal 
year 2011 budget request to Congress for NOAA, NSF, and NASA is 
bold, wise, and laudable. And will lead, for example, to the 
expansion of weather, including space weather, climate 
derivatives, industries, and renewable energy industries, and 
thus create new jobs for the nation. I would like to comment on 
aspects of the agency budgets and additional perceived needs 
that the scientific community has come forth with.
    For NOAA, NOAA provides important services vital to our 
economy and national security. Extreme weather events, like the 
recent snowstorms that affected the Washington, D.C. region, 
clearly demonstrate the immediate impact that weather can have 
on a region. NOAA's support of environmental research and 
education via cooperative institutes and programs such as those 
in the Office of Oceanic and Atmospheric Research and Sea Grant 
are critical to university research, education, and outreach.
    However, we do raise a major concern. The need for 
increased support of the nation's in situ environmental 
observing networks. As reported in several prior and recent 
National Research Council studies, for example this one just 
released, the needs are particularly acute for urban areas, 
mountain, ocean, and coastal regions, and for documenting 
climate variability. Vertical profiles of state variables, such 
as water vapor, wind, and temperatures, air sea fluxes, that is 
heat and momentum fluxes between the air and the ocean, and 
waves and currents are virtually nonexistent. Over land the 
primary recommendation is for the placement of LIDARs, which 
collect vertical observations from the ground up to two miles. 
And for the oceans the highly successful Argo network needs 
support as it begins to seriously age. In the case of coastal 
ocean regions, estuaries, and the Great Lakes where there is a 
paucity of data, a recommendation is for the build out and 
major enhancement of the existing NOAA national data voice 
center network of atmospheric and coastal ocean observing 
systems for improved forecasting particularly by the national 
centers for environmental prediction.
    Now to NASA. BOA is heartened by the administration's 
request for NASA's expanded and enhanced science mission. 
Without the tools developed and implemented by a NASA, Earth 
systems scientists would have a much less complete picture of 
the interconnected functioning of the planet's oceans, 
atmosphere, and land. Also, the NASA data archive is a treasure 
trove of environmental resources that researchers have come to 
depend upon. And through its support for young scientists and 
graduate students, the NASA science mission supports bold 
innovation. BOA applauds the special attention that the White 
House has paid to the restoration of NASA science.
    NSF. NSF is critical to U.S. basic research and supplies 
almost two-thirds of federal funding for university-based 
fundamental research in the geosciences. Through facilities 
such as the Ocean Observatory, the Integrated Ocean Drilling 
Program, and the NCAR Wyoming Supercomputer, NSF provides the 
academic community with advanced shared capabilities it would 
not be able to afford through individual institutions. Together 
NASA, NOAA, and NSF provide critical Earth observations and 
research funding for scientists working to increase our 
understanding of natural phenomenon of economic and human 
significance.
    BOA thanks the Committee for its continued support of these 
critical agencies. And thank you, Mr. Kennedy, for taking the 
time to review our recommendations of the Association of Public 
and Land-Grant Universities and the Board on Oceans and 
Atmosphere. Thank you.
    Mr. Kennedy. Thank you. Let me just say how in awe I am of 
just both your education and years of service in the science 
community. It is just an amazing contribution you have made to 
the science advancement in our country, and we are very 
fortunate to have people of your caliber who have given so much 
in a country where we need to be doing more to celebrate the 
sciences and those who have made a life out of them. I mean, we 
do so much to celebrate all these other things in life, with 
money and fame and power. And if we did half as much of that in 
the areas of life where we need to, such as the area where you 
have dedicated your life, hopefully there would have been more 
people who would be doing what you have been doing with your 
life, in advancing such important areas like you have, which 
have such a direct impact on quality of life and sustainability 
in the world of so many people in such direct ways that most 
folks cannot draw the correlation with because the science is 
not very widely disseminated and understood.
    So the work that you do, I also am advocating for more 
funding for this type of research and understanding, is really 
appreciated. And I can tell you the Speaker is very much 
interested in making sure our country does not fall behind as a 
world superpower in the area of research and science, 
education, and of course we have been living off the past in 
terms of the dollars that we have been spending in the past in 
terms of research. So in terms of the oceans and the climate, 
obviously that intersection is something we are very familiar 
with with URI and the work that is being done there in terms of 
climate, and the relation between that and the Midwest. We 
would not think that the oceans would have anything to do with 
what is going on with farmers out in Iowa but that is why 
people in the sciences are so important because they show the 
interrelatedness of all of our lives.
    So I will just say to you, we had a big conference in my 
state on the Mission to Planet Earth. You know, again, why does 
space matter? I mean, you get to see the impact in a global way 
of what is happening to our planet. So I will just tell you in 
terms of these points that you made, we will take them. We have 
got your detailed submission of your testimony. And I know we 
will be following up on the specific points that you made and 
highlighted in this brief couple of minutes that you have given 
us to just hit the top lines that you wanted us to address. And 
Adrienne will be in contact with you because definitely, she is 
our top staffer on the community.
    Mr. Pietrafesa. I will get back with you with the 
questions. And also----
    Mr. Kennedy. And just double up on definitely the big 
things that you want to highlight with us. Okay?
    Mr. Pietrafesa. Thank you. Thank you very much, sir.
    Mr. Kennedy. You bet. Thank you. Bill, welcome.
                              ----------                              

                                         Wednesday, April 14, 2010.

                 MARINE CONSERVATION BIOLOGY INSTITUTE


                                WITNESS

BILL CHANDLER, VICE PRESIDENT FOR GOVERNMENTAL AFFAIRS

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Chandler. Thank you, Mr. Chairman. My name is William 
Chandler. I represent the Marine Conservation Biology 
Institute, a nonprofit conservation organization based in the 
State of Washington. And I want to thank you for the 
opportunity to testify today on some of NOAA's conservation 
programs. I am going to address four of these that we had in 
our written statement, which are not all of them but they are 
the ones that I would like to highlight today.
    First of all, I would like to start out, Mr. Chairman, by 
letting the Subcommittee know that the Hawaiian Monk Seal 
Recovery Program that the Subcommittee has supported for the 
last two years with an increased budget of twice what it was 
receiving a couple of years ago, your support of that program 
has absolutely rejuvenated it. As one who monitors the program 
carefully, I go to Hawaii several times a year, this is one of 
our key projects, and I can assure you that your support has 
been critical in getting this program moving again in the right 
direction. Let me give you some examples.
    They have hired a recovery program coordinator for the 
first time. They have also started the practice of having 
winter field camps again up in the remote Hawaiian Islands 
where a lot of these seals live. Before those seals were just 
ignored during the winter and nobody knew what was happening to 
them, and nobody was doing anything to take care of them. They 
have added new staff. They are getting outreach and education 
programs going. And probably most importantly, Mr. Chairman, 
NOAA has actually partnered with a private, nonprofit 
organization who is going to care for wounded seals in a 
facility that the private organization is building itself. So 
NOAA has a private sector, and it is going to be able to help 
that program tremendously.
    For 2011 the administration has recommended only $3.6 
million for seal recovery in contrast with the $5.7 million 
this Committee has been giving it. In my opinion, Mr. Chairman, 
this would pretty much reverse engines on this program and 
negate the progress being made. So I would urge the Committee 
to hold steady with at least the $5.7 million that you have 
been supporting for the seal in the past. $3.8 million of that 
would go to research, and $1.9 million for management.
    I would also like to suggest, Mr. Chairman, that all of 
that money that the Committee decides to give the monk seal 
this year be put in a seal line item to show that the 
Subcommittee intends this recovery effort to be ongoing, 
aggressive, and sustained.
    Marine debris is another area I would like to address. 
NOAA's marine debris program has been level funded at $4 
million since 2008. Public awareness of marine debris has grown 
tremendously in the last five years, I would say. I provided a 
couple of photos to the Committee to show the kind of horrific 
impacts that marine debris has on wildlife. This is a seal that 
cannot eat any longer. This is an albatross, Mr. Chairman, that 
has over 100 pieces of plastic in its belly, which basically 
led to its demise. It is hard to imagine that things like this 
which I find in the parking lot of my Metro station actually 
can get in the ocean and wind up in the belly of these 
magnificent birds. They are dying by the tens of thousands in 
the Pacific from this kind of ingestion. So we would like to 
see this program towards prevention, and we are recommending an 
appropriation of $10 million this year to allow the program to 
start doing more preventative programs. So that would be $6 
million above the $4 million that they are giving. We have to 
get to the prevention problem.
    A third area of interest to us is the deep sea coral 
ecosystems that we recently discovered lying off our coast. 
Scientists need to learn more about the nature and the 
ecological roles and the threats to these systems so that they 
can do the right things to protect them. Funding for this 
program went up to $2.5 million in last year's budget, and 
there is still a great need, though, for mapping and 
identifying these ecosystems. We recommend an additional $4.5 
million this year for that program.
    Finally, Mr. Chairman, I want to point out that MCBI 
supports the President's request for $11.5 million for research 
on ocean acidification and its potentially catastrophic effects 
on marine life and on the industries that depend on them. The 
fishing industry, and seafood industry is very concerned about 
the growing acidification of the oceans and what that might do 
to their stock. So we strongly support this program at the 
$11.5 million amount.
    That concludes my testimony, Mr. Chairman. And again, I 
want to thank you for your time and your interest in marine 
life in the oceans on this Subcommittee.
    Mr. Kennedy. Beautiful. Thank you for your testimony and 
your stewardship of our world. What is going on in terms of the 
international collaborative efforts on the coral monitoring?
    Mr. Chandler. There are a lot of things happening in the 
international arena on corals, not only on deep sea corals, of 
course, but on the shallow water corals that people are more 
familiar with when they go to places like Hawaii or the South 
Pacific or the Caribbean. So NOAA does have a liaison office 
where they try to stimulate international programs in terms of 
coral protection. In the deep sea field they are doing some of 
that, but right now they are focused pretty much on trying to 
get a handle on what is going on in the United States.
    Mr. Kennedy. Is there anything about, we were talking about 
fishing before, but in terms of the big, those that, like, drag 
the stuff along the bottom?
    Mr. Chandler. Well the fact of the matter is, there is 
nothing more destructive to a deep sea coral than a trawl, a 
bottom trawl, that is rolling over those corals. Either with 
rollers, or heavy weighted nets. They can crush and destroy 
those areas. So the idea would be to try to identify the most 
significant ones and try to guide the fishing industry not to 
go there.
    Mr. Kennedy. Well there has got to be a plan. And as a 
government guy, I mean, I am looking for, is there a bill? Are 
there regs? I mean----
    Mr. Chandler. Well, the deep sea coral program, about which 
I am testifying, does require NOAA to provide this information 
to the Fishery Management Councils to let them know where these 
deep sea corals are. They have a voluntary responsibility to 
protect the corals, it is not mandatory. So it is up to the 
councils.
    Mr. Kennedy. Okay, so maybe you could give us some more 
information on that?
    Mr. Chandler. I could. I could give you more details. I 
would be happy to do that. But essentially right now in federal 
waters deep sea coral protection is not obligatory, it is 
encouraged. But the councils do not have to obey any 
regulations about the destruction of these areas.
    Mr. Kennedy. It does not make a lot of sense for us to be 
pouring a bunch of money into researching and protecting and 
all the rest and then turn a blind eye----
    Mr. Chandler. I agree with you.
    Mr. Kennedy [continuing]. When we are doing, when we are 
weighing in on all kinds of federal regs on these fishermen and 
everything else----
    Mr. Chandler. I agree with you.
    Mr. Kennedy. I mean, it is just like one hand does not know 
what the other is doing. So if you could give us some, kind of 
how do we bring some coherence to that?
    Mr. Chandler. I absolutely can.
    Mr. Kennedy. That would be great. And on the marine debris, 
if you could just follow up on it and what we could do to help 
put some money aside in the Navy's budget.
    Mr. Chandler. Okay. I will be happy to do that.
    Mr. Kennedy. Because Navy is the biggest owner of coastal 
property around the world. And we have had some issues that, I 
mean, they are our protector. They do their job. But, you know, 
they have got a lot of historic stuff that is in our waterways 
that are----
    Mr. Chandler. Right.
    Mr. Kennedy [continuing]. Posing hazards not only to our 
marine life but also to, you know, boaters and everything else. 
Because this stuff is all over in my state. I mean, we have had 
to have private folks take this stuff out because----
    Mr. Chandler. Pick it up? Mm-hmm.
    Mr. Kennedy. Anyway, maybe you could tell, because there is 
obviously a lot more money in Defense to clean up the--
    Mr. Chandler. And Mr. Dicks is our Congressman, so we can 
talk to him about that as well.
    Mr. Kennedy. Hey, good point. And you are in the right 
state to advocate for that. That is, let us definitely talk 
about that.
    Mr. Chandler. Yes, okay.
    Mr. Kennedy. All right. Thank you so much.
    Mr. Chandler. Thank you, sir.
    Mr. Kennedy. All right. Yeah, David Bedford. You are next.
                              ----------                              

                                         Wednesday, April 14, 2010.

                       PACIFIC SALMON COMMISSION


                                WITNESS

DAVID BEDFORD

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Bedford. Mr. Chairman, I want to thank you for the 
opportunity to speak to the Committee. You have my written 
testimony. So I think what I will do is I will just land on a 
couple of the high points in there.
    The general issue area that I am speaking to is the 
implementation of the Pacific Salmon Treaty, which is a treaty 
between the United States and Canada----
    Mr. Schiff. Right.
    Mr. Bedford [continuing]. To conserve and share harvest of 
salmon on the West Coast. They are farm migrating species. And 
they do spawn within the United States, travel into Canada, and 
then back again.
    There are two particular lines in the budget that I want to 
speak to. One of them is the Pacific Salmon Treaty line item in 
the National Marine Fisheries Service budget. A second one is 
the Chinook Letter of Agreement line item in the NOAA budget.
    We have the situation that the United States entered into 
this treaty with Canada in order to conserve salmon. Yet we 
find that the states are far better equipped to deal with 
salmon conservation and management than the federal government.
    Therefore, the kinds of responsibilities that have been 
undertaken by the United States under this treaty are fulfilled 
in principal measure by the states of Washington, Oregon, and 
Alaska.
    We receive base funding for implementation of treaty 
programs through these line items that I have indicated in the 
budget. However, the level of funding that we receive is 
projected by the President for the coming year to be $5.612 
million. We view our costs as being $9.708 million. And that is 
a product of a very serious zero-based budgeting exercise 
undertaken by all of the states in January of this year.
    We have been able over the past years to backfill the needs 
for funding by reaching into other funding sources. So, for 
example, the states have used Dingell-Johnson funding. They 
have used anadromous fisheries grants, another line item in the 
NOAA budget in the past but which was excised from the budget 
in this past year. We have used Pacific Coastal Salmon 
Recovery. We have used state general fund dollars.
    But with the economy where it is now, with the changes that 
have been made to the federal budget, with the increasing costs 
that we have for the kind of intensive conservation-based 
management that we have to undertake, we are not in a position 
to be able to continue to backfill the needs that we have.
    So we find ourselves now really hitting the wall on this. 
So we are working hard to try to see if there isn't some way 
that we can succeed in getting adequate base funding on this, 
so that the states will again be able in their status of sort 
of filling the shoes of the federal government in this 
international agreement to be able to continue doing the kind 
of intensive conservation-based management that we have been 
doing.
    And thank you very much.
    Mr. Kennedy. Excellent. Give me anecdotally the activities 
that go into this that costs all the money, in terms of the 
monitoring, conservation, all the rest.
    Mr. Bedford. For fisheries management you have got two 
basic issues, how many fish do you have and how many are being 
impacted in one fashion or another.
    So we are in a position where we are monitoring resources, 
monitoring fisheries, accounting for the spawning stock so that 
we can keep track of productivity. It is a very involved kind 
of process.
    We are doing that in rivers from the Oregon coast up to 
Cape Suckling in Alaska, which is a distance of a couple of 
thousand miles. It is a very geographically broad undertaking.
    Mr. Kennedy. On the one hand you said the states are better 
at it. But state budgets can vary from state to state. And you 
are looking at a whole species. Why wouldn't the feds be better 
at doing it since they are immune from state--they may not be 
immune from economic and budgetary problems, but at least the 
monitoring may not differ as much.
    Mr. Bedford. As a matter of sort of the traditional police 
powers of the states they manage these fisheries. Now the 
federal government has undertaken management of salmon 
fisheries outside of three miles.
    But the states still have the responsibility for all of 
those populations once they get inside three miles and then in 
the spawning grounds. So the states are then in a position 
where they have responsibilities that the federal government 
can't stand in their shoes to undertake.
    Furthermore, you have a great interest on the part of the 
states on these fisheries, because they are huge economic 
drivers for the economies of the states. So they have had in 
place management programs since a time that the federal 
government took much interest in it.
    Mr. Kennedy. One last question is with respect to the 
tribes, Native American, they have sovereignty over their 
lands. So what, kind of requirements do they have in terms of 
adherence? Since it is a federal law, it is--they have got 
the----
    Mr. Bedford. Well thank you very much for that question. I 
have narrowed the discussion to the states because of the venue 
that I am in.
    The tribes, of course, have co-management responsibilities 
in the states of Washington and Oregon. And so they stand 
basically in parallel with the states in trying to conserve and 
manage salmon resources.
    However, the interests of the tribe are something that we 
try to deal with in dealing with the Department of Interior and 
their budget.
    Mr. Kennedy. Okay.
    Mr. Bedford. And we are, again, following up on that.
    Mr. Kennedy. Okay.
    Mr. Bedford. But I didn't think the venue was appropriate 
to pursuing it.
    Mr. Kennedy. No. But I appreciate you bringing that up. And 
if you could do a little memo for us on that, because it would 
make a difference.
    Thank you very much for your testimony and for being here.
    Mr. Bedford. Well thank you very much for the opportunity.
    Mr. Kennedy. You bet.
    So Anthony from the National Fish and Wildlife Foundation.
                              ----------                              

                                         Wednesday, April 14, 2010.

                 NATIONAL FISH AND WILDLIFE FOUNDATION


                                WITNESS

ANTHONY CHATWIN, PH.D.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Chatwin. Thank you, Mr. Kennedy, Mr. Fattah, for the 
opportunity today to testify. I am Anthony Chatwin. I am the 
Director of Marine and Coastal Conservation at the National 
Fish and Wildlife Foundation. I have submitted written 
testimony, so I am just going to hit on the more important 
items.
    Mr. Kennedy. Awesome.
    Mr. Chatwin. The National Fish and Wildlife Foundation was 
established by Congress back in 1984 to promote public/private 
partnerships. We are fully authorized to receive 
appropriations. And in the early 90s we became NOAA's official 
foundation. And as such, we work with the agency to help 
implement their priorities.
    The way we operate is we take federal dollars, and we match 
them with private dollars. And we give them out through our 
grant programs. Today we have given out over 10,000 grants to 
over 3,000 grantees around the country. And we have a strong 
history in providing grants to coastal communities and 
fishermen around the country.
    In fact, an example of that is we have a Marine Debris 
Program that was mentioned earlier. Marine debris is an issue, 
where we give grants to fishermen and to ports to clean up 
derelict fishing gear. We have a partnership with NOAA where we 
get federal money. And we have a partnership with Covanta 
Energy. And through that partnership, we place bins in ports, 
in key ports, including many in New England, where fishermen 
can at no cost get rid of the derelict fishing gear rather than 
dump it at sea. And that then is taken and burned as energy. So 
that is just an example of the type of program that we run.
    Now it is a win-win solution. And it is that win-win 
solution oriented focus that we want to apply to two other 
areas that are priority for NOAA. One has to do with the 
catchers that we also discussed earlier. We have a Fisheries 
Innovation Fund for which we are seeking an appropriation, a 
request of $3 million. And we also have identified partners in 
the private sector that are interested in matching NOAA's 
dollars in that program.
    And the grants we would direct to helping build the 
capacity of small-scale fishing interests, both commercial and 
recreational, to participate in the design of the catch share 
programs. Catch shares can be an effective fish and management 
tool if designed appropriately. And a key to that design is the 
participation of the interested parties in that design. So that 
is what our grants would be focused on.
    And that builds on an experience that we have. We provided 
a grant in the Chesapeake Bay with Blue Crab Fishery in 
Maryland. In fact, we co-funded it with the state of Maryland. 
And we promoted a fishermen-to-fishermen exchange. Our grant 
enabled the crabbers to go to Canada and learn firsthand from 
fishermen in Canada that had been under a catch share fishery 
for a long time. And they have come back with a renewed 
interest and some improved insights in how to make a system 
like that work for them and preserve their way of life, which 
is so important.
    The other area of focus of our request is we are requesting 
$2 million for our Marine Protected Areas Fund to help NOAA in 
its implementation of marine spatial planning at the site 
level.
    And, again, in the spirit of fostering collaboration, which 
is a hallmark of our grant programs, the grants would be 
destined to helping local, state, tribal, and users to 
participate fully in marine spatial planning process.
    So in conclusion----
    Mr. Kennedy. For what purpose?
    Mr. Chatwin. To minimize conflicts. An example is in 
Stellwagen Bank, a marine sanctuary, national sanctuary where 
there was conflict between the resources that the sanctuary was 
trying to protect, the right whales, and the shipping lanes.
    The marine spatial planning process allows them to come 
together and what has resulted, and this is called for in the 
policy, the draft policy anyway, is they have changed the 
shipping lanes and implemented some speed adjustments so to 
minimize the conflicts with the resource there.
    And in conclusion, all the federal collars that we receive 
we double by matching one-to-one with private interests. And we 
make sure that they are well used to benefit fish and wildlife 
and the communities that depend on them.
    So we look forward to working with the Subcommittee on 
this. And I am happy to take any questions.
    Mr. Kennedy. Well thank you for your testimony. Thank you 
for the work that you do.
    Obviously in light of the earlier testimony on the catch 
shares, I am, you know, interested in your perspective on the 
comments that I made on that. And you alluded to it a little 
bit.
    And I notice your history is, obviously, working throughout 
Latin America helping a number of countries implement 
sustainable fishing programs and the like. And I know you know 
the way of the world is follow the money.
    Mr. Chatwin. Right.
    Mr. Kennedy. The key to environmentalism obviously, as you 
know, is investing people in the environment. And you can't 
just have a handful of people own the environment and then be 
the only--because they are the only ones that are going to 
care.
    So we have to have--we can't just have a couple of people--
bunch of people buy up all the permits. And that is what this 
catch share thing is. It seems to me it is a perpetuation of 
that. It is misguided, or whether it is planned or not, that is 
what is happening.
    Mr. Chatwin. Mm-hmm.
    Mr. Kennedy. I don't know whether it was anyone's intent or 
not. But it has eliminated the best conservationists we have. 
And that is the, you know, one or two boat owner family-run 
operations that have been going generations that went out there 
and did their fishing for sustainable livelihood.
    Now we have got these factory ships. They sit out 
underneath the Pell Bridge. They are five stories high. They 
come in from all over the world. They just scoop up the 
menhaden and just freeze them. You know, they ship them right 
out. I mean, it is just disgusting. It has totally perverted 
anything that you would ever think is something called fishing. 
It doesn't resemble fishing. It is mining the oceans.
    So as far as I am concerned I am going to do everything I 
can to eliminate the catch share program. This $54 million, if 
I have anything to say about it as co-chair of this Committee, 
it is going to be gone. I am going to tell Mollohan this is one 
of my priorities. Gone from this budget.
    So I know you are trying to partner up because it is $54 
million. It is big, fat and sits out there in the budget. You 
say, hey, we want to partner up with this. This is a chunk of 
money.
    But I am saying to you come back to us with what you would 
ideally like to see that money spent on. Not because it is 
there and you say oh we better get in with this new catch share 
program, because that looks like where the money is.
    If you had that money and were to implement a new novel way 
of trying to--if you had to recreate sustainable fishing, which 
allowed people from the local area to fish, what would it look 
like given your experience? Because I have noticed you have 
been part of this.
    You have heard proposals from not only our own country, 
Equador, Brazil, Latin America, Panama, Peru. You have been all 
over the world. I noticed your whole history here. It is 
terrific. So you have got a lot of perspective you can give us 
on this.
    Mr. Chatwin. Sir, just one comment I would share. I think 
that small-scale fishermen everywhere are at a disadvantage, a 
competitive disadvantage. And so there need to be mechanisms to 
help even that out.
    And one example in Brazil, for example, is where they 
assign, and this happens in Mexico as well, they assign 
exclusive use rights to a community to a certain piece of the 
bottom. So that works for a lobster fishery for example.
    Mr. Kennedy. I got you.
    Mr. Chatwin. So the way I see catch shares, yes, it is 
interesting that there is this big budget associated with it. 
But that is a mechanism that can work in favor of the small-
scale communities, because there is a mechanism in there to 
allocate an amount of the cash to the community.
    Mr. Kennedy. Okay.
    Mr. Chatwin. And that mechanism doesn't exist today.
    Mr. Kennedy. Good. Well that is the kind of input that 
might be able to work to keep me from----
    Mr. Chatwin. Yes.
    Mr. Kennedy [continuing]. Doing everything I can to kill 
this thing. So, yes, could you just give us----
    Mr. Chatwin. Sure.
    Mr. Kennedy [continuing]. How to write this thing better?
    Mr. Chatwin. It would be a pleasure. We will follow up with 
Adrienne.
    Mr. Kennedy. Do you know Riverkeepers?
    Mr. Chatwin. Yes.
    Mr. Kennedy. Yes. So that is a good----
    Mr. Chatwin. Excellent.
    Mr. Kennedy [continuing]. Program in the northwest for the 
salmon thing. They are great.
    Mr. Chatwin. Thank you very much.
    Mr. Kennedy. Thank you very much.
    Now it is Chaka Fattah from Philadelphia, the City of 
Brotherly Love. He will be a lot nicer to the rest of you. But 
I will just say for the record I allowed them to at least sit. 
They were standing before I got here. I don't know what it was 
about Honda that made them stand in the hallway. But I have 
that one up on them.
    Thank you all for your patience.
    Mr. Fattah [presiding]. I did an earlier session, so it is 
good to be back. And we have now a Philadelphian who is doing 
an extraordinary job, transplanted Philadelphian by way of 
Colorado, leading Big Brothers Big Sisters, doing an 
extraordinary job of running an agency that is serving and 
helping millions of young people across our country. And we 
want to welcome you to the Committee.
    Everyone should know that there are going to be some votes 
at some point very soon. You see the speaker up. That means 
that the elephants have gathered. And the grass is going to get 
trampled. So there is going to be votes. So I will try to move 
this along so that everyone can get their testimony in and that 
you don't have to wait for us to go vote and come back an hour 
after that, so go.
                              ----------                              

                                         Wednesday, April 14, 2010.

                  BIG BROTHERS BIG SISTERS OF AMERICA


                                WITNESS

KAREN J. MATHIS

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Mathis. Thank you, Congressman Fattah. It is wonderful 
to be here with you. And may I just say for the record that 
right now Big Brothers Big Sisters is representing and 
mentoring 4,000 children in Philadelphia alone.
    And I think it is important for the purposes of this 
hearing today, Congressman, to note that just eight years ago 
only 1,500 young people were being mentored in Philadelphia. 
That incredible increase was due almost entirely to a grant 
from OJJDP. So that puts this issue in a particular light.
    I would like to thank you and the Committee for allowing us 
to speak on these appropriation issues. As you are aware, Big 
Brothers Big Sisters it the nation's largest and oldest 
evidence-based mentoring program. Our mission is to help youth 
reach their potential.
    We are a grassroots organization. We have 360 local 
agencies. And right now we are serving 260,000 children in over 
5,000 American communities.
    There is strong evidence that our model works to prevent 
and respond to juvenile delinquency and victimization. And in 
this context, Big Brothers Big Sisters must express its very 
sincere and respectful concern with the President's proposed 
fiscal year 2011 budget.
    Now we all recognize, certainly in the non-profit sphere as 
well as the profit, the budgetary pressures our nation and our 
government is under. We understand that these cuts might 
produce shot-term savings. However, we cannot afford the 
lasting impact such cuts would have and impose on the most 
vulnerable of our youth.
    And, you know, we are going to spend more money downstream 
when these same young people become victims or regretfully some 
of them become perpetrators of crime.
    We in the mentoring and youth development segment are very 
grateful for the $20 million increase in youth mentoring grants 
this last year. But a 55 percent decreasing in funding for the 
President's proposed fiscal year 2011 budget would have 
devastating consequences.
    There are over 26,000 children right now waiting to be 
mentored just at Big Brothers Big Sisters agencies. And we have 
volunteers who are ready to mentor. But without funding, we 
cannot make the matches.
    And so President Obama's call to service created a 
wonderful uptick in volunteer queries. But without the funding 
that is provided by OJJDP and other governmental agencies, we 
can't make those matches.
    And as our economic crisis continues, and we all know it 
will take a while to come out of that, the demand for mentors, 
in particularly hard hit communities, just continues to rise.
    OJJDP last year, for example, had 2,000 applications for 
these funds. It awarded 63 grants. The need is clear. To reduce 
the budget by 55 percent would be catastrophic.
    We know that volunteer mentoring is cost effective. The 
independent sector has valued a volunteer hour at $20.25 an 
hour. With 264,000 Big Brothers and Big Sisters volunteering 
approximately three hours a week for 50 weeks a year, that in-
kind contribution is over $800 million a year.
    Now think where the United State Government gets that kind 
of leverage and does that kind of good, not just for this 
generation but for future generations as well.
    The reach, the impact are huge. The success and development 
of our subsequent generations, the legacy we are going to leave 
for future generations, is truly at stake with this budgetary 
proposed cut.
    We know we are evidence based. We know we are cost 
effective. And we know mentoring is a reliable pathway for this 
generation to ensure the success of future generations.
    Our testimony more fully explains our position. 
Congressmen, we thank you for the opportunity. I would be 
delighted either here, with your staff, or back, of course, in 
our congressional district to answer any questions you might 
have.
    Mr. Fattah. Well let me thank you for your testimony and 
for the great work that you are doing. I think that the 
Committee has demonstrated in the past its significant support 
for and interest in the work of Big Brothers Big Sisters.
    And I know you have been doing some extraordinarily good 
work with particularly the best fraternity in the world, 
Alpha's, who are working with you to get more African-American 
men involved in mentoring programs through out college 
fraternity system.
    So let me thank you for your work. I am not going to 
belabor the point. I want to get everyone's testimony on the 
record so thank you.
    Ms. Mathis. Thank you, Congressman, appreciate it.
    Mr. Fattah. And you can let Senator Grassley know I think 
you are doing a great job, all right?
    Ms. Mathis. Thank you, sir. We do try to take every nickel 
and stretch it to a quarter.
    Mr. Fattah. Thank you.
    Ms. Mathis. And I will excuse myself, sir.
    Mr. Fattah. All right.
    Zygmont Pines, Esquire. I served with Chancellor Raynes and 
Jim Mundy years ago. We worked on creating the drug court in 
Pennsylvania. Welcome. And you will enter your testimony for 
the record. And you can make whatever comments you would like 
to make.
                              ----------                              

                                         Wednesday, April 14, 2010.

                    NATIONAL CENTER FOR STATE COURTS


                                WITNESS

ZYGMONT A. PINES, ESQ.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Pines. Good afternoon, Congressman Fattah. It is a 
pleasure and an honor to be here before you today. Arthur 
Raynes was my mentor, so he was a special man in my life.
    I am the Court Administrator of Pennsylvania and the co-
chair of the Security Committee for the Conference of State 
Court Administrators, otherwise known as COSCA and the 
Conference of Chief Justices.
    On behalf of COSCA, I come before you with two requests. 
One to fund a threat assessment component of the Court's 
Security Improvement Act at the authorized level of $15 
million. And, two, to fully fund the state court system grants 
under the NICS Improvement Amendments Act.
    Security as you know is a compelling problem for both state 
and local courts where approximately 32,000 judges sit every 
day. The security of our judicial system is fundamental to our 
cherished concept of democracy and respect for the rule of law.
    The written statement, which I have submitted to the 
Subcommittee, gives a glimpse of the severity of the security 
problems in our courts. The range of security incidents is 
indeed alarming. Attempted murders, bombs, assaults, threats to 
kill presiding judges, litigants with weapons, and white powder 
incidents are common.
    Some statistics, for example, 22 percent of California 
jurors receive threats in a 12-month period. New York's 
judicial system had 3,200 security incidents just in 2009. In 
Texas there is a 100 percent increase in reported security 
incidents from September 2009 to February 2010. And recently 
the Massachusetts Judge's Conference reported that more than 
half of their judges have been threatened during their judicial 
careers.
    There is a critical need for state court systems to 
establish and maintain comprehensive criminal incident threat 
assessment reporting systems. Courts need your support in their 
ongoing efforts to document and track security incidents and 
threats.
    Courts can do this only through uniform and comprehensive 
information systems. The beneficiaries of such effective 
databases will be our courts, the public, and certainly law 
enforcement.
    I thank the Committee for including language in last year's 
report encouraging the Bureau of Justice Assistance to support 
the establishment of threat assessment databases based on core 
elements.
    Unfortunately, because of insufficient funding, there has 
been no progress with BJA on that front. We are hopeful that a 
congressional appropriation for a threat assessment database 
will be a catalyst, a needed catalyst, for much needed action.
    In addition, I come before you and ask for full funding of 
the state court system grants under the NICS Improvement 
Amendments Act. The state court system grants authorized $125 
million for fiscal years 2010 and 2011.
    The NICS Court System Grants is another important aspect of 
security that impacts all of society. The purpose of the grant 
is to assist state court systems to set up comprehensive record 
management systems that combine full case criminal data, 
including case dispositions, sentences, and warrant 
information.
    Frankly state courts have struggled to comply with NICS. 
NICS is about saving lives and protecting people from harm by 
not letting guns and explosives fall into the wrong hands.
    The creation of informational systems would enable courts 
and law enforcement to depict all sentences and dispositions 
associated with a defendant on one screen.
    We find ourselves in a period of increased public hostility 
and tension. The proliferation of anti-government and hate 
groups, as well as emotionally unstable aggrieved litigants, is 
a clear warning to all of us that the improvement of security 
and reduction of risk must be our priorities.
    As Chief Justice Ronald George of California remarked in 
2006, ``Courthouses must be a safe harbor to which members of 
the public come to resolve disputes that often are volatile. 
Once courthouses themselves are perceived as dangerous, the 
integrity and efficacy of the entire judicial process is in 
jeopardy.''
    Congressman Fattah, thank you very much for giving us the 
opportunity. And we welcome any questions you may have. And 
certainly thank you for your support.
    Mr. Fattah. Well you have had an extensive and continuing 
career working to improve the efficient operation of our 
courts. And I want to thank you for your public service. And if 
we have any questions we will submit them for the record.
    Thank you very much.
    Mr. Pines. Thank you.
    Mr. Fattah. All right. We will have our next witness, Craig 
Schiffries. Did I pronounce that correctly?
    Mr. Schiffries. You did very well.
    Mr. Fattah. All right.
    Mr. Schiffries. Better than me.
    Mr. Fattah. Your moment has arrived.
                              ----------                              

                                         Wednesday, April 14, 2010.

                     GEOLOGICAL SOCIETY OF AMERICA


                                WITNESS 

CRAIG M. SCHIFFRIES, PH.D.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Schiffries. Thank you very much for the opportunity to 
testify today on behalf of the Geological Society of America in 
support of increased federal investments for the National 
Science Foundation.
    My name is Craig Schiffries. And I serve as Director for 
Geoscience Policy at the Geological Society of America. The 
Geological Society founded in 1888 is a scientific society with 
over 22,000 members from academia, government, industry in all 
50 states and more than 90 countries.
    The Geological Society of America joins with the Coalition 
for National Science Funding and other organizations in 
recommending an appropriation of at least $7.424 billion for 
the National Science Foundation in fiscal year 2011. It is an 
increase of $552 million or eight percent compared with the 
enacted level for fiscal year 2010.
    This funding level would uphold the President's budget 
request for the National Science Foundation. However, it is 
well below NSF's fiscal year 2010 authorized funding level of 
$8.1 billion under the America Competes Act.
    The rationale for increased investments in science are 
clear. Science and technology are engines of economic 
prosperity, environmental quality, and national security. 
Federal investments in research pay substantial dividends, 
according to the National Academies report, ``Rising above the 
Gathering Storm.''
    Economic studies conducted even before the information 
technology revolution have shown that as much as 85 percent of 
measured growth in U.S. income per capita was due to 
technological change.
    The earth sciences are critical components of the overall 
science and technology enterprise. It is particularly important 
to significantly increase NSF's investments in earth science 
research and education. This is necessary to meet challenges 
posed by human interactions with earth's natural systems and to 
help sustain these natural system and the economy.
    Increased investments in NSF's earth science portfolio are 
necessary to address such issues as natural hazards, energy, 
water resources, and climate change.
    Let me just highlight a couple of examples. Natural 
hazards, such as earthquakes, tsunamis, volcanic eruptions, 
floods, droughts, and hurricanes remain a major cause of 
fatalities and economic losses worldwide. An improved 
scientific understanding of geologic hazards will reduce future 
losses through better forecasts of their occurrence and 
magnitude. The devastating earthquake in Haiti on January 12, 
2010, that killed an estimated 200,000 people and the enormous 
earthquake in Chili on February 27th, emphatically demonstrate 
the need for increased NSF investments in fundamental earth 
science research that stimulates innovations in natural hazards 
monitoring and warning systems.
    Energy and mineral resources are critical to the 
functioning of society and to national security. Improved 
scientific understanding of these resources will allow for 
their better management and utilization, while at the same time 
considering economic and environmental issues. This is 
particularly significant because shifting resource demands 
often reframe our knowledge as new research enabling 
technologies become available. For example, the new energy 
economy may require large quantities of rare earth elements, or 
other scarce elements that are unevenly distributed on earth 
and poorly understood. We need improved scientific 
understanding of these resources before we attempt to deploy 
them on enormous scales. Research in earth science is also 
fundamental to training and educating the next generation of 
earth science professionals and increased NSF investments in 
earth science education at all levels are needed because 
knowledge of the earth sciences is essential to science 
literacy, and to meet the environmental and resource challenges 
of the 21st century.
    There are extraordinary scientific opportunities in the 
earth sciences. In October, 2009, NSF's advisory committee 
released a major report, GeoVision, unraveling earth's 
complexities through the geosciences. That report states, 
``Society stands at the crossroads. With the growing problems 
of resource deprivation, energy sustainability, environmental 
degradation and climate change, we wonder if protecting the 
health of the planet while achieving widespread economic 
prosperity can become a reality.'' The NSF report provides a 
vision for the future of research in the geosciences as focused 
on fostering a sustainable future through a better 
understanding of our complex and changing planet. The report 
articulates a path to achieving its vision. It recommends a new 
emphasis on interdisciplinary research in order to achieve 
reasons and scientifically sound policymakers. The challenges 
ahead for the geosciences, the report says, are understanding 
the behavior of complex and evolving earth, reducing 
vulnerability, and sustaining life, and growing the geosciences 
workforce for the future.
    In conclusion, the NSF budget request for fiscal year 2011 
is being considered at the same time as the America COMPETES 
Act is being reauthorized. The America COMPETES Act set the 
stage to double the NSF budget over seven years. Despite 
overwhelming bipartisan support for America COMPETES, 
appropriations for NSF have fallen short of the authorized 
doubling path in the regular appropriations bills for fiscal 
years 2007 and 2010. NSF received three billion dollars in 
economic stimulus funds under the American Recovery and 
Reinvestment Act of 2009. This one-time injection of funding is 
very helpful, but sustained growth in NSF's budget is needed to 
achieve the objectives of the America COMPETES Act.
    So the Geological Society of America joins with the 
Coalition for National Science Funding and other organizations 
in recommending an appropriation of at least $7.424 billion 
dollars for NSF in fiscal year 2011.
    We are grateful to the House Appropriations Subcommittee 
for its past leadership in increasing investments in the 
National Science Foundation, and other science agencies, and we 
thank you for your consideration of our recommendation to 
appropriate $7.424 billion dollars, for the National Science 
Foundation in fiscal year 2011.
    Mr. Fattah. I thank you. Now you keep mentioning a 
testimony that there was a percentage of income increases that 
could be directly correlated to a scientific development?
    Mr. Schiffries. Right. That was from the National Academy's 
report called, ``The Gathering Storm'', published in 2007.
    Mr. Fattah. What was the percentage again?
    Mr. Schiffries. That report estimates that 85 percent of 
the measured growth in U.S. income capita was due to 
technological change, and they make the case that the 
technological change comes from advances in science.
    Mr. Fattah. Okay. Thank you very much. Let me thank you for 
your testimony.
    William Davis.
                              ----------                              

                                         Wednesday, April 14, 2010.

                  AMERICAN ANTHROPOLOGICAL ASSOCIATION


                                WITNESS

WILLIAM DAVIS, AMERICAN ANTHROPOLOGICAL ASSOCIATION

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Davis. Congressman Fattah.
    Mr. Fattah. How are you?
    Mr. Davis. Thank you very much.
    Mr. Stevens. Now your written testimony is going to be 
entered into the record.
    Mr. Davis. Yes.
    Mr. Stevens. But you can feel free to go beyond that.
    Mr. Davis. What I'd like is to take my couple minutes and 
expand on a couple of points and add another or so.
    Mr. Stevens. Okay.
    Mr. Davis. While the support provided by NSF is in fact 
only 21 percent of the total federal budget for basic research 
conducted in colleges and universities across the country, it 
is a very important resource and it provides 57 percent of 
federal support for research in the social sciences, and so for 
fields like my association's discipline, anthropology, but also 
political science, economics, and the other social sciences, 
this is a critical amount of support that undergirds and 
supports the research that's being done within these fields.
    Even more than that percentage in anthropology, the $92 
million that has been spent by NSF over the last three years to 
support anthropological research, and it's in archeology, 
cultural anthropology, physical anthro and linguistics, is in 
fact, 60 percent of all of the federal support that goes into 
these fields. So it is even more significant in the case of 
anthropology.
    While there are a few other sources for federal support in 
anthropology, this is the kind of thing that supports the work 
such as those that I mention in my written testimony, and I 
won't go over those. These projects, however, are simply 
examples of the kind of groundbreaking research that has been 
the source of the generation of new knowledge in areas of major 
public policy concern, such as incarceration and 
rehabilitation. The reduction of the frequency and damage of 
well fires, which was another one. A third one, the 
relationship of chronic disease to reproductive maturation. I 
would also note that NSF has provided support to my own 
association, the American Anthropological Association for the 
development of a museum exhibit that's now traveling the 
country on the subject of race, and is serving as a tremendous 
stimulus for public conversations and public education in all 
the places in which that exhibit is being viewed.
    Other anthropological projects of equal importance could 
have been conducted, are being conducted in colleges and 
universities around the country. I use these only as examples.
    We believe that the nation's investment in science and 
technology reaps benefits for years to come and we believe that 
those benefits far outweigh the level of federal support that's 
expended. I urge the Committee to provide full support 
requested by the President for the National Science Foundation 
in the 2011 budget, and thank you very much for receiving our 
testimony.
    Mr. Fattah. Well, I know that in a bipartisan way the 
Subcommittee is quite interested in support along the lines of 
your testimony. We do have obviously fiscal pressures on us and 
we have many of our fellow citizens who believe the federal 
government should be free from spending money, and the last 
thing in the world that we should do is actually tax anyone for 
important federal priorities. So it's important to put these 
matters on the record and the reasons for requests for 
spending, and we appreciate you coming. There is a vote on the 
floor, and we're going to proceed forward, so Rachel Poor, your 
moment has arrived. Your written testimony is going to be put 
in the record, but the Committee is very interested in anything 
you'd like to add.
                              ----------                              

                                         Wednesday, April 14, 2010.

AMERICAN SOCIETY OF AGRONOMY, CROP OF SCIENCE SOCIETY OF AMERICA, SOIL 
                       SCIENCE SOCIETY OF AMERICA


                                WITNESS

RACHEL POOR, AMERICAN SOCIETY OF AGRONOMY, CROP SCIENCE SOCIETY OF 
    AMERICA, SOIL SCIENCE SOCIETY OF AMERICA

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Poor. Good afternoon, Congressman Fattah. The American 
Society of Agronomy, the Crop Science Society of America, and 
the Soil Science Society of America appreciate the opportunity 
to testify today in support of the National Science Foundation.
    Many of our members, scientists' fundamental research 
depends on grants from NSF's biology, geosciences, and 
education and human resources directorates. For this reason, we 
fully support the administration's request for $7.424 billion 
for fiscal year 2011, which is roughly a six percent increase 
over last year's funding.
    While we understand that Congress faces tough economic 
choices in these times, we find that funding for basic science 
research is crucial to America's continued economic and 
intellectual prominence, and that it pays high dividends in the 
future. For instance, agricultural research, for every dollar 
spent, produces nine dollars' worth of food for malnourished 
people in food insecure countries.
    Basic science research has produced many other exceptional 
technologies and tools. For example, an NSF grant funded the 
physics research that led to magnetic residence imaging, known 
as the MRI, and nuclear residence magnetic spectroscopy, or 
NMR, technologies that have transformed medicine.
    In the discipline of soil science, NMR is used to 
characterize organic matter in environmental samples, a 
critical diagnostic for evaluating and understanding global 
carbon cycles and climate change. Basic research funded by the 
National Science Foundation has led to advances with 
applications in agriculture, environmental protection, 
manufacturing, and the national defense.
    America's universities are still among the most respected 
in the world, but American students are falling behind in 
science and math compared to those in other developed 
countries. University budgets are extremely tight, forcing 
university researchers to look elsewhere for funding. Many of 
our best and brightest students no longer seek advanced science 
degrees because they find that business, law, and medicine 
promise more lucrative careers. As a result, the agronomic crop 
and soil sciences, in particular, have suffered.
    Many of our members depend heavily on federal funding for 
their research which has led to increased crop yields, reduced 
environmental impacts, and new sources of fuel. As other 
funding has dried up, research grants funded by the NSF have 
become increasingly competitive. As an example, today we are 
hosting a member from the University of California, Emerson, 
who's a soil scientist in town for a poster session. He has 
four different grants from the NSF, totaling about 1.3 million 
dollars. One of his projects that he's working on currently 
addresses the problem of waste from the dairy industry in 
California's Central Valley, which has many large dairy 
operations, and in some counties, more cows than people.
    Each dairy cow produces 60 gallons of waste a day, and this 
waste has many nutrients that poison the ground water, and 
causes algae blooms and other toxic experiences. His research 
is focusing on ways to turn this dairy waste into Bio-Terre, 
which is a lightweight substance that can be easily transported 
to other areas in need of fertilizer and possibly also used as 
fuel source.
    We hope that you will continue to strongly support funding 
for the National Science Foundation, and especially the bio, 
geo, and ehr directorates. Thank you again for providing the 
Agronomy, Crop, and Soil Societies the opportunity to testify 
before the House Appropriations Subcommittee on Commerce, 
Justice, and Science today.
    Mr. Fattah. Well, let me thank you for your testimony and I 
see that you graduated from Johns Hopkins, my wife's alma 
mater, so even though you didn't get a chance to go to 
University of Penn U, obviously you have done well, 
notwithstanding.
    Ms. Poor. Were you at homecoming last weekend?
    Mr. Fattah. No, but seriously, thank you for your 
testimony, and would you like to identify your guest that you 
said that you brought with you?
    Ms. Poor. I do have a guest. He's not here. He's actually 
in a pro-visit right now.
    Mr. Fattah. Oh, okay. All right.
    Ms. Poor. He's meeting with one of the California 
congressmen.
    Mr. Fattah. All right, you can submit for the record his 
name and information. That would be great. All right?
    Ms. Poor. Okay.
    [Clerk's note.--The witness provided the following 
information for the record:]

    Today we are hosting Dr. Teamrat Ghezzehei, a Soil Science Society 
of America member from the School of Natural Sciences at the University 
of California, Merced. He is a soil scientist, in town for an NSF 
poster session. He has four different grants from the NSF, totaling 
about $1.3 million. One of his projects that he is working on currently 
addresses the problem of waste from the dairy industry in California's 
Central Valley, which has many large dairy operations, and, in some 
counties, more cows than people. Each dairy cow produces 60 gallons of 
waste a day, and this waste has many nutrients that poison the 
groundwater, causing algae blooms and other toxic effects. His research 
is focusing on ways to turn this dairy waste into biochar, which is a 
light substance that can be easily transported to other areas in need 
of fertilizer, and possibly also used as a fuel source.

    Mr. Fattah. Thank you very much.
    Ms. Poor. Thanks.
    Mr. Fattah. Tom Smith.
                              ----------                              

                                         Wednesday, April 14, 2010.

                  AMERICAN SOCIETY OF CIVIL ENGINEERS


                                WITNESS

TOM SMITH, AMERICAN SOCIETY OF CIVIL ENGINEERS

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Fattah. Your written testimony will be, as we would 
say, spread across the record.
    Mr. Tom Smith. Yes, sir.
    Mr. Fattah. You can expound to whatever degree you like 
given that there are less than eight minutes left on this vote.
    Mr. Tom Smith. Thank you, Congressman Fattah. I very much 
appreciate the opportunity to be here today. I'd like to just 
mention, my name is Tom Smith. I'm a Deputy Executive Director 
of the American Society of Civil Engineers. We are very pleased 
to offer this testimony to add on to some others that you've 
heard in support of the funding for the National Institute of 
Standards and Technology, and the National Science Foundation.
    The American Society of Civil Engineers is a non-profit 
technical society dedicated to advancing the science and 
education of civil engineers, of engineers, and advancing the 
profession of engineering. It was founded in 1852 and it's the 
country's oldest national engineering society. It's a 501(c)3, 
not for profit organization.
    I would refer the members of the Subcommittee to the 
written testimony and I'd like to just cover a few other points 
that I think are important, particularly for U.S. 
competitiveness of the research and education programs at the 
National Science Foundation, and of equal importance to the 
National Institute of Standards and Technology's core 
laboratories programs and standards activities. This 
Subcommittee no doubt has heard from numerous prominent 
scientific engineering and academic and industry groups, 
including those today, supporting these vital programs and ASCE 
would like to add our support to the President's request of 
$7.424 billion for NSF, and then the $918.9 million for NIST.
    The importance of activities carried out by these agencies 
to the nation's economic health cannot be overstated, certainly 
from the American Society of Civil Engineers' perspective. I 
would like to take my time here today to focus on hazards 
mitigation in particular. With NSF and NIST as well as other 
federal agencies there exists a number of small but critical 
programs designed to mitigate the impact of natural disasters. 
These programs include the National Earthquake Hazards 
Reduction Program, sometimes referred to as NEHRP, as well as 
the National Windstorm Impact Reduction Program, and several 
others. These programs deserve Congress' full attention and 
funding, and perhaps the earthquake recently in China helps to 
illustrate that, as well as Haiti and Chile. We actually have 
three assessment teams that are over in Chile right now, 
analyzing coasts, ports, oceans, impact in Chile. We have one 
also analyzing structures, and another analyzing additional 
infrastructures such as wastewater treatment plants, 
telecommunications facilities.
    So what we do is we send teams over there that analyze this 
and assess the impacts of that earthquake, and we come back and 
we figure out ways that we can learn from that, enhance our 
standards that are then adopted into building codes throughout 
the country, and even throughout the world. And it's this 
National Earthquake Hazards Reduction Program that plays a big 
part in that in helping increase our preparedness for 
earthquakes in the future, and if you look at the impact of 
Haiti versus the impact of Chile, you'll see that how important 
this is, being prepared for earthquakes. The death and 
destruction was far less in Chile.
    Each year the United States suffers an estimated $52 
billion dollars in property damage, destruction of commerce, 
lost lives due to natural disasters such as hurricanes, 
tornadoes, wildfires, and earthquakes. A single major event 
such as a large scale earthquake or hurricane can cause between 
$80 billion dollars and $200 billion dollars in economic losses 
in the affected areas. The tragedy caused by hurricanes Katrina 
and Rita in August and September of 2005 underscore the risk to 
society from natural disasters, and the importance of these 
programs. I will just sum up by saying that an ounce of 
prevention is worth a pound of cure, and so this is money well 
spent, and I know you've got so many different competing 
interests for money as you referenced earlier. But I will say 
that this is truly money very well spent. This comes from the 
civil engineers who are designing modern civilization.
    Since 1977, NEHRP has provided the resources and leadership 
that have led to significant advances and understanding and the 
risks earthquakes pose and the best way to counter them. Under 
NEHRP, which includes activities at NIST and NSF together with 
operations at the Federal Emergency Management Agency and the 
U.S. Geological Survey, there has been a constant source of 
funding for seismic monitoring, mapping, research testing, co-
development, mitigation and emergency preparedness. A national 
study and report by the Multi-Hazard Mitigation Counsel 
entitled, ``Natural Hazard Mitigation Saves: An Independent 
Study to Assess the Future Savings from Mitigation Activities'' 
has concluded that money spent on reducing the risk of natural 
hazards is a sound investment. On average a dollar spent on 
hazard mitigation provides the nation about $4 in future 
benefits. This type of research to be conducted under this 
program has the potential to increase the benefits greatly.
    The House recently approved H.R. 3820, that's the Natural 
Hazards Risk Reduction Act of 2010. The bill which passed on a 
vote of 335 to 50 would reauthorize NEHRP for five years. The 
legislation authorizes NEHRP for five years, with a total 
authorized funding level of $176 million dollars in fiscal year 
2011. Among the programs under the jurisdiction of this 
Subcommittee the bill authorizes $66 million dollars for NSF, 
$7.7 million dollars for NIST under the NEHRP program. ASCE 
urges the Committee support the full authorized funding level 
for these programs.
    Another important program that has the potential to save 
lives and property is the National Windstorm Impact Reduction 
Program that was created in 2004 by Public Law 108-360. As the 
events of 2005 on the nation's Gulf Coast have so vividly 
illustrated, the nation remains highly vulnerable to major 
windstorms. This program was also reauthorized by H.R. 3820 for 
$26.3 million dollars for fiscal year 2011, and we urge 
Congress to support full funding levels for this.
    So let me just say in conclusion, ASCE really is the 
largest publisher also of civil engineering content. So again, 
over 30 technical journals, we rely significantly on engineers 
and scientists throughout the world, many of whom are funded by 
NSF and this information that is being used to develop 
standards that go into building codes in this country, and it 
is important to protecting the public health safety and 
welfare, and we urge your support.
    Thank you very much.
    Mr. Fattah. Let me thank you for your testimony, and it 
goes without saying that the community agrees that an ounce of 
prevention is far preferable than a pound of cure.
    Everyone should stop looking at the clock. You know, 
there's no possibility I want to miss this vote, all right? 
There are 300 plus members who have not voted yet. So even 
though the time is running out, the process will go on for a 
minute, and we have secured another member of the Subcommittee 
who is going to vote and then come to make sure that our two 
remaining witnesses fully get a chance to articulate their 
viewpoint.
    So we're going to move forward, and I would ask Howard 
Silver to come forward now and speak on behalf of the 
Consortium of Social Science Associations.
    Mr. Silver. If you need to go vote, I've got time.
    Mr. Fattah. No, that's fine. I have time, too. So you go 
right ahead, and we'll get your testimony on the record.
                              ----------                              

                                         Wednesday, April 14, 2010.

               CONSORTIUM OF SOCIAL SCIENCE ASSOCIATIONS


                                WITNESS

HOWARD SILVER, PH.D., CONSORTIUM OF SOCIAL SCIENCE ASSOCIATIONS

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Silver. I am Howard Silver, and I am the Executive 
Director of the Consortium of Social Science Associations, 
which advocates for federal funding for the social behavior on 
economic sciences. I will begin by establishing my Philadelphia 
bona fides.
    Mr. Fattah. Now you definitely have my interest. If you've 
got any connection in Philadelphia you're almost guaranteed to 
get what you want out of this Committee. So go right ahead.
    Mr. Silver. Through my wife of 35 years, who was born and 
raised in Philadelphia and who graduated from Temple 
University.
    Mr. Fattah. Well I spent a decade or so on the Temple Board 
of Trustees, she could have gone anywhere. If she went to 
Temple, that's great.
    Mr. Silver. Anyway, I am here in my short time to try and 
talk about five agencies under the jurisdiction of this 
Subcommittee, which have significant impact on SB scientists, 
the research they conduct, the data they collect, analyze, and 
disseminate. First, the National Science Foundation. This is, 
as you know, the 60th anniversary of NSF. They remain the 
premiere basic research agency in the world. I agree with my 
colleagues who spoke earlier in urging your support for the 
President's request of $7.424 billion.
    I also want to thank the Subcommittee for their support for 
the $3 billion in the American Recovery and Reinvestment Act in 
2009, and for the Subcommittee's support for all of the 
disciplines that NSF supports.
    With regard to the fiscal 2011 budget for the social 
behavioral and economic science directorate, we are getting 
somewhat disappointed with the small increase. It's 5.3 
percent, and only about $13 million, but we understand that 
there are opportunities for scientists in a lot of the 
interdisciplinary cross directorate programs, including what 
ASA was calling CYS, cyber infrastructure in the environmental 
safety, health, and social ramifications of new technology, and 
the science and innovation policy. We are also delighted that 
Mridul Gautam, who happens to be a former President of COSSA, 
is now the Assistant Director for the SP directorate.
    As you know, the importance of the SB sciences and the 
research the scientists conduct to all of the problems that 
affect our nation and world, whether it be climate change, 
energy, terrorism, learning and ducation, we're understanding 
political, economic, and social behavior, and like other 
disciplines supported by NSF, SB supported scientists, win 
Nobel prizes. Political scientist Elinor Ostrom, and economist 
Oliver Williamson, the two latest 2009 winners of the prize in 
economics.
    With regard to NSF's education role, we strongly believe 
that the SB scientists have a role in STEM education, whether 
it be through the research conducted at the Science of Learning 
Centers, which is supported by SBE's funding, which looks into 
how children and adults as well learn, to the research and 
evaluation programs of the Reese Division of the EHR which are 
scheduled for enhancements in the President's 2011 budget.
    We are also strongly supportive of NSF's role in enhancing 
diversity and broadening participation in the sciences. COSSA 
has taken a leadership role in the scientific community with a 
retreat that we put on in 2008 with a Congressional briefing in 
2009, both which there's a report and some slides from the 
presentations on our web page, and further activity will occur 
either in late 2009 or early 2010.
    Moving on to the Department of Justice. We thank the 
Subcommittee for it's strong support of the large increase for 
the Bureau of Justice in the fiscal 2010 budget to revitalize 
the National Crime Victimization Survey, and we strongly 
support the increase, the $62\1/2\ million for fiscal year 
2011. We are delighted that the President has nominated a 
strong scientist, Jim Lynch, to head BJS. Hopefully one of 
these days the Senate will confirm him.
    This year, as you may note, the big increase has shifted to 
the National Institute of Justice. It is trying to revitalize 
that research arm of the department. We have strongly supported 
the request for $70 million. We are delighted that John Loeb, 
another strong scientist, has been nominated to run NIJ, and 
like Jim Lynch, one of these days the Senate will confirm him.
    You've probably heard for the last few years about the 
National Academy's Report on the National Institute of Justice. 
I was told last week it will finally come to fruition probably 
the end of this month or the beginning of next month, and 
hopefully that will spur on the improvement of NIJ the way the 
earlier report on BJS has helped revitalized that.
    Social science research at NIJ is devoted to building an 
evidence base to crime and criminal justice policy. It is 
something that not only social scientists are trying to do, but 
it's something police chiefs all over the country want. My 
written testimony has some quotes from police leaders from one 
end of the country to the other, asking, supporting research 
here.
    The Census. As we know, we have three days left to mail 
back our census forms, and before the Census Bureau starts the 
non-response follow-up, we strongly thank the Subcommittee for 
its support in getting the Census funded through all the 
difficulties it went through over the past three years. It's 
interesting, I remember the 2010 Census Advisory Committee at 
the meeting last week in Suitland. We were already talking 
about envisioning the 2020 Census, and what that would mean 
perhaps not having the postal service, for example. The Census 
Bureau is going to do a lot of research on the 2020, and so the 
support for the request for increasing the sample size of the 
American community survey is just very, very important to this 
effort as we go down the road.
    And finally, the Bureau of Economic Analysis has a big 
increase to $109.2 million. It's a large percentage increase 
but we hope the Subcommittee can support it. BA wants to do 
four things, issue GDP reports by industry on a quarterly 
basis. They want to give us better measures of individual 
household income, they want to improve the foreign direct 
investment data that they have and improve the data on the 
energy sector, all very important to giving us a better picture 
of the American economy so that we can react in a much quicker 
way to jolts to it, such as the ones we've had in the past few 
years.
    Thank you for your time, your attention, and now you can go 
vote.
    Mr. Fattah. Well, thank you very much. You're a very smart 
person since you married someone from Philadelphia.
    Mr. Silver. I'll tell her that.
    Mr. Fattah. But your judgment is in question if you 
sincerely believe the Senate is going to do anything at any 
point. But I want to recognize the former Chairman of the 
Committee who is going to sit in the chair, my great colleague, 
Mr. Serrano. The Yankees are going to lose this year. But he's 
here, and I want the record to reflect that if Patrick Kennedy 
would have been more efficient, I would have gone through the 
last witness here, Anthony (Bud) Rock.
    Mr. Silver. I just wanted to say that aside from my wife 
from Philadelphia, I came from the Bronx.
    Mr. Fattah. That shows.
    Mr. Serrano [presiding]. Okay, so now we will hear from 
Anthony (Bud) Rock. It sounds like a rock and roll singer.
    Mr. Rock. I've heard that, actually.
    Mr. Serrano. From the Association of Science-Technology 
Centers, Incorporated.
                              ----------                              --
--------

                                        Wednesday, April 14, 2010. 

        ASSOCIATION OF SCIENCE-TECHNOLOGY CENTERS, INCORPORATED 


                                WITNESS

ANTHONY (BUD) ROCK, ASSOCIATION OF SCIENCE-TECHNOLOGY CENTERS, 
    INCORPORATED

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Rock. Thank you very much, Congressman Serrano. Thank 
you for giving me the opportunity to speak here today and for 
your willingness to join in for the very last presenter at the 
sessions here today. My name is Bud Rock, and I'm the CEO of 
the Association of Science-Technology Centers. We are a non-
profit organization of science centers and museums that are 
dedicated to advancing science education and furthering public 
engagement with science.
    I'm here today before you very briefly to urge the 
Subcommittee to consider reversing the administration's 
proposed budget reductions in the area of science education 
programs at the National Science Foundation, at the National 
Oceanic and Atmospheric Administration, and at NASA, as well. I 
have submitted written testimony for the record so I will be 
very brief today as the last presenter.
    Just to emphasize that our science centers are sites of 
informal learning, and they are geared for people of all ages, 
from all backgrounds, who will learn the basics of science and 
who will understand how science addresses itself behind very 
important issues of our day--the climate, energy, environment, 
health, nutrition, and disease, and a heavy focus today on the 
new technologies and their impacts on our daily lives.
    Mr. Chairman, we have nearly 500 member science 
institutions and we serve over 80 million visitors per year in 
our centers around the country. These centers are featuring 
interactive exhibits, they're featuring hands-on science 
experiences, there are educational programs for children and 
for adults, but they are also assisting our nation's teachers 
of science and technology and engineering and mathematics by 
offering workshops and instructional seminars and a variety of 
curriculum materials, as well. These are centers that range in 
scale from the largest centers, you certainly are familiar with 
the New York Hall of Science in New York, the Franklin 
Institute in Philadelphia, the Exploratorium in San Francisco, 
Museum of Science and Industry in Chicago. These are all very 
large institutions. And they range right through to some very 
small institutions as well, those that are tied to universities 
and tied to other laboratories around the country.
    Our centers today are reaching 18 million students per 
year, and these are not just the school field trips that you 
tend to be most familiar with. These are centers that are 
offering classes and demonstrations. They are offering school 
outreach programs, they are offering science camps, resources 
for home schoolers. They are doing a great deal of work in the 
after-school programs and the youth development programs 
throughout the entire country.
    We hope that this Committee will continue to support the 
work that our science centers do and it's through the National 
Science Foundation and NASA and NOAA that we look to this kind 
of support. This Subcommittee is responsible for approximately 
40 percent of all the federal support for the STEM education 
programs that are so critical obviously to the nation's 
economic strength.
    In the National Academy's Report, ``Rising Above the 
Gathering Storm'', there was a recommendation that the nation 
increase its talent pool, and that the emphasis be placed on 
K12 science and mathematics education. I just want to emphasize 
here today that in order to improve STEM education, we must 
draw on a full range of learning opportunities and experiences 
including those that are informal and non-school settings, and 
it's for that reason that it's hard to understand why the 
administration has proposed such sharp reductions in informal 
science education. The budget of NSF's informal science 
education program, which has had no measurable growth for over 
five years now, would actually drop by 2.4 percent in this 
budget. That's $1.6 million dollars in a program that's only 
funded at $66 million to begin with, while the entire agency is 
anticipated to grow over seven percent.
    NOAA and NASA, their education programs would each decline 
by over 20 percent, and that is really hard for us as science 
centers to grasp in the face of all that these programs have to 
offer. It's particularly hard for us to grasp in view of the 
fact that the administration's own initiatives are designed to 
improve the participation and the performance of American 
students in these areas of the STEM fields.
    I thank the Subcommittee for the emphasis that they've 
placed in the past on climate change education, for example, 
and I would argue that we should continue in that same vein and 
put an emphasis utilizing the science centers and their museums 
in areas such as energy education and energy and environment, 
and in health and in areas that focus on applications of the 
new technologies.
    We appreciate the tight fiscal constraints, and we 
understand that the Subcommittee is contending with these. Even 
so, we would respectfully request that the Subcommittee seek to 
reverse the reductions proposed by the administration for 
informal science education at these three agencies, NSF, NOAA, 
and NASA, and we would hope that you would consider 
revitalizing these programs at a rate that is similar to the 
administration's growth trajectory for these agencies overall, 
particularly the National Science Foundation.
    My final point, Mr. Chairman, is that we look forward to 
the endorsement for informal science education that will be 
forthcoming, we anticipate in the Report of the President's 
Council of Advisors on Science and Technology where we've had a 
lot of engagement in this regard. Clearly the administration 
recognizes the value of what we are doing. The question now is 
whether or not we can associate that value with the larger role 
of the agencies involved, NOAA, NASA, and NSF and see that they 
are recognized with that same support.
    Thank you very much for the opportunity to be here and be 
the last speaker here today, and for your willingness to join 
for this last statement. Thank you very much.
    Mr. Serrano. Well, we thank you for your testimony. We can 
assure you that the fact that we have the first full day back 
where we run around and visit seven meetings at the same time 
is not an indication of how worthy your testimony is. We take 
it very seriously, and I know this Committee well. Just one 
point. It is a very difficult fiscal situation that we have, 
but there is a commitment, I know, from this Chairman, Chairman 
Mollohan, and from this Committee to do the best that we can 
because there is a commitment to those sciences and there is a 
commitment to STEM, and there is a commitment to making sure 
that we continue to move ahead, and you will see that as we go 
along trying to put this budget together.
    Mr. Rock. Thank you very much for your commitment on that.
    Mr. Serrano. Thank you. Thank you so much. I get to 
adjourn.
    [The following additional written statements were provided 
for the record:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           W I T N E S S E S

                              ----------                             
                                                                   Page
Acker, Bill......................................................     1
Alexander, Nick..................................................    80
Anthes, Richard..................................................   228
Arnold, Douglas..................................................   498
Bean, David......................................................    45
Bedford, David................................................ 278, 473
Benoit, Jeff.....................................................   493
Blakey, Marion...................................................    93
Brandel, A. F....................................................   417
Brown, W. Y......................................................   456
Bye, Dr. Raymond, Jr.............................................   405
Capps, Thomas....................................................   256
Carr, J. P.......................................................   362
Carr, J. R.......................................................   439
Carter, Jena.....................................................   459
Chandler, Bill...................................................   270
Chatwin, Anthony.................................................   285
Clarke, Hon. Yvette..............................................   108
Cobb, S. B.......................................................   114
Cole, Lorraine...................................................   167
Coochise, Elbridge...............................................    38
Crockett, L. R...................................................   477
Davis, William...................................................   314
de Poutiloff, M. B...............................................   482
Derene, Steve....................................................   436
Ehlers, Hon. Vern................................................   236
Farr, Hon. Sam...................................................    60
Fletcher, Kristen................................................   385
Frank, Billy, Jr.................................................    20
Fremstad, Shawn..................................................   380
Gautam, Mridul...................................................    14
Goldberg, Dr. M. E...............................................   503
Gordon, Hon. Bart................................................    65
Gropp, Robert....................................................   362
Harkins, A. M....................................................   144
Harvell, Samantha................................................    79
Heller, Hon. Dean................................................    28
Hensel, Nancy....................................................   394
Hoogstraten, Bruce...............................................   102
Houston, Aaron...................................................   123
Huchra, John.....................................................   355
Jackson, M. C., III..............................................   449
Jackson, Tina....................................................   241
Jones, Hon. W. B.................................................   351
Keel, Jefferson..................................................    54
Kepferle, Gregory................................................   179
Kirby, Kate......................................................   224
Kucinich, Hon. D. J..............................................   353
Lee, Anne........................................................   399
Leopold, Bruce...................................................   517
Love, M. E.......................................................   249
Lowell, Beth.....................................................   464
Lynch, G. P.....................................................86, 488
Mackenzie, S. A..................................................   210
Mandel, David....................................................   469
Martin, Gabrielle................................................   130
Mathis, K. J.....................................................   292
Matyas, Jaime....................................................   195
McCandless, Bruce, II............................................   427
McCarthy, Hon. Carolyn...........................................    33
McClure, Thomas..................................................   402
Menashes, M. E...................................................   444
Millward, Susan..................................................   152
Morrison, Robert.................................................   432
Murphy, Charles..................................................   508
Olson, Hon. Pete.................................................    73
Osthus, Rebecca..................................................   368
Peters, Kelly....................................................   172
Petsko, G. A.....................................................   203
Pietrafesa, Leonard..............................................   263
Pines, Z. A......................................................   299
Poor, Rachel.....................................................   319
Riksen, Michael..................................................   453
Rock, Anthony (Bud)..............................................   342
Saloom, Stephen..................................................   412
Sandy, Mary......................................................   187
Schiffries, C. M.................................................   307
Silver, Howard...................................................   334
Slippen, Dan.....................................................   365
Sloan, Virginia..................................................   389
Smith, Scott.....................................................     8
Smith, Tom.......................................................   326
Stedman, B. J....................................................   422
Taber, R. B......................................................   513
Talman, Dr. W. T.................................................   218
Velazquez, Tracy.................................................   158
Walker, Captain David............................................   514
Williams, B. D...................................................   138
Zorn, J. E.......................................................   407

                                  <all>



</pre></body></html>
